<html>
<title> - THE PRESENT AND FUTURE OF PUBLIC SAFETY COMMUNICATIONS</title>
<body><pre>[Senate Hearing 110-1061]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 110-1061
 
                       THE PRESENT AND FUTURE OF 
                      PUBLIC SAFETY COMMUNICATIONS

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 8, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
39-473                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
              Margaret Spring, Democratic General Counsel
             Lisa J. Sutherland, Republican Staff Director
          Christine D. Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 8, 2007.................................     1
Statement of Senator Cantwell....................................    46
Statement of Senator Carper......................................    58
Statement of Senator Inouye......................................     1
    Letters, dated January 26 and 29, 2007 to Hon. Daniel K. 
      Inouye in support of S. 385, the Interoperable Emergency 
      Communications Act.........................................   2-3
    Prepared statement...........................................     4
Statement of Senator Klobuchar...................................     5
Statement of Senator McCaskill...................................    52
Statement of Senator Snowe.......................................    55
Statement of Senator Stevens.....................................     5
    Letters, dated November 28, 2006 and February 7, 2007 to Hon. 
      Ted Stevens against reallocation of the 700 MHz spectrum...    12
Statement of Senator Sununu......................................    49
Statement of Senator Thune.......................................    61

                               Witnesses

Billstrom, David, Chairman and CEO, National Interop, Inc........    30
    Prepared statement...........................................    33
Desch, Matthew J., Chairman and CEO, Iridium Satellite, LLC......    35
    Prepared statement...........................................    37
Largent, Hon. Steve, President and CEO, CTIA--The Wireless 
  Association<SUP>'</SUP>........................................    26
    Prepared statement...........................................    28
McEwen, Harlin R., Chairman, Communications and Technology 
  Committee, IACP; Communications Advisor, MCC, NSA, MCSA; Vice 
  Chairman, National Public Safety Telecommunications Council....    14
    Prepared statement...........................................    16
O'Brien, Morgan, Chairman, Cyren Call Communications.............    20
    Prepared statement...........................................    22
Werner, Charles L., Fire Chief, Charlottesville Fire Department; 
  on behalf of the International Association of Fire Chiefs......     7
    Prepared statement...........................................     8

                                Appendix

Cosgrave, Paul J., Department of Information Technology and 
  Telecommunications, City of New York prepared statement........    75
Globalstar, Inc., prepared statement.............................    65
Letter, dated February 8, 2007 to Hon. Ted Stevens from Leroy 
  Watson, Legislative Director, National Grange of the Order of 
  Patrons of Husbandry...........................................    76
McCain, Hon. John, U.S. Senator from Arizona, prepared statement.    65
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    David Billstrom..............................................   117
    Matthew J. Desch.............................................   122
    Hon. Steve Largent...........................................   114
    Harlin R. McEwen.............................................    88
    Morgan O'Brien...............................................   107
    Charles L. Werner............................................    78
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Harlin R. McEwen.............................................    93
    Morgan O'Brien...............................................   111
    Charles L. Werner............................................    88
Response to written questions submitted by Hon. Jim DeMint to 
  Morgan O'Brien.................................................   112
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    David Billstrom..............................................   119
    Harlin R. McEwen.............................................    90
    Morgan O'Brien...............................................   108
    Charles L. Werner............................................    87
Response to written questions submitted by Hon. Olympia J. Snowe 
  to Hon. Steve Largent..........................................   116


         THE PRESENT AND FUTURE OF PUBLIC SAFETY COMMUNICATIONS

                              ----------                              


                       THURSDAY, FEBRUARY 8, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Good morning. Today's hearing will focus on 
the present and future of public safety communications. This is 
a matter of continuing importance to our Nation and to the men 
and women who risk their lives daily and provide Americans with 
emergency assistance.
    In too many cities and counties across this Nation, our 
Nation's first providers struggle to talk to one another during 
natural and manmade disasters. Unfortunately, this problem is 
not new. More than a decade ago, a specially created Public 
Safety Wireless Advisory Committee reported on the need for 
immediate measures to alleviate spectrum shortfalls, and 
promote voice interoperability.
    While we have made significant strides since that time, one 
need only look at our experience during 9/11, or after the 
Northeast blackouts of 2003, or Katrina. We know that we have a 
long way to go.
    In 2005, this committee took an important step by creating 
a new $1 billion grant program to help fund new equipment and 
training necessary to improve communications interoperability. 
Regrettably, our efforts to make progress on this problem are 
being undermined by the Administration, which is using this 
money, already in the pipeline, to cover the $1.2 billion cut 
from the Department of Homeland Security grants that support 
State and local preparedness and firefighter assistance. I hope 
we can do better in this regard.
    In the 110th Congress, I have begun by working with my 
colleagues Senator Stevens, Senator Kerry, Senator Smith, and 
Senator Snowe, by introducing this measure S. 385, the 
Interoperable Emergency Communications Act, which would 
eliminate current restrictions in the law that hinders some 
interoperability efforts and would provide the National 
Telecommunications and Information Administration with the 
needed guidance from Congress to ensure the money is 
effectively disbursed. I hope that we move quickly on this bill 
in the coming weeks.
    Today's hearing will also allow us to peer into the future 
of public safety communications. By now, even the casual 
observer recognizes our broadband networks are changing the way 
in which we communicate and exchange information.
    While we hate to admit it, our children led the way, using 
the power of new technology to provide video and real-time 
information to our home and work computers, it does not take 
much imagination to realize how invaluable these capabilities 
could be to the first on the scene of an emergency.
    My statement goes on a little longer, but I think we have 
the message.
    I now would like to call upon the Vice Chairman of the 
Committee, Senator Stevens.
    I would like to include in the record letters I received 
from the Hawaii Public Safety Committee in support of S. 385.
    [The information referred to follows:]

                City and County of Honolulu Fire Department
                                     Honolulu, HI, January 26, 2007
Hon. Daniel K. Inouye,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
    Dear Senator Inouye:
    On February 8, 2007, the Senate Committee on Commerce, Science, and 
Transportation will consider legislation to create a Public Safety 
Broadband Trust (PSBT). As Fire Chief of the Honolulu Fire Department, 
I support the concept of creating a nationwide, broadband network for 
public safety and ask that you also support this important issue.
    During emergencies, fire, emergency medical services, and law 
enforcement personnel must have access to the most modern and reliable 
communications capabilities in order to communicate with each other and 
with state and Federal officials. The ability for public safety to have 
seamless, nationwide roaming capability on a hardened and secure 
broadband network is essential to meet our increased responsibilities 
in homeland security. This goal can be met if the public safety 
community has priority access to a nationwide, interoperable, next 
generation, broadband network that incorporates the latest technologies 
such as text messaging, photos, diagrams, and video not currently 
available on existing public safety land mobile systems.
    To achieve this goal, we support legislation to create a PSBT to 
oversee management of this public/private network. The PSBT would hold 
the license for 30 MHz of broadband spectrum in the upper 700 MHz band, 
which is scheduled for auction later this year by the Federal 
Communications Commission. Without legislation, the one-time 
opportunity will be lost for public safety to have access to a 
broadband network immediately adjacent to the already-allocated 24 MHz 
of spectrum that will become available exclusively for our use in 
February 2009. The 24 MHz as well as the proposed public/private 
broadband network are necessary in order for public safety to meet its 
future obligations to the public.
    Should you have any questions or comments, please call me. Thank 
you for your consideration.
            Sincerely,
                                          Kenneth G. Silva,
                                                        Fire Chief.
                                 ______
                                 
                           County of Hawaii Fire Department
                                         Hilo, HI, January 29, 2007
Hon. Daniel K. Inouye,
United States Senator,
Prince Kuhio Federal Building,
Honolulu, HI.
    Dear Senator Inouye:
    On February 8, 2007, the Senate Committee on Commerce, Science, and 
Transportation will consider legislation to create a Public Safety 
Broadband Trust. As Fire Chief of the Hawaii Fire Department and member 
of the International Association of Fire Chiefs, I wholly support the 
concept of creating a nationwide, broadband network for public safety 
and ask that you, too, support this important issue.
    During emergencies, fire, emergency medical services, and law 
enforcement personnel must have access to the most modern and reliable 
communications capabilities in order to communicate with each other and 
with state and Federal officials. The ability for public safety to have 
seamless, nationwide roaming capability on a hardened and secure 
broadband network is essential to meet our increased responsibilities 
in homeland security. This goal can be met if the public safety 
community has priority access to a nationwide, interoperable, next 
generation, broadband network that incorporates the latest technologies 
such as text messaging, photos, diagrams, and video not currently 
available on existing public safety land mobile systems.
    To achieve this goal, we support legislation to create a Public 
Safety Broadband Trust (PSBT) to oversee management of this public/
private network. The PSBT would hold the license for 30 MHz of 
broadband spectrum in the upper 700 MHz band, which is scheduled for 
auction later this year by the Federal Communications Commission. 
Without legislation, the one-time opportunity will be lost for public 
safety to have access to a broadband network immediately adjacent to 
the already-allocated 24 MHz of spectrum that will become available 
exclusively for our use in February 2009. The 24 MHz as well as the 
proposed public/private broadband network are necessary in order for 
public safety to meet its future obligations to the public.
    I would welcome any questions or comments you may have on this 
issue of utmost importance to America's fire service and all of public 
safety. Thank you for your consideration and support.
            Sincerely,
                                        Darryl J. Oliveira,
                                                        Fire Chief.
                                 ______
                                 
                           County of Kaua'i Fire Department
                               Lihu'e, Kaua'i, HI, January 26, 2007
Hon. Daniel K. Inouye,
United States Senator,
Prince Kunio Federal Building,
Honolulu, HI.
    Dear Senator Inouye:
    On February 8, 2007, the Senate Committee on Commerce, Science, and 
Transportation will consider legislation to create a Public Safety 
Broadband Trust (PSBT). As Fire Chief of the Kaua'i Fire Department, I 
support the concept of creating a nationwide, broadband network for 
public safety and ask that you also support this important issue.
    During emergencies, fire, emergency medical services, and law 
enforcement personnel must have access to the most modern and reliable 
communication capabilities in order to communicate with each other and 
with state and Federal officials. The ability for public safety to have 
seamless. nationwide roaming capability on a hardened and secure 
broadband network is essential to meet our increased responsibilities 
in homeland security. This goal can be met if the public safety 
community has priority access to a nationwide, interoperable, next 
generation, broadband network that incorporates the latest technologies 
such as text messaging, photos, diagrams, and video not currently 
available on existing public safety land mobile systems.
    To achieve this goal, we support legislation to create a PSBT to 
oversee management of this public/private network. The PSBT would hold 
the license for 30 MHz of broadband spectrum in the upper 700 MHz band, 
which is scheduled for auction later this year by the Federal 
Communications Commission. Without legislation, the one-time 
opportunity will be lost for public safety to have access to a 
broadband network immediately adjacent to the already-allocated 24 MHz 
of spectrum that will become available exclusively for our use in 
February 2009. The 24 MHz as well as the proposed public/private 
broadband network are necessary in order for public safety to meet its 
future obligations to the public.
    Should you have any questions or comments, please call me. Thank 
you for your consideration.
            Sincerely,
                                       Robert F. Westerman,
                                                        Fire Chief.
                                 ______
                                 
 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Today's hearing will focus on the present and future of public 
safety communications. This is a matter of continuing importance to our 
Nation, and to the men and women who risk their lives daily to provide 
Americans with emergency assistance.
    In too many cities and counties across this Nation, our Nation's 
first responders struggle to talk to one another during natural or 
manmade disasters. Unfortunately, this problem is not new. More than a 
decade ago, a specially-created Public Safety Wireless Advisory 
Committee reported on the need for immediate measures to alleviate 
spectrum shortfalls and to promote voice interoperability.
    While we have made significant strides since that time, one need 
only look at our experience during the events of September 11, after 
the Northeast blackouts in 2003, and in the aftermath of Hurricane 
Katrina, to know that we still have a long way to go.
    In 2005, the Commerce Committee took an important step by creating 
a new $1 billion grant program to help fund new equipment and training 
necessary to improve communications interoperability. Regrettably our 
efforts to make progress on this problem are being undermined by the 
Administration, which is using this money, already in the pipeline, to 
hide the $1.2 billion cut from the Department of Homeland Security 
grants that support state and local preparedness and firefighter 
assistance. I hope and trust that Congress can do better in this 
regard.
    In the 110th Congress, I have begun by working with my colleagues 
Senators Stevens, Kerry, Smith and Snowe, by introducing S. 385--the 
Interoperable Emergency Communications Act--which would eliminate 
current restrictions in the law that hinder some interoperability 
efforts and would provide the National Telecommunications and 
Information Administration with needed guidance from Congress to ensure 
the money is effectively dispersed.
    I hope that we will move quickly on this bill in the coming weeks.
    Today's hearing also allows us to peer into the future of public 
safety communications. By now, even the casual observer recognizes how 
broadband networks are changing the way in which we communicate and 
exchange information.
    Our children lead the way, using the power of new technology to 
provide streaming video and real-time information to our home and work 
computers, and increasingly, to mobile devices on-the-go. It does not 
take much imagination to realize how invaluable these capabilities 
could be to those first on the scene of an emergency.
    Such technology could send streaming video to command posts in the 
aftermath of a hurricane, could assess environmental conditions faced 
by firefighters responding to a chemical fire, and could transmit the 
vital signs of injured victims to those providing emergency medical 
assistance.
    To realize this future, we must prepare for it. This hearing raises 
some of the most important questions this committee will face:

  <bullet> Do we as a nation have a broadband plan for public safety?

  <bullet> Do our first responders have the resources, both in spectrum 
        and in funding, to build and operate networks that will enhance 
        emergency response capabilities?

    Now is the time for this discussion. In February 2009, broadcasters 
will complete the digital television transition and will open 
significant amounts of new spectrum for commercial and public safety 
use. Our current plans for the use of that spectrum were adopted nearly 
a decade ago. Given the stakes, it is worth taking a fresh look.
    While some parties, led by large wireless companies with a vested 
interest in the status quo, argue that this discussion will delay the 
digital television transition, let me put that fear to rest. This 
discussion will not change that date.
    However, in the limited time remaining until the planned auction of 
DTV spectrum by January 2008, it is incumbent on the Congress and the 
Federal Communications Commission to understand the needs of our first 
responders and to ensure that we, as a nation, have put in place a plan 
that will provide public safety with the capabilities they need in a 
broadband world.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman. I 
applaud you for examining these public safety issues very 
early. We have had a focus on this subject for some time, and I 
want to join you in continuing with that focus.
    This committee led the way that established the hard date 
for the transfer of the 24 megahertz of spectrum to public 
safety and allocated the $1 billion for interoperability grants 
last year as part of our DTV bill. The other public safety 
issues addressed by our committee were the creation of a 
wireless alert and warning system and the Tsunami Warning 
System. We allocated $43.5 million for E-911 and $100 million 
for the National Alert System, and funded the Tsunami Warning 
System.
    Going forward now, I'm pleased that you have made 
interoperability one of the first bills we'll introduce this 
year, and I'm proud to join you in that regard. It will provide 
grant guidance for the billion dollars in interoperability 
grants that we provided last year. The funds will drive the 
public safety community forward in resolving the 
interoperability issues through planning, training, and 
equipment grants, as well as establishment of technology 
reserves throughout the country. You have also highlighted the 
9-1-1 issues and agreed to mark up S. 93 next week. That also 
provides advanced borrowing authority so the $43 million for 
the 911 concept can be distributed to public safety before the 
DTV auction takes place.
    The Cyren Call broadband trust is going to be one of the 
topics addressed here today. It sounds like something good in 
concept, and it could be good for public safety. I've had a 
considerable number of questions raised as to whether this 
broadband trust proposal may undermine the progress on the DTV 
transition and interoperability grant distribution. They have 
expressed fear that the program could undermine the funding we 
provided to public safety last Congress. I hope that we can 
have an opportunity to examine this now, and explore, with the 
proponents of that concept, alternative models that would not 
do what these people fear.
    Thank you very much.
    The Chairman. I thank you, sir.
    Senator Klobuchar, would you care to make a statement?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman. And thank you 
both for the work that you've done on this important issue.
    I think when we--when it comes to interoperability, we can 
all agree on a common goal, that our law enforcement personnel 
should be able to talk to each other. We can agree on the 
priority of this goal, based on what we saw after--during 9/11 
and after Katrina. And I believe we can agree on the urgency of 
this goal.
    The question is, What's the most efficient and effective 
way to do this? And I will be coming to this just from my own 
experience as the Chief Prosecutor in Hennepin County, 
Minnesota, which I did for 8 years, and that includes 1.1 
million people, which is about a fourth of the population of 
our State, it's Minneapolis and 45 suburbs. And I'm very proud 
of the work that we did in our county, and actually the 
surrounding counties, and it can be a model as we look across 
the country. Much of the credit for this goes to Pat McGowan, 
my friend who's the former sheriff of Hennepin County and, I 
think, was Sheriff of the Year--right?--and he saw the need for 
interoperability as far back as--to make systems work together 
as far back as 1989. I remember he noted that every time the 
President came to town, we realized that we couldn't talk to 
each other. He would always tell me about one case in which a 
St. Paul cop was shot and several different police departments 
pitched in to find the killers. The helicopter pilot assisting 
in the search had to carry 12 different portable radios in his 
helicopter so that he could individually communicate with the 
different law enforcement people as this chase went on. And so, 
that's why he became such a strong proponent for a system that 
connects.
    And the end result, this was actually before 9/11, was that 
our county had a cost-effective, fully interoperable police 
safety communications system, and now, building on that 
success, the nine counties that make up the Twin Cities area--
it's almost half the state--are all interoperable.
    I know we're going to hear a lot about spectrum allocation 
and the next generation of communications technology. All these 
are very important pieces of the interoperability puzzle, and I 
look forward to discussing them. But the Minnesota experience 
shows to me two other key challenges--divided turf and limited 
funding--and the ways to overcome them. Sheriff McGowan always 
used the word ``moxie'' to talk about it. He talked about how 
our local government had the moxie to allocate dollars to the 
purpose and to use the dollars in an efficient way. And this 
Congress needs to give incentives to promote that kind of moxie 
nationwide. A key aspect of this is support for local law 
enforcement and firefighters. This year, our county is rolling 
out an upgraded interoperable system that integrates data, as 
well as voice communication. The system was funded by a COPS 
program grant.
    I'm looking forward to this debate, but I do think it is 
very important that we use an example that we had in our State. 
We were able to get this done, and I see no reason that we 
can't get this done for the rest of the country.
    Thank you.
    The Chairman. Thank you very much.
    The committee is fortunate to have with us a full panel of 
experts and great leaders. We have the Fire Chief of 
Charlottesville Fire Department and the International 
Association of Fire Chiefs; Mr. Charles Werner; the Chairman of 
the Communications and Technology Committee of the 
International Association of Chiefs of Police, Mr. Harlin 
McEwen; the Chairman of Cyren Call, Mr. Morgan O'Brien; the 
President and CEO of CTIA--The Wireless Association 
<SUP>'</SUP>, Mr. Steve Largent; the Chairman and CEO of 
National Interop, Mr. David Billstrom; and the Chairman and 
CEO, Iridium Satellite, LLC, Mr. Matt Desch.
    And, gentlemen, I welcome you all on behalf of the 
Committee.
    May I now call upon Chief Werner?

          STATEMENT OF CHARLES L. WERNER, FIRE CHIEF,

CHARLOTTESVILLE FIRE DEPARTMENT; ON BEHALF OF THE INTERNATIONAL 
                   ASSOCIATION OF FIRE CHIEFS

    Mr. Werner. Thank you, Chairman Inouye, Vice Chairman--Mr. 
Stevens. Thank you all for the opportunity to be here today.
    My name is Charles Werner. I'm the Fire Chief for the City 
of Charlottesville, Virginia. I also represent the 
International Association of Fire Chiefs' 12,000 members, and 
the comments that I make today are also representative of the--
of APCO, as well.
    Before I go into this actual testimony, I'd like to thank 
both of you individuals for your leadership and the legislation 
that you've put forward to help us with the funding, defining 
it, for the interoperability. So, thank you, on that note, 
first.
    Your opening statements were interesting, as it leads into 
my testimony, because you talk about the much--much of the 
funds that have been put out there in dollars on top of 
dollars, and the efforts that continue to be out there, yet 
interoperability continues to plague us. And I think that's why 
today this discussion that we're having on the Public Safety 
Broadband Trust is so important, because it is a very forward-
thinking idea that takes us into a whole new direction that I 
think economically will help the fire service and public safety 
in general.
    And America's public safety agencies support legislation to 
create such a Public Safety Broadband Trust that creates an 
opportunity with 30 megahertz of spectrum. Important to note 
that it's not going to be just for public safety, but for 
commercial entities, as well, and that'll be an important note 
of my testimony later.
    Ten years ago or more, the Public Safety Wireless Advisory 
Committee identified the needs of radio frequency spectrum for 
public safety. That was again reinforced in a report that 
followed the September 11th tragic incidents of terrorism. That 
report of--after 9/11--also found that radio frequencies 
allocated to public safety had become highly congested in many 
of the urban areas; second, the ability of agencies within and 
between jurisdictions to communicate with one another is 
limited; and, third, the public safety agencies lack the 
spectrum to implement advanced communications features. In 
addition, the Advisory Committee originally recommended that 
95.5 megahertz of new spectrum was required to meet public 
safety needs to the year 2011. To date, without the help of 
what you've done for 2009, we wouldn't have seen any of that 
change.
    In the 10 years since that report's come out, there have 
also been great advances in technology that will help us look 
in new and exciting ways, that will give us the ability, if we 
have broadband in place, that gives us transmission of video, 
blueprints, and other information, situational awareness, 
fireground accountability, biometrics, enhanced GIS mapping 
capabilities for building locations, critical infrastructure 
protection, target hazards, hydrant networks, transportation 
systems. You get the point, it goes on and on about what's out 
there. And some people have said, ``Well, to date, public 
safety hasn't indicated how that is making any difference. 
You're not using it.'' It's because it's not affordable and 
dependable in a way that we can make use of it as we need to.
    In order to meet public safety's communications 
requirements as defined by these dependent--independent 
assessments, Senator McCain has discussed and offered to write 
legislation to establish such a broadband trust, and we're very 
excited about that.
    One thing important to note, this is about the Public 
Safety Broadband Trust. It's not about a Cyren Call proposal, 
or that company, it's about a trust that's overseen by public 
safety to help create a new network that is viable for public 
safety and funded by commercial effort.
    On behalf of America's fire and emergency services, I 
encourage Congress to take advantage of this one-time 
opportunity--again, this very critical one-time opportunity--to 
create a nationwide public safety broadband network.
    As I look back on my own personal experience, much as when 
referenced earlier about an interoperable system, in 
Charlottesville, Virginia, we have done a similar thing in our 
region. We have created an entirely full public safety 
interoperable system. Fourteen million dollars and $500,000 a 
year in maintenance fees is what it costs to put one of these 
systems in place. Keep in mind, as soon as that system is in 
place, it is what it is, it does not evolve, it does not become 
any better, it does not create any new opportunities. What that 
means is, if we don't change the current path that we're on, we 
will continue to spend millions upon millions--billions upon 
billions of dollars for systems that are really obsolete as 
soon as they come into operation. Nothing against what we have 
in our system today, but we've got to change this paradigm, and 
the governments can't continue to be funding these things, as 
they are.
    This past week, I also heard some concerning reports that 
came out that said public safety doesn't need any more 
spectrum. Well, I'm sorry, all the reports that have looked 
into this thoroughly differ with that opinion. And I also have 
a little bit of frustration when people make those statements, 
and not once have they talked to public safety. They also 
reference--and I'll be brief, I'm finishing up--that we--that 
these other coalitions have plans for public safety. Now, up 
until now, we have heard nothing of these plans, we've had no 
interactions with it. So, I wonder how genuine these proposals 
are, and I ask you to look at the opposition to this proposal: 
What's in it for them, versus what's in it for us?
    With that, I thank you for the opportunity to speak today.
    [The prepared statement of Mr. Werner follows:]

 Prepared Statement of Charles L. Werner, Fire Chief, Charlottesville 
  Fire Department; on Behalf of the International Association of Fire 
                                 Chiefs
    Good morning Mr. Chairman, and members of the Committee. I am 
Charles Werner, Fire Chief of the Charlottesville Fire Department in 
Virginia and a member of the Communications Committee of the 
International Association of Fire Chiefs IAFC). I am appearing today as 
the representative of the International Association of Fire Chiefs 
whose 12,000 members represent the leadership of America's fire and 
rescue service from small, rural, volunteer fire departments to the 
large, urban, metropolitan fire departments. Last year America's fire 
service responded to over 23 million fire and emergency calls covering 
incidents of structure fires, wildland/urban interface fires, emergency 
medical situations, hazardous materials incidents, technical rescues, 
and natural disasters. We are prepared, as well, to respond to the 
aftermath of terrorist attacks. I appear today to address a specific 
and growing communications need for America's fire service--broadband 
technology. Our testimony also reflects the views of the Association of 
Public-Safety Officials International, Inc.
Public Safety Spectrum Needs
    At the request of Congress, the National Telecommunications and 
Information Administration (NTIA) and the Federal Communications 
Commission (FCC) established the Public Safety Wireless Advisory 
Committee (PSWAC) to define and document the critical need for 
communications resources and the spectrum to support public safety 
through the year 2010. The final report was released on September 11, 
1996. Three key problem areas were identified in the report:

  <bullet> First, radio frequencies allocated to public safety had 
        become highly congested in many, especially urban, areas. 
        Usable spectrum for mobile operations is limited making it 
        difficult to meet existing requirements much less to plan for 
        future, more advanced communications needs.

  <bullet> Second, the ability of agencies within and between 
        jurisdictions to communicate with one another is limited. Yet 
        interoperability is desirable for success in day-to-day 
        operations as well as larger scale operations in dealing with 
        both man-made and natural disasters.

  <bullet> Third, public safety agencies lack the spectrum to implement 
        advanced communications features. A wide variety of 
        technologies--both existing and under development--hold 
        substantial promise to reduce danger to public safety and 
        achieve greater efficiencies in the performance of their 
        duties. Specifically mentioned in the 1996 report were 
        broadband data systems, video systems for better capabilities 
        including use of robotics in toxic and hazardous environments, 
        and better monitoring and tracking of both personnel and 
        equipment.

    To implement the requirements identified, the advisory committee 
determined that more spectrum was required, as follows:

  <bullet> Immediately, 2.5 MHz of spectrum for interoperability from 
        new or existing allocations.

  <bullet> Within 5 years approximately 25 MHz of new public safety 
        allocations are needed. The report suggested using spectrum 
        from television broadcast channels 60-69 as soon as possible.

  <bullet> Over the next 15 years (e.g., through 2011) as much as an 
        additional 70 MHz will be required to satisfy the mobile 
        communications needs of public safety.

    These were the needs and recommendations addressed in the PSWAC 
report of 1996. Then, in December 2005 the FCC sent a Report to 
Congress on the Study to Assess Short-Term and Long-Term Needs for 
Allocations of Additional Portions of the Electromagnetic Spectrum for 
Federal, State and Local Emergency Response Providers. This report was 
submitted pursuant to P.L. 108-458, The Intelligence Reform and 
Terrorism Prevention Act of 2004. In its conclusion, the FCC stated: 
``First, as to the operation and administration of a potential 
nationwide interoperable broadband mobile communications network based 
upon input from Federal, state, local and regional emergency response 
providers, emergency response providers would benefit from the 
development of an integrated, interoperable nationwide network capable 
of delivering broadband services throughout the country. Second, as to 
the use of commercial wireless technologies, while commercial wireless 
technologies and services are not appropriate for every type of public 
safety communication, there may now be a place for commercial providers 
to assist public safety in securing and protecting the homeland.''
    For the above stated reasons, the National Public Safety 
Telecommunications Council [a resource and advocate for public safety 
organizations in the United States on matters relating to public safety 
telecommunications] has filed comments with the FCC in support of 
reallocating 30 MHz of spectrum in the upper 700 MHz band, currently 
slated for auction, to create a public/private nationwide broadband 
network to be managed by public safety for the benefit of public 
safety. The filing states:

        ``In an era where government preparedness is crucial, there is 
        no nationwide public safety network to manage and coordinate 
        response. There is no wide scale broadband technology 
        capability to expedite analysis and information-sharing 
        critical to emergency assistance, investigation and 
        apprehension. Not only is the current public safety spectrum so 
        congested as to constrain voice--much less permit broadband use 
        for video and data, limited funding hinders the incremental 
        improvements that can be made and which are only pursued on a 
        system by system basis. That which is possible in 
        communications today and what public safety agencies have 
        available reflects an enormous divide. The result is tangible: 
        slowed and hindered response across all services which puts 
        lives at risk and property in danger.

        ``Although legacy systems will continue to play an important 
        role in public safety communications, the opportunity presented 
        by the yet to be auctioned 700 MHz channels is emphatic. 
        Without this additional spectrum, there can be no national 
        public safety network connecting all agencies. Using broadband 
        technologies to transmit information across agencies and miles 
        immediately will be the exception. Public safety communications 
        will come up short in meeting its challenges.''

    The IAFC is a member of the governing board of NPSTC and an active 
participant in all of its proceedings. The IAFC fully concurs with the 
statements of support by NPSTC for the establishment of a nationwide, 
public/private, broadband network that will harness the innovative 
power of the private sector but be managed by public safety for the 
benefit of public safety.
Public Safety Broadband Requirements
    In 1997, Congress addressed part of the issue of additional 
spectrum by directing the FCC to allocate 24 MHz in the upper 700 MHz 
band for use by public safety. As a result of the Deficit Reduction Act 
(P.L. 109-171), which passed last year at this time, this spectrum will 
finally become available for our use in February 2009. As was 
originally intended, it is to provide, for individual licensees, 12 MHz 
of voice channels and 12 MHz of wideband data channels. Fire and police 
departments are now in the planning process of building communications 
systems utilizing this new spectrum.
    Broadband capability for public safety, identified in the 1996 
PSWAC report, is a vital and growing need for fire and police agencies. 
It is the next step following the allocation and implementation of the 
24 MHz designed to alleviate current spectrum congestion and provide 
interoperability. To meet the broadband need for public safety, the 
following requirements are established:

  <bullet> A nationwide, broadband network covering 99 percent of the 
        population, 65 percent of the land mass, most of the critical 
        infrastructure, and a network that supports urban, suburban and 
        rural communities.

  <bullet> A network large enough to draw commercial support which is 
        requisite for a nationwide network to be affordable for public 
        safety.

  <bullet> A network built using next-generation technology.

  <bullet> A network built to public safety ruggedness specifications 
        to ensure reliability under severely adverse conditions.

  <bullet> A network governed by public safety.

  <bullet> A network which ensures priority access for public safety.

Public Safety Uses of Nationwide Broadband Network
    The Public Safety Broadband Trust proposal provides public safety 
with enormous potential that does not currently exist.
    A hardened public safety network would make possible nationwide 
roaming and interoperability for public safety agencies at the Federal 
(e.g., U.S. Coast Guard), state (e.g., highway patrol), and local 
(e.g., police, fire/EMS) levels. It would give public safety access to 
satellite services where terrestrial services either do not exist or 
are temporarily out of service. The network build-out would give rural 
areas--for the first time--broadband coverage and provide public safety 
there a communications tool that would be virtually impossible because 
of cost under any other scenario. In addition, this new network will 
protect nuclear power plants, dams, railroads and pipelines and other 
parts of the Nation's critical infrastructure in rural areas.
    There are a number of technologies that are available today that 
fire departments would use--more will be developed, especially if an 
affordable broadband network is available. Some examples are:

  <bullet> Transmitting video, photographs, blueprints and other 
        information both to and from an incident command post.

  <bullet> Advanced paging systems particularly useful for summoning 
        volunteer firefighters/medics.

  <bullet> Mesh enabled architecture (MEA) for non-GPS broadband 
        location system.

  <bullet> Fireground accountability systems--biometrics as well as 
        location.

  <bullet> Smart building downloads en route to an alarm.

  <bullet> Enhanced GIS mapping capability for building locations, 
        critical infrastructure, target hazards, water systems, 
        transportation systems, etc.

  <bullet> Personal Area Networks linking a portable radio carried by a 
        firefighter to many useful and lifesaving accessories including 
        a helmet video camera, video viewing device, health monitor, 
        wireless self-contained breathing apparatus (SCBA) microphone 
        and speaker, or a handheld computer.

  <bullet> Vehicular Area Networks that could link a vehicle's radio to 
        laptop computers, printers, remote headsets, bar code readers, 
        and cameras.

  <bullet> Medical video and high-resolution image transmissions from 
        the scene of an incident to the emergency department of a 
        hospital where physicians can assess patient status and give 
        on-scene and en route treatment instructions.

  <bullet> PDAs for fire department leaders or for all firefighters.

A One-Time Opportunity To Do the Right Thing
    Senator McCain has announced his intention to introduce legislation 
to establish a Public Safety Broadband Trust. The trust will be 
composed of public safety organizations to hold a single license for 30 
MHz of broadband spectrum to create a nationwide, public/private 
broadband network. The trust also will be the management group to 
oversee the policies, procedures and practices of the network. In other 
words, the public safety trust will run the network for the benefit of 
public safety.
    The 30 MHz of spectrum that is being considered is immediately 
adjacent to the 24 MHz of spectrum allocated to public safety in 1997, 
and which will be available in 2009. This has considerable advantage 
over any other spectrum since radio communication devices can be dual 
purpose with the spectrum so close. This spectrum in the upper 700 MHz 
is also near existing public safety which is being relocated in the 
lower 800 MHz band.
    This 30 MHz of spectrum is currently slated for auction. The 
Deficit Reduction Act of 2005 requires the FCC to auction this spectrum 
by January 2008. Without legislation taking this out of the auction and 
allocating it for the public safety trust, this one-time opportunity 
will be lost forever.
Call for Action
    The Congress of the United States has a one-time opportunity, in 
the near term, to provide public safety with a nationwide, broadband 
network. In order to be affordable for public safety, the network would 
have to have viable commercial capacity of about 30 MHz of spectrum. 
The network would be built to public safety ruggedness specifications. 
A Public Safety Broadband Trust would be created to hold the single 
license from the FCC for the 30 MHz of spectrum and would oversee 
management of the network. While the network volume would be largely 
commercial, public safety agencies would use what it needed with a 
built-in priority status. Commercial use also ensures that sufficient 
capital will be available for maintaining the system and upgrading and 
refreshing newer technologies when they come along.
    We urge the members of this committee to take the first action to 
create this Public Safety Broadband Trust by promptly reporting 
legislation to take 30 MHz from the pending auction and direct the FCC 
to reallocate it to public safety. We cannot suggest too strongly the 
urgent and identified need for broadband capability that public safety 
can use with assurance that it will work when needed, be available when 
needed, and is affordable. With a global war on terrorism being fought 
daily and homeland security interest at an all-time high, public 
safety, in defense of the homeland, should be operating on 21st century 
technology. Thank you for the opportunity to address the Committee. We 
appreciate your consideration of this most important public safety 
issue.

    The Chairman. Thank you very much, Chief.
    May I assure all the witnesses that their full statement 
and supporting documents and exhibits will all be made part of 
the record.
    May I now call upon Chairman McEwen?
    Senator Stevens. Mr. Chairman, could you add to this, this 
letter we received from the Coalition?
    The Chairman. Yes, sir. Without objection, the letter will 
be made part of the record.
    [The information previously referred to follows:]

              Council for Citizens Against Government Waste
                                 Washington, D.C., February 7, 2007
Hon. Ted Stevens,
Vice Chairman,
U.S. Senate,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

    Dear Senator,

    Attached please find a copy of a Federal Communications Commission 
filing submitted on behalf of the Council for Citizens Against 
Government Waste and the National Taxpayers Union. The filing expresses 
our concern regarding Cyren Call's proposal to reallocate a portion of 
the 700 MHz spectrum. We believe that the ill-conceived plan would have 
resulted in an unprecedented government giveaway and a significant 
setback for taxpayers.
    As you move forward with this issue, please consider the fiscal 
impact of any legislation and do not undo the digital television (DTV) 
provisions of the Deficit Reduction Act passed in last Congress.
    Thank you.
            Sincerely,
                                          Thomas A. Schatz,
                                                         President.

                                 ______
                                 
                                  National Taxpayers Union,
              Council for Citizens Against Government Waste
                                Washington, D.C., November 28, 2006
Hon. Kevin J. Martin,
Chairman,
Federal Communications Commission,
Washington, DC.

    Dear Chairman Martin:

    On behalf of the members of the National Taxpayers Union and the 
Council for Citizens Against Government Waste, we write to commend your 
rejection of Cyren Call's proposal to reallocate a portion of the 700 
MHz spectrum. We believe that the ill-conceived plan would have 
resulted in an unprecedented government giveaway and a significant 
setback for taxpayers.
    The Deficit Reduction Act of 2005 gave 24 MHz of spectrum in the 
700 MHz band to public safety causes, which effectively doubled the 
amount of spectrum available for emergency communications systems. By 
providing for the public auction of other parts of the 700&z band, the 
Act encourages the divestiture of excess government assets while 
promoting a robust, market-driven communications sector.
    Cyren Call's proposal would have given away for free the additional 
spectrum that could bring in billions of dollars for the Federal 
Treasury via the time-tested auction process. Past rounds of the 
Advanced Wireless Services spectrum auctions suggest that selling off 
portions of the 700 MHz spectrum could prove highly lucrative. This 
money could he used to decrease the budget deficit, thereby reducing 
the bill that taxpayers will ultimately have to settle.
    We applaud your decision and stand ready to ensure that the future 
allocation of the spectrum serves the interests of American taxpayers 
and businesses alike.
            Sincerely,
                                             John Berthoud,
                                                         President.
                                             Thomas Schatz,
                                                         President.
                                 ______
                                 
Citizens Against Government Waste--Cyren Call Reality Check, The War on 
              Waste: Chronicles of Waste, Fraud and Abuse
Congressional Alert
February 6, 2007

    With Congress's return there is ample opportunity for lobbyists and 
legislators to cause new headaches for taxpayers.
    One company in particular, Cyren Call, is trying to overturn one of 
the positive actions taken by Congress last year. First, some history 
is useful.
    In 2004, the Federal Communications Commission (FCC) adopted the 
``Consensus Plan,'' which will realign the 800 MHz spectrum to separate 
public safety systems from the commercial systems causing interference.

  <bullet> Nextel offered to reduce interference by giving up some of 
        its localized 800 MHz spectrum, valued at $1.6 billion, in 
        exchange for nationwide 1.9 GHz spectrum which could have 
        fetched billions more in a public auction.

  <bullet> Nextel received nearly a multi-billion windfall at the 
        expense of taxpayers and possession of valuable spectrum 
        coveted by other communications companies.

  <bullet> Nextel has asked for a delay of up to 2 years to complete 
        the 800 MHz realignment.

    Now the co-founder and several former senior executives of Nextel 
have formed Cyren Call and are trying to take a second bite out of the 
taxpayers.
    The digital television (DTV) provisions of the Deficit Reduction 
Act of 2005 give public safety 24 MHz of prime spectrum in the valuable 
700 MHz band and $1 billion in funding to help meet public safety's 
needs for interoperability with the remaining 60 MHz of the spectrum to 
be auctioned off for taxpayers' benefit.

  <bullet> Cyren Call tried to urge the FCC to give away 30 MHz of the 
        60 MHz to fund a commercial network that would serve public 
        safety. That would only benefit Cyren Call and its executives 
        and financial backers at the expense of public safety and U.S. 
        taxpayers.

  <bullet> Rather than bidding billions of dollars at auction, Cyren 
        Call is hoping to be paid to create this new network.

  <bullet> The company claims it will make the U.S. Treasury ``whole'' 
        with a funding scheme for the spectrum but the reality is that 
        auctioning the spectrum is the law and the only way to serve 
        taxpayers.

  <bullet> The FCC rightfully rejected Cyren Call's petition and is now 
        looking at how best to use the 24 MHz being allocated for 
        public safety consistent with the DTV bill. Now Cyren Call is 
        trying to get Congress to take up its plan and undo years of 
        work on a carefully crafted compromise.

    Telecommunications spectrum is an asset owned by U.S. taxpayers. 
Any time this asset is given away at no charge, potential revenue is 
lost.
    Our first responders deserve to get their 24 MHz as soon as 
possible and taxpayers deserve the billions of dollars a spectrum 
auction would bring in. Cyren Call's proposal stands in the way of both 
and Congress must guard against it.
                                 ______
                                 
                  A Secure National Broadband Network 
                 and the Public Safety Broadband Trust
    The Nation does not have what it needs most in telecommunications 
capabilities--a secure national mobile broadband network that meets the 
needs of public safety but is also used and supported by the commercial 
sector.
    In times of national and regional emergency, the network will 
provide the broadband communications that are essential to saving life 
and property.
    During ordinary times, the network will provide truly national and 
secure communications capabilities to commercial users that do not now 
have such a system, including providers of the critical infrastructure 
on which the Nation's livelihood depends.
    This is how it can be done:

  <bullet> Remove 30 MHz (upper band) from the upcoming FCC auction of 
        60 MHz of recovered analog spectrum.

  <bullet> Instead of auctioning a license to that 30 MHz spectrum, it 
        should be assigned for an appropriate price to a non-profit 
        corporation controlled by national public safety 
        organizations--the Public Safety Broadband Trust Corporation 
        (PSBT).

  <bullet> PSBT will lease spectrum usage rights to commercial 
        operators who will build out a secure national broadband 
        network meeting public safety specifications.

  <bullet> Public safety organizations will control the development of 
        the network in order to ensure that it satisfies the 
        requirements and needs of the public safety community.

  <bullet> PSBT will hold and exercise the ultimate control over the 
        license to the 30 MHz spectrum and will determine the network's 
        technology, build requirements and the network's operating 
        rules.

  <bullet> Commercial subscribers that need a secure national network 
        will use the network on a day-to-day basis along with public 
        safety users who will retain priority access to the network.

  <bullet> PSBT will fund the spectrum acquisition with the lease 
        payments of the commercial operators and with the assistance of 
        Federal loan guarantees, just like those that have been made 
        available to other industries (airlines, shipping companies, 
        pipelines).

    The Chairman. Chief--Mr. Chairman?

            STATEMENT OF HARLIN R. McEWEN, CHAIRMAN,

         COMMUNICATIONS AND TECHNOLOGY COMMITTEE, IACP;

            COMMUNICATIONS ADVISOR, MCC, NSA, MCSA;

   VICE CHAIRMAN, NATIONAL PUBLIC SAFETY TELECOMMUNICATIONS 
                            COUNCIL

    Mr. McEwen. Thank you, sir. Good morning. Thank you, Mr. 
Chairman and Mr. Vice Chairman and members of the Committee, 
for the opportunity to speak with you this morning.
    I am the retired Police Chief of the City of Ithaca, New 
York, and I also am a retired Deputy Assistant Director of the 
Federal Bureau of Investigation here in Washington, D.C. I 
serve as the Chairman of the Communications and Technology 
Committee of the International Association of Chiefs of Police, 
a position I've held for more than 28 years. I also serve as 
the Communications Advisor for the Major City Chiefs 
Association, the National Sheriffs Association, and the Major 
County Sheriffs Association. And in addition to these 
organizations, today I'm speaking on behalf of the Association 
of Public Safety Communications Officials--International and 
the National Public Safety Telecommunications Council.
    Senator Klobuchar, I want to just make the point that I've 
known Sheriff McGowan for many years. He's a wonderful 
professional. We're going to miss him, now that he's retired. 
But I worked closely with him in these matters of 
interoperability, so I know what you speak of.
    I'm pleased to have the chance to discuss with the 
Committee today an exciting new opportunity for Congress to 
take steps that will pave the way to reduce the dependence on 
local and Federal tax revenues to maintain modern public safety 
communications systems. That is a proposal for a 700-megahertz 
nationwide public-safety broadband network. This proposed 
network can become a reality only if Congress authorizes 
creation of a public/private partnership controlled by the 
public safety community to hold a nationwide license for 30 
megahertz of spectrum in the upper 700 megahertz band; and to 
further authorize us, the public safety community, to deploy 
this network, pursuant to a public-sector/private-sector 
partnership model. The wireless voice systems public safety 
personnel use today are among the most important tools they 
have to do their job in a safe and efficient manner. However, 
these systems have, in many cases, been underfunded, poorly 
maintained, and generally not refreshed. As we look to the 
long-term future, we need to look at a new and better way to 
improve public safety communications.
    The implementation of a nationwide public-safety broadband 
network can be the beginning of the end to the problem of 
public safety interoperability. We have been asking for funding 
support for years to help us upgrade and replace mission-
critical land mobile voice systems that are built by different 
manufacturers, are of different vintages, are generally 
incompatible, and, in many cases, not compatible with the P25 
standards, which are the only recognized national digital 
standards for land mobile public safety communications 
interoperability.
    For those who argue that public safety already has enough 
radio spectrum to meet current and projected mobile 
requirements, I can only say that they purposely ignore the 
facts concerning public safety spectrum allocations and first-
responder communications requirements. As an example, the 
cellular industry, represented by CTIA, has grossly 
misrepresented the spectrum issue. CTIA recently said, ``Right 
now, the public service community utilizes 47 megahertz of 
spectrum to serve its public safety users. At the same time, 
there are wireless carriers that use roughly the same amount of 
spectrum to deliver voice, data, and advanced information 
services to many times that number of subscribers.'' Contrary 
to what the CTIA says, the real facts on spectrum allocations 
are that the commercial allocations for wireless communications 
add up to 528 megahertz, an amount more than ten times that for 
public safety.
    In regard to the ninth notice of proposed rulemaking 
recently issued by the Federal Communications Commission, we 
have many concerns about the concept set forth in that 
proposal. The ninth NPRM suggests that a nationwide broadband 
network could be built using the 12 megahertz of spectrum 
currently allocated for local licensing of public safety 
wideband systems. This would take away from local licensing 
control the spectrum long promised for use by local agencies. 
In addition, we believe that the proposal is seriously flawed 
by failing to acknowledge the need for enough spectrum to 
attract investors to participate in a public/private 
partnership where private funds would be invested to build a 
nationwide network.
    And, Senator Klobuchar, I want to make mention of the fact 
that in Hennepin County, three counties partnering with 
Hennepin County, for instance, are building a wideband system 
that would be in jeopardy if that particular proposal were to 
be followed.
    I have dedicated most of my professional career to the 
advancement of public safety communications. From that 
perspective, I believe this Congress has an extraordinary time-
sensitive opportunity. Approval of the Public Safety Broadband 
Trust and a public/private-sector partnership will catapult 
public safety to its rightful place in the forefront of 
communications capability while at the same time delivering 
broadband service to communities that continue to be bypassed 
by the commercial telecommunications industry. I hope you will 
share my belief that this is an opportunity that must be seized 
for the benefit of the entire public.
    Thank you very much.
    [The prepared statement of Mr. McEwen follows:]

 Prepared Statement of Harlin R. McEwen, Chairman, Communications and 
  Technology Committee, IACP; Communications Advisor, MCC, NSA, MCSA; 
    Vice Chairman, National Public Safety Telecommunications Council
    Thank you, Mr. Chairman, and distinguished members of the Committee 
for the opportunity to appear before you today.
    My name is Harlin McEwen and I have been actively involved in 
public safety for almost 50 years. My career has been in law 
enforcement and I also have been a volunteer firefighter. I am the 
retired Police Chief of the City of Ithaca, New York, and am also 
retired as a Deputy Assistant Director of the Federal Bureau of 
Investigation in Washington, D.C. I serve as Chairman of the 
Communications and Technology Committee of the International 
Association of Chiefs of Police (IACP), a position I have held for more 
than 28 years. I also serve as the Communications Advisor for the Major 
Cities Chiefs Association (MCC), the National Sheriffs' Association 
(NSA), and the Major County Sheriffs' Association. I am the Vice 
Chairman of the National Public Safety Telecommunications Council 
(NPSTC) and am a Life Member of the Association of Public-Safety 
Communications Officials-International (APCO). Today I speak on behalf 
of all of these organizations.
    When I first became a law enforcement officer in 1957, police 
vehicles had tube type 6 volt analog mobile radios that dimmed the 
headlights when we pushed the microphone button. In those days there 
were no hand-held radios. In my career I have witnessed many changes 
and advances in law enforcement and public safety communications. 
However, the advances for public safety have consistently lagged behind 
the advances of commercial services, primarily because of lack of 
funding and spectrum.
    As you are aware, citizens rely upon their local and state police 
agencies, sheriffs' offices, fire departments, emergency medical 
services, and other emergency services like highway and public works 
and utilities to come to their assistance wherever and whenever needed. 
They respond whether it is a crime in progress, a civil disturbance, a 
building fire, a forest fire, an automobile accident, a health 
emergency, a natural disaster, or, as we learned on 9/11, a terrorist 
attack. Today, citizens assume that those first responders will get the 
call and will have the communications tools they need to address 
emergencies quickly and efficiently. Unfortunately that is not always 
true.
    I want to applaud the efforts of this Committee and the Congress in 
voting to clear the television broadcasters from the long promised 700 
MHz spectrum. This will help us improve public safety radio 
communications, both operability and interoperability. The major cities 
and metropolitan areas of this country are still in desperate need of 
additional land mobile voice channels and are anxiously waiting for 
this spectrum to become available. Your efforts to designate $1 billion 
derived from the auction of radio spectrum for public safety 
communications are also very much appreciated by the public safety 
community and will be very helpful. The introduction of S. 385 by 
Senators Inouye, Stevens, Kerry, Smith, and Snowe is also helpful in 
giving direction to NTIA with respect to the $1 billion grant program 
and we appreciate these efforts to have this funding program 
implemented in a timely fashion.
    I am pleased to have the chance to discuss with this Committee an 
exciting new opportunity for Congress to take steps that will pave the 
way to reducing the dependence on local and Federal tax revenues to 
maintain modern public safety communications systems. That is a 
proposal for a 700 MHz nationwide public safety broadband network. This 
proposed network can become a reality only if Congress authorizes 
creation of a public/private partnership, controlled by the public 
safety community, to hold a nationwide license for 30 MHz of spectrum 
in the upper 700 MHz band and further authorize us to deploy this 
network pursuant to a public sector-private sector partnership model.
    I have studied the issue of public safety telecommunications for 
decades. I have been actively engaged in the efforts of the Federal 
Communications Commission, other Federal agencies, state and local 
government entities and individual departments to identify law 
enforcement communications requirements and provide our first 
responders with the necessary tools to meet those needs. Substantial 
time and significant taxpayer dollars have been devoted to those 
efforts, yet in 2007 the public safety community still is far behind 
commercial users in terms of wireless functionality. Our public safety 
users who should have the best, most advanced, and most robust 
capabilities too often must rely on systems that are inadequate for 
their needs today, much less the expanded responsibilities with which 
they will continue to be charged in the future. Without a fundamental 
change in the way we approach emergency responder communications, 
specifically without allocation of the additional 30 MHz of spectrum 
and adoption of the approach embodied in the Public Safety Broadband 
Trust (PSBT) proposal, I see no reason to ever expect substantial 
improvement.
    The wireless voice systems public safety personnel use today are 
among the most important tools they have to do their job in a safe and 
efficient manner. However, these systems have in many cases been 
underfunded, poorly maintained and generally not refreshed. As we look 
to the long term future, we need to look at new and better ways to 
improve public safety communications.
    The need for more efficient public safety data systems is growing 
and this has become the focus of much of our attention as we look to 
ways for public safety to take advantage of Third Generation (3G) and 
Fourth Generation (4G) technologies.
    The implementation of a nationwide public safety broadband network 
can also be the beginning of the end to the problem of public safety 
interoperability. We have been asking for funding support for years to 
help us upgrade and replace mission critical land mobile voice systems 
that are built by different manufacturers, are of different vintages, 
are generally incompatible and in many cases not compatible with the 
P25 standards, the only recognized national digital standards for land 
mobile public safety communications interoperability.
    It is critical to understand that this is a one-time-only 
opportunity to solve many of the public safety communications 
requirements of today and the future. We recognize this is not an easy 
decision for the Congress. You must choose between solving the public 
safety communications problem and making sure our citizens have good 
public services, or allowing the spectrum required by public safety to 
be auctioned to commercial companies who want to expand their services 
and increase their profits. It seems simple to us that by your approval 
of this important step for public safety you will be doing the right 
thing for America. It will begin to take the burden off the taxpayers 
who must build and maintain increasingly expensive public safety 
communications systems.
    The benefits from a nationwide public safety broadband network as 
set forth in the Public Safety Broadband Trust proposal are as follows:

        1. Broadband data services (such as text messaging, photos, 
        diagrams, and streaming video) not currently available in 
        existing public safety land mobile systems.

        2. A hardened public safety network with infrastructure built 
        to withstand local natural hazards (tornadoes, hurricanes, 
        earthquakes, floods, etc.) that would include strengthened 
        towers and back-up power with fuel supplies to withstand long-
        term outages of public power sources.

        3. Nationwide roaming and interoperability for local, state, 
        and Federal public safety agencies (police, fire and EMS) and 
        other emergency services such as transportation, health care, 
        and utilities.

        4. Access to the Public Switched Telephone Network (PSTN) 
        similar to current commercial cellular services.

        5. Push-to-talk, one-to-one and one-to-many radio capability 
        that would provide a back-up to (but not replace) traditional 
        public safety land mobile mission critical voice systems.

        6. Access to satellite services to provide reliable nationwide 
        communications where terrestrial services either do not exist 
        or are temporarily out of service.

    For those who argue that public safety already has enough radio 
spectrum to meet current and projected mobile requirements, I can only 
say that they purposely ignore the facts concerning public safety 
spectrum allocations and first responder communications requirements. 
As an example, the cellular industry, represented by CTIA, has grossly 
misrepresented the spectrum issue as recently exhibited in their press 
release critical of Senator McCain's announcement that he would be 
introducing legislation to establish a new nationwide, state-of-the-art 
public safety broadband network. The CTIA statement said ``the basic 
facts of the matter should compel this important debate to be about 
providing first responders with funding, access to equipment and 
coordination, not more spectrum''. CTIA further stated ``Right now, the 
public service community utilizes 47 MHz of spectrum to serve its 
public safety users. At the same time, there are wireless carriers that 
use roughly the same amount of spectrum to deliver voice, data and 
advanced information services to many times that number of subscribers. 
More spectrum is clearly not the answer''.
    Contrary to what the CTIA says, the REAL facts on spectrum 
allocations are as follows:

           State and Local Public Safety Spectrum Allocations
------------------------------------------------------------------------
                          Allocation                              MHz
------------------------------------------------------------------------
VHF Low Band (25-50 MHz)                                             6.3
VHF High Band (150-174 MHz)                                          3.6
UHF Low Band (450-470 MHz)                                           3.7
800 MHz Band (806-821/851-866 MHz)                                   3.5
800 MHz Band (821-824/866-869 MHz)                                   6.0
700 MHz Band (764-776/794-806 MHz)                                  24.0
                                                              ----------
    Total Public Safety                                             47.1
------------------------------------------------------------------------


                     Commercial Spectrum Allocations
------------------------------------------------------------------------
                          Allocation                              MHz
------------------------------------------------------------------------
Cellular                                                              50
Broadband PCS                                                        120
AWS                                                                   90
Broadband Radio Services                                             190
Lower 700                                                             48
Upper 700                                                             30
                                                              ----------
    Total Commercial                                                 528
------------------------------------------------------------------------

    But even these numbers do not tell the real story or explain why 
existing public safety allocations cannot be used for broadband 
operations. Historically, the FCC has allocated individual channels, 
not contiguous channel blocks, for public safety use. These channels 
are immediately adjacent to channels allocated for taxicab companies, 
truck operators and other businesses. The channels typically are no 
larger than 25 kHz bandwidth and more frequently 12.5 kHz, or a tiny 
fraction of each 25 MHz cellular system authorization. This allocation 
approach has permitted numerous governmental entities to secure 
licenses for localized, individual purposes, but precludes the public 
safety community as a whole from consolidating enough contiguous 
channels to deploy 21st century broadband technology networks. There 
simply is not sufficient contiguous bandwidth to support the text 
messaging, building diagrams, photos, streaming video and other 
transmissions that will be as essential to law enforcement officers 
during these perilous times as the weapons they carry.
    While the 24 MHz public safety allocation in the upper 700 MHz band 
is contiguous, even that spectrum is subdivided in various categories 
designed for mission critical voice communications on both localized 
and state levels, as well as for wideband data applications. And that 
spectrum allocation, first promised to the public safety community in 
1997, was intended to address the unmet needs and identified 
deficiencies in the spectrum resources available to public safety more 
than a decade ago. New technologies and new services have since been 
developed to respond to the ever escalating commercial appetite for 
more useful and sophisticated mobile communications tools and 
solutions--and appropriate new commercial spectrum allocations have 
been made available to commercial network operators to bring those 
improvements to their customers. Likewise, over the past decade, public 
safety's needs for access to these advanced technologies, services, 
tools and solutions has not stood still--although, unfortunately, the 
amount of appropriate spectrum allocated to meet them has.
    Allow me to emphasize these points by example, as the contrast 
between the spectrum resources available to commercial wireless network 
operators and to the public safety community could not be more 
striking. To begin with, commercial cellular and PCS licensees have 
access to large blocks of contiguous spectrum. Their allocations were 
specifically designed to support system architectures and technologies 
that would accommodate vast numbers of customers. To compare the number 
of subscribers that can be served on a 25 MHz cellular network with the 
number of police officers that can share a 12.5 kHz bandwidth channel, 
or even multiple channels, is as meaningful as comparing the size of 
watermelons to grapes. Compounding the imbalance is the absolute amount 
of spectrum that has been made available for commercial use in 
comparison to that which has been made available for public safety uses 
as detailed above. Just last year, the Commission made another 90 MHz 
of spectrum of Advanced Wireless Spectrum available for commercial 
operations, again in large spectrum blocks and expressly authorized for 
commercial mobile broadband uses.
    In fact, it is the success of the cellular/PCS model that has 
convinced us that public safety must have a 30 MHz spectrum block on 
which to deploy an advanced technology broadband network. That model 
has persuaded us that the public safety community must join together in 
the Public Safety Broadband Trust, rather than seeking individual 
licenses for individually designed and deployed systems, if we are to 
achieve our objective: seamless nationwide roaming capability on a 21st 
century broadband 700 MHz network that is built and operated to satisfy 
increasing and demanding public safety requirements.
    I stated previously that a nationwide broadband network solution 
needed to address both spectrum and funding, and to address them both 
at the same time and in the same context. The latter is just as 
critical as the former and requires an innovative approach given the 
extraordinary costs associated with building and operating a truly 
nationwide broadband network. Unlike purely commercial systems that 
have the luxury of limiting coverage to areas of denser population and 
transportation corridors, public safety users must have communications 
capability wherever there are people or property to protect. This 
mandate has the important consumer benefit of ensuring that a broadband 
network designed to meet public safety needs will be available in 
suburban and rural communities that remain outside the areas of 
commercial broadband deployment. However, I have substantial experience 
in the traditional funding sources for public safety communications and 
see no realistic possibility that the necessary moneys will be made 
available even to build, much less maintain, operate and routinely 
upgrade a network of this scope if dedicated to purely public safety 
requirements.
    The only solution that we consider viable is a public sector-
private sector partnership as proposed in the Public Safety Broadband 
Trust. Under this approach, the PSBT would acquire a 30 MHz license at 
700 MHz and would enter into leases of spectrum usage rights with 
commercial operators who would build a nationwide public safety network 
that: (1) would be paid for by commercial operators using excess 
capacity, not by the public safety community or the taxpayer; (2) would 
be licensed and controlled by public safety representatives to ensure 
public safety priority access; and (3) would be refreshed with the 
latest technical improvements, funded by the commercial participants.
    We do not support what some would call a ``hosted'' public safety 
network. While the term may have somewhat different meanings to 
different people, at its core it puts mission critical, emergency 
response communications in a position of dependence with respect to the 
host commercial provider. Moreover, it undermines or even negates the 
essential nationwide character of the network. With all due respect to 
commercial operators that might now express support for hosted systems, 
there is nothing in the over 20-year history of commercial wireless 
systems that would validate their reliability or availability for 
mission critical public safety needs. That is not an arrangement that 
the public safety community could endorse.
    In regard to the Ninth Notice of Proposed Rulemaking (NPRM) 
recently issued by the Federal Communications Commission, we have many 
concerns about the concepts set forth in that proposal. The Ninth NPRM 
suggests that a nationwide broadband network could be built using the 
12 MHz of spectrum currently allocated for local licensing of public 
safety wideband systems. This would take away from local licensing 
control the spectrum long promised for use by local agencies. In 
addition we believe the proposal is seriously flawed by failing to 
acknowledge the need for enough spectrum to attract investors to 
participate in a public/private partnership where private funds would 
be invested to build a nationwide network.
    By contrast, the partnership outlined in the Public Safety 
Broadband Trust creates a symbiotic and balanced relationship, but one 
in which public safety always remains in control. It represents a win-
win opportunity if sufficient spectrum is allocated to accommodate both 
public safety and commercial usage. Public safety cannot fund this 
network on its own, but also must be confident that the network is 
built to hardened public safety requirements with priority access that 
is adequate to respond to emergencies. Commercial operators will lease 
the spectrum and build the network to public safety specifications, but 
only if there is sufficient excess capacity to permit meaningful 
commercial service on a regular basis. The technical data supports the 
conclusion that a minimum of 30 MHz is needed to serve these 
complementary requirements.
    The many public safety organizations and agencies that have 
supported the PSBT approach recognize that it will require removing 
some of the 700 MHz spectrum that currently is scheduled to be 
auctioned. The PSBT proposal includes a plan to make the Federal budget 
whole. The PSBT would raise $5 billion to pay the U.S. Treasury for the 
spectrum, using the revenues from the commercial users and the 
assistance of Federal loan guarantees similar to those that have been 
made available to industries such as airlines, pipelines and automobile 
manufacturers. This financing arrangement would ensure that other 
Federal public safety spending priorities, including the $1 billion for 
other public safety interoperable communications needs, would not be 
affected.
    Let me add that I and other supporters of the PSBT also endorse the 
commendable work being done by local and regional organizations such as 
the Capitol Area Region Broadband Project with respect to broadband. To 
the extent their efforts bring about public safety communications 
improvements, it is important work that deserves support. But we must 
remain mindful that the results will be, at best, a patchwork of 
improved, but incompatible, non-interoperable networks at a daunting 
per unit cost. They are doing what they can in light of the regulatory 
and financial environment in which they must operate, but this Nation 
can and must do better.
    I have dedicated most of my professional career to the advancement 
of public safety communications. From that perspective, I believe this 
Congress has an extraordinary time-sensitive opportunity. Approval of 
the PSBT and the public sector-private sector partnership will catapult 
public safety to its rightful place in the forefront of communications 
capability while at the same time delivering broadband service to 
communities that continue to be bypassed by the commercial 
telecommunications revolution. I hope you will share my belief that 
this is an opportunity that must be seized for the benefit of the 
entire American public.

    The Chairman. I thank you very much.
    May I now call upon Mr. O'Brien, Chairman of Cyren Call.
    Mr. O'Brien?

            STATEMENT OF MORGAN O'BRIEN, CHAIRMAN, 
                   CYREN CALL COMMUNICATIONS

    Mr. O'Brien. Thank you, Mr. Chairman. Thank you, Mr. Vice 
Chairman and members of the Committee.
    My name is Morgan O'Brien, and I am no stranger to 
controversy.
    [Laughter.]
    Mr. O'Brien. In 1987, I was a founder of a company then 
called Fleet Call, which became Nextel. And the relevance of 
the history of my experience and--at Fleet Call and Nextel--to 
today's deliberation is that Fleet Call and Nextel approached 
the FCC and argued strenuously that a more efficient use of 
spectrum, a different way of handling spectrum, would create a 
competitive opportunity to the cellular industry that was a 
duopoly. It would be fair to say that the response in 1987 from 
the established cellular industry, the wireless operations, and 
the wireless carriers, was violent. I understand well the 
process of innovation and introducing disruptive technology 
into an existing environment.
    I think the success that Nextel accomplished illustrates 
vividly the point that competition, as opposed to competitors, 
is the guiding principle in the regulation of 
telecommunications. I know I'm preaching to the converted when 
I talk about competition to this committee, but the history of 
Nextel--which, for 18 years, I lived intimately--was that new 
competition and disruptive technology are never welcome, but 
they have a very beneficial effect.
    At Nextel I also developed a high degree of confidence for 
the private sector--the willingness of the private sector to 
capitalize new ventures and the ability of a new venture such 
as Nextel to take on the establishment, build up market share, 
and be a long-time successful operation. I know that process. I 
know the elements. And I believe I see the same opportunity 
here.
    Prior to the Nextel experience, and, in a certain way, a 
return for me to my roots, I had the privilege of working at 
the Federal Communications Commission in the 1970s, working in 
the area of spectrum management of private radio services, the 
key player in the private radio services being public safety. 
So, I began my career working for several years at the FCC, 
working on the same thorny issue that we're talking about 
today, and that was in the 1970s. Spectrum management is a more 
rational way of using and assigning frequencies for the most 
important users of radio communications frequencies, which is 
public safety.
    The details of the proposal that Cyren Call has put forward 
to this committee and to the FCC are set out in my testimony 
and others, so I won't take the time to go through the details 
now. I just want to make one or two points of emphasis.
    By far the most important element of our proposal is that 
30 megahertz of spectrum be licensed to a not-for-profit Public 
Safety Broadband Trust broadly representative of the public 
interest--public safety interest at State, local, and Federal 
levels--throughout this country. I want to stress the 
implications of having that type of a licensee, something never 
before attempted, and the difference of a non-profit oriented 
license. The not-for-profit licensee would be sufficiently 
instructed by legislation and by the FCC to achieve certain 
objectives not in the commercial interest, but instead in the 
public interest. For example, providing the broadest possible 
coverage, even when the broadest possible coverage isn't the 
most economically rational thing to do. Providing a public-
safety-grade build-out would not be economically rational but 
for a licensee such as the Public Safety Broadband Trust.
    So, I draw your attention to the importance of awarding a 
license, figuring out a way to make that license available to 
the Public Safety Broadband Trust, and then following through 
the implications--the powerful implications--of how that type 
of licensee, working with the private sector--again, something 
unprecedented--can use the private sector and the willingness 
of the private sector to finance a next-generation network.
    I'd like to make a last point--actually there are two last 
points. One, any effect of our proposal, or proposals like our 
proposal, that would delay the availability of spectrum based 
on the earlier legislation, in our view, would be a terrible 
mistake. Anything that would affect the billion dollars that's 
available--or will be coming available to public safety 
interoperability--again, would be a terrible mistake. No one at 
Cyren Call in any way would support that. So, if that were the 
unfortunate consequence, and a choice had to be made, the clear 
choice is not to affect those deadlines. That would be counter 
to the best interest of public safety and the public interest.
    I want to say one final word about three aspects of 
competition. First and foremost, the disruptive and positive 
effect of a new player coming into the wireless industry at 
this point of time, I think, cannot be exaggerated. Competition 
is important, and protecting competitors is not important, as 
has been so often the case before.
    Secondly, the use of competition is important. If a Public 
Safety Broadband Trust is created, to recruit and develop the 
best possible range of commercial operators to partner with 
public safety under the guidance of public safety, the use of 
competition will be effective. And, third, and most painfully 
and most personally, I want to address the competition for the 
role that Cyren Call has sought. We are absolutely consistent 
with the logic of the Public Safety Broadband Trust making the 
right decision, looking fully and competitively to determine 
who would be the best partner, and the best manager in this 
type of relationship. We're prepared to go through that 
process. We would hope to win in that process. But, again, we 
look at the competition.
    And I thank you very much, and I hope to have a chance to 
talk more in the questions.
    [The prepared statement of Mr. O'Brien follows:]

            Prepared Statement of Morgan O'Brien, Chairman, 
                       Cyren Call Communications
    Good morning Chairman Inouye, Vice Chairman Stevens, members of the 
Committee. My name is Morgan O'Brien. I am the Chairman of Cyren Call 
Communications Corporation. Prior to forming Cyren Call last year, I 
spent eighteen years as a founder of Nextel Communications, Inc. I 
served most recently as Vice Chairman of Nextel prior to its merger 
with Sprint Corporation.
    Historically, Congress and the FCC have treated the communications 
requirements of the public safety and commercial communities as 
separate and distinct. As a result, public safety increasingly has been 
left behind while commercial service providers have revolutionized the 
telecommunications capabilities of the Nation. The challenge before us 
today is how to correct this imbalance, since 9/11 taught us that we 
are all one nation facing a new threat. To meet this threat, public 
safety must have the same extraordinary capabilities that consumers 
already are beginning to enjoy on commercial broadband networks.
    The Nation's emergency response providers are being asked to take 
on ever expanded duties with limited human and financial resources. 
Improved technology is key to enabling that workforce to keep pace with 
those responsibilities. This Committee has repeatedly recognized the 
importance of broadband for the general public. The Nation's most 
essential users, the individuals who protect our persons and property, 
also have a paramount need to access the almost mind-boggling 
capabilities that can be delivered on an advanced wireless broadband 
network. We must identify an approach that at last will permit public 
safety users to be at the forefront of this Nation's telecommunications 
revolution.
    On April 27, 2006, Cyren Call filed a comprehensive proposal with 
the FCC in which it recommended the creation of a nationwide, wireless 
broadband network for public safety and commercial use employing an 
innovative public sector-private sector partnership and funding method. 
In my opinion, and as indicated by the public safety representatives 
who address you today, this shared 30 MHz governmental/commercial 
network at 700 MHz, described more fully below, is the only technically 
and financially viable solution for the following reasons:

  <bullet> First, those who protect our lives and property should be 
        using best-in-class, state-of-the-art wireless technology, and 
        all too frequently they are not. Both spectrum and financial 
        limitations act as barriers to that objective.

  <bullet> Second, the Nation's public safety mobile capabilities must 
        be upgraded as the FCC has reported on several occasions over 
        the past few years. The public safety community's expanded 
        responsibilities require a nationwide, interoperable broadband 
        network at 700 MHz. Comments filed by thousands of public 
        safety representatives in response to several recent FCC 
        proceedings confirm that they embrace the idea of a 700 MHz 
        broadband public safety network.

  <bullet> Third, the realities of local, state and even Federal 
        funding constraints make it clear that the public sector--on 
        its own--cannot finance a broadband network with the necessary 
        geographic coverage and technical capabilities. Indeed, earlier 
        this week, the Administration proposed sharp cuts in FY 2008 
        grants for first responders. And even if such a network could 
        be built with taxpayer dollars--a daunting assumption that 
        requires the availability of tens of billions of dollars for 
        that purpose alone--the ongoing cost of operating, maintaining 
        and continuously upgrading it to keep pace with technological 
        improvements vastly exceeds available public funding sources.

  <bullet> Fourth, more than twenty-five years of commercial wireless 
        deployment has also made it clear that no business case has 
        emerged to induce commercial carriers to build out their 
        networks beyond areas of relative population density, even 
        though substantial spectrum has been made available for that 
        purpose. Yet, the individuals in those communities still 
        require police, fire, emergency medical and other vital 
        governmental services. Moreover, they deserve access to the 
        same wireless broadband technology that is transforming 
        peoples' lives and their ways of conducting business in more 
        urban markets.

    The considerable time I have spent over the past years with police, 
fire, EMS and other emergency response providers, those serving rural, 
sparsely populated communities as well as those in major urban areas, 
has given me a deep appreciation for their truly unique communications 
requirements. Access to tomorrow's broadband devices will be essential, 
for example, to enable police officers to have real-time (streaming) 
video of a crime scene or major disaster as it unfolds. That type of 
situational awareness will give first responders a quantum leap in 
intelligence, a 21st century equivalent to body armor.
    Just as important, it is becoming increasingly clear that the 
Nation needs a secure wireless broadband network to meet the needs of 
the critical infrastructure community, upon which our economy and well-
being depend. Their access to a secure broadband network, in times of 
national threat or emergency will be a vital enhancement to the 
Nation's security.
    At Nextel I had hands-on experience building a commercial wireless 
network from the ground up, while also converting operations from 
analog to digital technology. I know what is required to finance, 
deploy, operate, maintain and upgrade a top-quality, large-scale 
wireless network. Even with that experience, I do not underestimate the 
even greater challenge of building a nationwide broadband network to 
the more demanding public safety specifications and fully appreciate 
that the commitment, of necessity, is long-term. But it must be started 
now and started right. If public safety is to enjoy the advanced 
capabilities it needs and deserves, its wireless devices must be 
developed in conjunction with the right technology platform, not 
retrofitted to conform to a system built to less stringent commercial 
standards.
    It is the combination of these factors that led to the creation of 
Cyren Call and its work with the public safety community in developing 
the concept of a governmental/commercial shared 30 MHz broadband 
network at 700 MHz, the license for which would be held by the Public 
Safety Broadband Trust (PSBT). The PSBT would consist of 
representatives of a broad variety of local, state and Federal 
Governmental entities and organizations. Excess capacity on the 30 MHz 
would be leased to commercial carriers for entirely commercial service 
in exchange for building, maintaining, operating and upgrading the 
network in accordance with specifications established by the PSBT. The 
PSBT proposal contemplates that public safety entities would pay for 
their own subscriber equipment and for system access. However, they 
would avoid the infrastructure costs that require extraordinary bond or 
other taxpayer measures, measures that take years to effectuate and, at 
best, provide individual organizations with equipment that already may 
be outdated by the time it is deployed, and which then cannot be 
upgraded for years or decades without additional taxpayer funding. 
Instead, the PSBT approach would mirror the commercial approach to 
network upgrades; public safety technology would be refreshed routinely 
in accordance with the demands of the consumer marketplace, although 
always consistent with the PSBT specifications as well. Public safety 
also would enjoy the cost economies of subscriber devices produced in 
volume for the broader consumer market, economies that continue to 
drive down the cost of cell phones and other wireless products.
    The result would be a nationwide broadband network available to 
serve both public safety entities and the general public. It would not 
replace existing public safety voice facilities, but would provide 
access to a state-of-the-art system built specifically to public safety 
standards. On a day-to-day basis, the great majority of capacity would 
be devoted to commercial usage. While public and private wireless 
operations traditionally have been viewed as incompatible, the 21st 
century network contemplated in the PSBT proposal permits rational 
shared use. The first commercial subscribers are likely to be a 
combination of users such as utilities with more demanding public 
safety-like requirements and first adopters who want access to the most 
advanced technology available. However during emergencies, whether of a 
local, statewide, regional or even nationwide scope, increased access 
and capacity would automatically be dedicated for emergency response 
provider purposes on a scaled basis as dictated by the event. Of 
course, the rules of the road with respect to preemption would be 
established in advance by the PSBT so that those transmitting less 
critical communications would know to anticipate some disruption during 
those events. Those with vital transmissions, network users at the 
local, state and Federal levels, would have immediate, seamless 
interoperability. Public safety agencies operating on their own systems 
in other bands also could be provided with interoperability through IP-
based gateway patches that would reside on the network and use its IP 
backbone resources.
    The operation of this network would represent a substantial 
challenge for commercial wireless veterans and will require careful 
oversight by the PSBT, whose members are not professional network 
operators. The legislation therefore permits, but most certainly does 
not require, the PSBT to hire personnel or enter into contracts with 
parties that bring skills critical to the network's success. Cyren Call 
believes it has the qualifications to take on important 
responsibilities vis-a-vis the network and has raised capital in 
anticipation of responding to any PSBT management services request for 
proposal. However, I will state here for the record what I have stated 
publicly and repeatedly since filing the proposal with the FCC in April 
2006: Cyren Call is not asking for a guarantee of any ongoing role with 
respect to the PSBT or this 700 MHz spectrum. All such decisions will 
remain firmly in the hands of the PSBT, participation in which will be 
limited exclusively to public safety/governmental organizations.
    Representatives of the Nation's police and fire officers have 
explained to the Committee their critical need for broadband capability 
on a national scale. They have described some of the functions that 
cannot be introduced on their current radio systems, but that would be 
available on a 30 MHz broadband network. Public safety officers are 
hampered today by not having access to features such as streaming 
video, large file downloads (e.g., building diagrams and architectural 
plans), remote database access and multi-media messaging capability. 
And these are the capabilities that we already know are needed. The 
history of telecommunications teaches us that the introduction of 
improved technologies spawns applications and functionalities even 
beyond those originally anticipated. Who could have anticipated in 1983 
when the first analog cellular system was activated that subscribers in 
2007 would be using their ``phones'' to take pictures, watch 
television, read e-mails and maintain calendars? It is not possible to 
envision today all of the uses to which emergency response providers 
and commercial subscribers will put this broadband network since the 
only limits will be those of entrepreneurial ingenuity. However, a 
compelling advantage of this public/private broadband partnership is 
that public safety at last will enjoy the ongoing technical 
developments that now are taken for granted by subscribers on 
commercial networks. Competition in a fully competitive marketplace is 
a powerful engine for driving technological advances.
    Technical improvements on this order require an appropriate 
spectrum platform. Yet critics of this governmental/commercial shared 
network claim that public safety does not need additional spectrum on 
which to deploy a broadband network. They argue that public safety 
could meet its needs by using its existing spectrum more effectively.
    The proponents of such criticism either are woefully misinformed or 
are willfully disingenuous about the reality of public safety spectrum 
allocations. Most public safety spectrum is allocated in individual 25 
kHz or 12.5 kHz channels. These channels are but a fraction of the 
spectrum awarded to each cellular and PCS licensee and, even then, are 
not contiguous to one another. Under rules and procedures established 
by the FCC, they are interleaved with channels used by a variety of 
non-public safety entities and must coexist with them. Even if the FCC 
were inclined to displace all existing public safety operations on this 
shared spectrum, those individual channels could not be cobbled 
together to create a block of contiguous spectrum adequate to support a 
broadband network. Suggesting otherwise is a deliberate attempt to 
mislead Congress and this Committee. The fact that this fiction 
originated from CTIA, the organization representing the wireless 
carriers who have made no secret of their appetite for the spectrum in 
question, speaks volumes.
    The public safety community also has stated already that even the 
12 MHz of contiguous public safety spectrum at 700 MHz proposed by the 
FCC for a nationwide broadband network is entirely inadequate for that 
purpose. They have determined that it would not provide enough capacity 
to accommodate all governmental broadband usage, much less provide 
excess capacity that would attract commercial partners.
    It is for precisely this reason that the public safety community 
has embraced the fundamental premise of the PSBT legislation--a shared 
governmental/commercial 30 MHz broadband network is the only 
economically realistic vehicle for delivering broadband capabilities to 
local, state and Federal public safety users as well as to the American 
people that live beyond the outposts of commercial wireless deployment. 
If there is a better answer, one that addresses all of the technical 
and economic factors that must be integrated to produce a workable 
solution, its proponents should be here, before this Committee, so that 
their proposal could be tested for cohesiveness and validity. The needs 
of public safety are urgent and immediate. They should not be deferred 
in the hope that this problem will resolve itself or that an easier 
solution will emerge. They most certainly should not be denied because 
of a previously enacted Congressional auction schedule.
    Last week's oversight hearings also reaffirmed that this Committee 
and the FCC consider ubiquitous broadband deployment one of the 
fundamental challenges for our Nation's telecommunications policies. 
There is no question that state-of-the-art broadband technology should 
be delivered to all of our citizens, not just those in the more densely 
populated communities that support purely commercial deployment. 
Indeed, several Senators questioned whether there should be incentives 
for more expansive broadband deployment and how addressing this issue 
might impact the Universal Service Fund.
    The shared governmental/commercial network proposed in the PSBT 
legislation represents a solution that requires neither governmental 
incentives nor USF moneys. Chief McEwen has explained the financial 
structure of the PSBT legislation. He has described how the Federal 
Treasury will be compensated for the 30 MHz of spectrum that would be 
allocated to the PSBT rather than auctioned.
    The success of this approach is dependent upon two factors. First, 
the network must be conceived, organized and operated as a nationwide 
system with operations in more commercially attractive markets such as 
Los Angeles and New York defraying the cost of providing service in 
areas such as North Dakota, South Dakota, Arkansas, Mississippi, and 
West Virginia. The network must operate on the principle of coupling 
access to prime spectrum usage rights in commercially desirable markets 
with the obligation to build and operate, or contribute to the 
construction and operation of, the network in more sparsely populated 
and underserved markets. If not, it will be bound by the same economic 
barriers that, to date, have defined the geographic coverage of 
commercial wireless systems. Indeed, one of the PSBT's greatest 
challenges will be balancing public safety coverage requirements with 
the implacable economic realities of network costs.
    Second, there must be sufficient capacity to support governmental 
usage while still attracting commercial interest. The former dictates 
that the network be built to hardened public safety specifications, 
substantially beyond the requirements of a typical commercial system, 
and that it have truly nationwide coverage through a combination of 
terrestrial and satellite service. The cost of deploying such a network 
is substantial. The commercial operators who will be building, 
maintaining, operating and improving it pursuant to their lease 
arrangements with the PSBT must be confident that there will be 
sufficient commercial capacity to support significant usage by a 
commercial customer base large enough to justify their investments.
    Let me share with you a summary of the analysis that suggests 30 
MHz is the minimum needed to support a viable network of this scope.

  <bullet> Terrestrial Coverage Cost: Public safety must provide 
        services wherever there is public to serve. A nationwide public 
        safety broadband network is assumed to require a terrestrial 
        build to 99.3 percent population coverage. The favorable 
        propagation characteristics at 700 MHz help reduce costs of 
        network construction, operation and maintenance vis-a-vis 
        building out in a higher band, but even with the 700 MHz 
        coverage advantages, it still is estimated that approximately 
        37,000 cell sites will be needed.

  <bullet> Satellite Coverage Cost: Although the terrestrial build-out 
        would cover 99.3 percent of the population, 35 percent of the 
        Nation's land mass would not receive service from terrestrial 
        sites. To ensure that public safety providers and the general 
        public scattered throughout these sparsely populated areas 
        nonetheless would have coverage, coverage that is not always 
        available even today, and to guarantee a level of nationwide 
        redundancy in the event of a catastrophe along the lines of 
        Hurricane Katrina, satellite coverage will be an essential part 
        of the network. Both terrestrial and satellite capabilities 
        would be built into handsets so that emergency response 
        providers will develop a full familiarity with both as part of 
        their day-to-day radio operations.

  <bullet> Hardened Network Cost: The occasional dropped call or 
        network outage is an inconvenience, not a catastrophe, for a 
        commercial subscriber. When a police or fire officer or an EMT 
        loses communications, a life may be lost. Because of the 
        responsibilities their personnel shoulder, public safety 
        agencies require their communications systems to be built to 
        significantly higher standards of reliability and redundancy 
        than are the norm in commercial networks. Each of these 
        elements adds cost to the network.

  <bullet> Operational/Maintenance/Upgrade Cost: Economic analyses 
        often focus on the cost of initial network deployment and fail 
        to calculate the very substantial ongoing expenses associated 
        with operating, maintaining and upgrading wireless systems. In 
        fact, those costs can dwarf build-out expenses even when the 
        up-front investment is significant. A 37,000 plus site network 
        providing advanced capabilities to millions of public safety 
        and commercial subscribers will have very significant 
        operational and maintenance costs. Refreshing the network with 
        technology upgrades as dictated by the marketplace and 
        consistent with PSBT specifications will require additional 
        financial commitments on the part of the commercial operators.

  <bullet> Estimated Usage: The history of wireless communications is 
        that subscriber usage invariably exceeds estimates. The 
        spectrum efficiencies gained when improved technologies are 
        introduced permit new applications that themselves prompt 
        additional system utilization. The impact on network usage when 
        public safety leapfrogs from voice-centric communications to 
        streaming video and other spectrum-consuming applications will 
        be extraordinary. And the data applications that drive 
        broadband usage will only expand once this next-generation 
        network is deployed. The viability of the network will depend, 
        among other factors, on ensuring that it has sufficient 
        capacity to support these more capacity-consuming applications 
        while maintaining a public safety grade blocking rate.

  <bullet> Required Rate of Return: Commercial operators have a 
        financial obligation to their investors and/or shareholders. 
        The potential rate of return associated with the shared 
        governmental/commercial network described herein must justify 
        the investment required to fund the elements identified above. 
        This requires capacity that is adequate to accommodate local, 
        state and Federal Government usage with enough excess capacity 
        to support an economically remunerative commercial subscriber 
        base as well. There is no viable business case for a shared 12 
        MHz nationwide broadband network. 30 MHz is the minimum 
        allocation that will satisfy this purpose.

    By scheduling this hearing, this Committee already has demonstrated 
its seriousness of purpose with respect to public safety communications 
requirements. It has been apparent for some time that the traditional 
response to a worsening situation, piecemeal financing of individual, 
incompatible systems serving individual needs, is prohibitively costly 
to taxpayers and does not address what clearly is a systemic problem.
    The solution endorsed by the public safety community, creation of 
the PSBT and the assignment to it of a 30 MHz authorization designated 
specifically for deployment of a nationwide, advanced technology, 
interoperable, and secure wireless broadband network shared by 
governmental and commercial users, represents a unique opportunity to 
address both public safety and rural broadband needs. But time is not 
on the side of those who support this initiative. Its opponents 
recognize that actions taken by prior Congresses mean that the clock 
continues to tick down toward the auction deadline for this 700 MHz 
spectrum. A failure to act promptly will eliminate this solution by 
default and stalemate, and rob Congress of the opportunity to engage in 
reasoned decisionmaking on this vital national issue.
    I urge Congress to embrace the comprehensive approach set out in 
the PSBT legislation and endorse a public/private partnership that will 
deliver wireless broadband service to all of the American public and 
provide public safety with the telecommunications capabilities needed 
to protect the safety of our citizenry.

    The Chairman. I thank you very much, Mr. Chairman.
    And may I now call upon President and CEO of CTIA, Steve 
Largent?

 STATEMENT OF HON. STEVE LARGENT, PRESIDENT AND CEO, CTIA--THE 
               WIRELESS ASSOCIATION <SUP>'</SUP>

    Mr. Largent. Thank you, Chairman Inouye and Co-Chairman 
Stevens and members of the Committee. Thank you for the 
opportunity to testify today.
    I support the idea of an interoperable wireless broadband 
public safety network. One only has to look at the efforts 
between the industry and public safety on E-911, wireless 
priority service, wireless AMBER alerts, and, most recently, 
the WARN Act and emergency alerts, to know that this industry 
is serious about public safety. We will do our part in this 
instance, too.
    I have several points to make to you today. First, Congress 
got it right a year ago, when it passed the DTV Act, setting a 
firm date for the full conversion to digital television and 
giving public safety agencies access to an additional 24 
megahertz of spectrum in the 700-megahertz band. This will 
double public safety's spectrum inventory from pre-September 
11th levels. Additionally, this committee was instrumental in 
providing a billion dollars in funding for interoperable 
communications to be drawn from commercial spectrum auction 
proceeds. The DTV Act promises an expedient transition to 
digital television, advanced wireless broadband services, and 
enhanced interoperability for our first responders. Now is not 
the time for change.
    Second, interoperability challenges faced by first 
responders are not based on a lack of spectrum. Upon completion 
of the DTV transition, public safety will have 49.7 megahertz 
of spectrum to use for state-of-the-art voice and data services 
to serve approximately 3 million first responders. Cyren Call 
would have you believe that public safety networks will use 
that spectrum only to provide voice service and that more 
spectrum is needed for data. CTIA's largest carriers use, on 
average, the same amount of spectrum, yet provide both voice 
and broadband data services to more than 50 million customers 
each. This debate should not be about spectrum.
    If the problem facing public safety is not spectrum, what 
is the problem? I offer that it is, as was said earlier, 
limited funding and divided turf. I don't dispute the need to 
improve interoperability and the broadband capabilities of our 
Nation's public safety communications system. If the Committee 
is looking for a model solution for how to deal with these 
challenges, I suggest you look to the effort of New York City. 
Under the leadership of Mayor Bloomberg, it has made great 
strides toward solving interoperability challenges that cost 
them so dearly on September 11th. Last September, New York City 
announced it had awarded a contract for a public safety 
broadband wireless network that will utilize 10 megahertz of 
spectrum in the 2.5 gigahertz band to provide enhanced, 
interoperable broadband services. Solutions addressing the 
needs of public safety are available today.
    Third, Cyren Call's plan should be rejected. It's untimely, 
unwise, and unnecessary less than 10 months before the auction 
is expected to occur. The Cyren Call plan could have been 
debated during the period in which the DTV bill was crafted, 
but it was not. That was a 10-year period of time. The proposal 
is a giveaway that shortchanges the U.S. Treasury, potentially 
by billions of dollars. Additionally, the financing scheme set 
forth in Cyren Call's proposal effectively requires taxpayers 
to subsidize Mr. O'Brien's entry into the commercial space. 
Today, wireless industry is highly competitive, and there's no 
compelling reason to subsidize additional entry.
    Fourth, if Cyren Call's proposal is not the solution, what 
is? The wireless industry accepts that it has a responsibility 
to provide expertise in what works and what doesn't work to 
solve public safety's interoperability needs. Accordingly, I am 
pleased to announce that the Silicon Flatiron's program at the 
University of Colorado, through a grant provided by CTIA, will 
host a 2-day joint experts meeting here in Washington, D.C., 
the week of April 9th. Dale Hatfield, the respected former head 
of the Office of Engineering and Technology at the FCC, has 
indicated a willingness to lead this effort. Leaders from the 
public safety world will be invited to join experts from the 
commercial sector to discuss the best solutions for public 
safety. They will address broadband and interoperability, and 
specifically investigate use of CMRS technologies, unlicensed 
WiMAX, and Muni WiFi applications, solutions from New York and 
the Washington National Capital Region, reliance on a national 
systems integrator, as well as issues involving spectrum needs, 
costs, time to market, and complexity. I've spoken to several 
of our largest carrier manufacturer CEOs, and they have 
committed to have their leading subject-matter experts at the 
meeting. The goal is not another discussion, but real work 
toward the best solutions. Putting the best minds together can 
get us there.
    What is needed from Congress is a continued commitment to 
the DTV transition and the interoperability grant programs. You 
can use your influence to help solve the leadership and turf 
battles that too often slow progress towards interoperability, 
and you can reject the false choice that one must be for Mr. 
O'Brien's plan to be for public safety, as that is not the 
case.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Largent follows:]

     Prepared Statement of Hon. Steve Largent, President and CEO, 
              CTIA--the Wireless Association <SUP>'</SUP>
    Chairman Inouye, Vice Chairman Stevens and members of the 
Committee, thank you for the opportunity to testify this morning on an 
issue that is of great significance to the wireless industry, but more 
importantly, critical to the security and safety of this country--the 
present and future of public safety communications.
    As someone who was a Member of Congress on September 11th, 2001 and 
now as President of CTIA, I am keenly aware of the need for a national, 
interoperable wireless broadband public safety network. I am proud to 
say that the wireless industry has a long and proven track record of 
working with public safety agencies throughout the country to develop 
public safety and interoperability solutions. One only has to look at 
the collaborative efforts between the wireless industry and public 
safety on E-911, Wireless Priority Service, Wireless AMBER Alerts and, 
most recently, the WARN Act and emergency alerts to know that this 
industry is committed to developing a world class 21st century 
communications network. It is imperative that our Nation's first 
responders have access to the latest technology, such as broadband data 
and video capabilities that are now currently available in wireless 
handsets used by American consumers.
    This Committee and Congress got it right a year ago when it passed 
The Digital Television Transition and Public Safety Act (DTV Act) 
setting a firm date for the full conversion from analog to digital 
television. The DTV Act represents years of careful consideration on 
the part of Congress, the FCC, NTIA, public safety, television 
broadcasters, and the wireless and technology industries. As a result 
of this landmark legislation, public safety agencies will have access 
to an additional 24 MHz of spectrum in the prime 700 MHz band doubling 
public safety's spectrum inventory as compared to pre-9/11 levels. 
Additionally, this Committee was instrumental in providing $1 billion 
in funding for interoperable communications from the auction proceeds 
of commercial spectrum.
    As Chairman Martin and Commissioner Adelstein said last week before 
the Committee, the reallocation of the 700 MHz band is one of the most 
important undertakings before the Commission. I commend the FCC on 
taking the next crucial step with its notice of proposed rulemaking 
which solicits input from the best and the brightest as to how best to 
deploy an interoperable network utilizing the 24 MHz of prime spectrum.
    Congress has made prudent decisions by setting a hard date for the 
DTV transition and by making funding available to public safety for 
interoperability grants. It is therefore crucial that the auction for 
this spectrum occur expeditiously. A timely auction will raise much 
needed funds for interoperability and make the promise of wireless 
broadband a reality for the U.S. economy, consumers, and importantly, 
the millions of non-first responder government officials who rely on 
commercial networks to keep their cell phones and PDAs functioning 
during a crisis.
    There is no dispute regarding the need to improve interoperability 
and the broadband capabilities of our Nation's public safety 
communications system; however, the Cyren Call plan or other proposals 
that stray from the path set by the DTV Act only serve to hinder and 
delay the transition.
    It is the firm belief of CTIA and the wireless industry that now is 
not the time to alter the procedures set in place by the DTV Act. 
Congress and the FCC must remain committed to the current course, which 
promises an expedient transition to digital television, advanced 
wireless broadband services, and most importantly, enhanced 
interoperability for our first responders.
    I would like to emphasize that the current interoperability 
challenges faced by first responders is not based on a lack of 
spectrum. Upon completion of the DTV transition as currently 
configured, public safety will have 49.7 MHz of spectrum (not including 
the 50 MHz that they have been allocated in the 4.9 GHz band) to use 
for voice and data services to serve approximately 3 million first 
responders. Cyren Call would have you believe that public safety 
networks will use that 49.7 MHz to provide only voice service to the 3 
million first responders, and that more spectrum is needed for data. In 
comparison, three of our largest carriers use, on average, the same 
amount of spectrum, yet provide both voice AND broadband data services 
to over 50 million customers each, with two of them serving over 60 
million. Commercial operators, using the same 50 MHz of spectrum, can 
provide voice and data service to 60 million Americans. The commercial 
wireless industry provides interoperable voice and data services to 
twenty times the number of customers as are served by public safety. 
This is not about spectrum.
    Professor Jon Peha of Carnegie Mellon has studied the current 
fragmented approach to public safety communications, and has come to 
the conclusion that the current approach consumes more spectrum than it 
should. To date, the United States has assigned approximately 200 MHz 
of spectrum to the commercial wireless industry, and there currently 
are over 230 million subscribers. National wireless carriers in the 
U.S., on average, use 1 MHz of spectrum to provide service to one 
million customers. After the 700 MHz auction, public safety will have 
almost 50 MHz of spectrum to serve 3 million first responder 
subscribers. Public safety will have 16 times more spectrum, per user, 
than the average nationwide carrier does now, and again, this figure 
does not include the 50 MHz of spectrum that public safety has been 
allocated in the 4.9 GHz band. Even before the DTV transition, public 
safety currently has 8 MHz per million users. If spectrum is not the 
problem inhibiting a coordinated and cohesive interoperable public 
safety network, then what is the problem?
    If the Committee is looking for an answer to this question, I would 
suggest the Committee should examine effort of New York City.
    Last September, New York City announced it had awarded a five-year, 
$500 million dollar contract to Northrup Grumman to develop a public 
safety broadband wireless network. The proposed network will utilize 10 
MHz of spectrum in the 2.5 GHz band, and is designed to enhance public 
safety by facilitating communication between first responders. The 
network will utilize Universal Mobile Telecommunications System (UMTS) 
technology from IP Wireless because of its inherent spectral 
efficiency, which reduces the network's need for spectrum while 
providing New York with a technology sufficient for its public safety 
wireless broadband requirements. According to IP Wireless, the system 
can deliver download data rates of 8 to 10 megabits with future 
versions capable of 30 megabits of download speed. These speeds can 
easily accommodate applications that first responders require.
    Examples such as this illustrate that through the use of modern 
wireless technologies, the 24 MHz of 700 MHz spectrum that already is 
allocated to public safety is more than sufficient to meet the data 
rates and bandwidth requirements for an interoperable broadband 
service.
          * * * * *
    As I mentioned earlier, the DTV Act represents 10 years of 
painstaking deliberation on the part of policymakers and stakeholders. 
Mr. O'Brien had ample opportunity during those 10 years to put forth 
his Cyren Call proposal and have its merits debated before the DTV 
legislation was enacted. Instead, Cyren Call offered its proposed 
alternative approach in April 2006--two months after the legislation 
was signed into law.
    In April of last year, Cyren Call filed a petition with the FCC 
requesting that an additional 30 MHz of commercial spectrum in the 700 
MHz band be reallocated to construct a nationwide broadband emergency 
communications system to be used by first responders. Cyren Call's 
business plan, and to be clear, Cyren Call is a for-profit business 
venture, proposes that the spectrum be deeded to a ``Public Safety 
Broadband Trust'' which would in turn lease the spectrum to commercial 
operators in exchange for their commitment to construct a national 
broadband network.
    On November 3, 2006, the FCC dismissed Cyren Call's petition, 
noting that the venture is inconsistent with the DTV Act. Unwilling to 
take ``no'' for an answer, Mr. O'Brien and his team of lobbyists have 
begun seeking legislation based on the proposal the FCC rejected.
    The Cyren Call proposal shortchanges the U.S. Treasury, and thus 
the taxpayers--potentially by billions of dollars. Under the terms of 
Cyren Call's proposal, the corporation is entitled to purchase a chunk 
of the valuable 700 MHz band on a no-bid, non-compete basis, for an 
amount ``not to exceed'' $5 billion. Many recent estimates suggest this 
is likely to be far less than the spectrum would fetch at auction. 
Additionally, the bill requires taxpayers to subsidize the 
corporation's below-market purchase of the spectrum by guaranteeing up 
to $10 billion of loans to the corporation, half of which can be used 
by the corporation to buy the public safety broadband license. The rest 
could be paid to the private sector entities selected by the 
corporation to lease the spectrum, in essence requiring the taxpayers 
to subsidize those entities as well. Despite a decidedly mixed track 
record in administering complex indebtedness issues in the NextWave 
case, the FCC would provide the loan guarantees.
    Another concern the Committee should examine is the rural 
component, or lack thereof, associated with the Cyren Call proposal. 
This plan offers little for those who live in the more sparsely 
populated areas of our country. Since coming on board at CTIA 3 years 
ago, one of the issues about which I hear most frequently from Members 
of Congress is the need for more wireless services in rural America. 
The DTV Act, as enacted, promises to remedy this problem by enabling 
CTIA member companies to bring wireless broadband service in America's 
rural communities more quickly.
          * * * * *
    This Committee and Congress should be justifiably proud its 
accomplishment of in enacting the DTV Act, which allocates 24 MHz of 
spectrum for public safety; provides an estimated $7 billion for 
deficit reduction; and sets aside $1 billion for interoperability 
grants. The quicker these grants are dispersed, the quicker public 
safety can address their interoperability needs. Unfortunately, Cyren 
Call's proposal puts all the aforementioned at risk.
    Now, just 12 months before the DTV conversion is to be completed, 
is not the time for Congress to be changing the rules of the game, 
particularly since Mr. O'Brien had ample opportunity before the DTV 
bill was enacted to come forward with his proposal.
    What is needed by this Committee and Congress is a continued 
commitment to see this through. Mr. O'Brien offers you the false choice 
that one must be for his plan to be for public safety. I am here to 
tell you that is not the case, and to pledge that the wireless industry 
stands ready to work with public safety to construct efficient, 
interoperable networks for the health and welfare of our citizens.
    Thank you and I look forward to your questions.

    The Chairman. I thank you very much, Mr. Largent.
    May I now call on Chairman Billstrom?

   STATEMENT OF DAVID BILLSTROM, CHAIRMAN AND CEO, NATIONAL 
                         INTEROP, INC.

    Mr. Billstrom. Chairman Inouye, Vice Chairman Stevens, 
members of the Committee, I'm deeply honored to be here today 
speaking on interoperable communications from the front lines.
    My name is David Billstrom. I am a public safety 
communications executive with a 25-year history in the computer 
industry, radio communications, and venture capital, but I'm 
also a first responder. I've been a first responder for over 25 
years, first as an EMT, then in sheriff search and rescue, and 
now as one of the 27,000 volunteer firefighters in the Pacific 
Northwest. So, I'm in the unusual position of being part of the 
interoperability problem and, I hope, part of the solution.
    I'm going to try to talk about three things today: why 
interoperability is so expensive, what's wrong with the plans 
underway in almost every State, and why Google provides the key 
to effective public safety communications.
    First, why is it expensive? If we continue on the current 
path to interoperability solutions, I can guarantee that in 5 
years, if you invite me back, we'll be back talking about this 
problem. The political, policy, and media coverage of 
interoperability is dominated by the equipment issue. And as 
anyone who knows me can tell you, I love equipment. But as a 
volunteer firefighter, I have a responsibility to tell you that 
it's not about the equipment. The secret is that standard 
operating procedures, training, and other people issues are 
just as important. The FCC report on Katrina came to the same 
conclusion.
    But the emphasis on equipment is understandable. It's 
tangible. You can touch it. It's concrete. And, in fact, we've 
asked our radio equipment vendors to--for their help solving 
our problem, and those radio vendors have done their best to 
give us a good answer--in their own understandable business 
interests.
    In the last several years, at the direction of Congress, 
many States have reviewed their needs. They've generally 
proposed completely new statewide systems. Those systems will 
be state-of-the-art, best-of-breed, and very effective. They'll 
also be the most expensive radio systems ever devised. In one 
State, the construction costs worked out to $65,000 per user, 
and then the cost of the radios, $3,500. Why does it matter to 
the Committee? With every State I've met with, they plan to ask 
Congress to pay for most, if not all, of these statewide 
systems. How much are we talking about? In Washington State, 
$600 million; Oregon, $561 million for phase 1; Florida's 
system was $900 million; and New York started construction on a 
$2 billion system. A good working number for a statewide 
interoperability system, as designed, is $1 billion each. This 
is a $50-$100 billion problem. And here's the kicker, that 
price does not include radios for the local public safety 
agencies. It's for the State, for the dispatch centers, for the 
towers, and for radios for the State public safety agencies, 
not the locals.
    This committee already knows that 72 percent of all 
firefighters are volunteers, 79 percent of all police officers 
work for local police departments, and virtually all EMTs are 
local. Eighty percent of our first responders work for local 
agencies. It goes without saying, they can't all afford to buy 
new radios.
    The approach is upside down. We should be building radio 
systems first to accommodate the nearly 2 million local first 
responders, then the State and Federal responders, not the 
other way around.
    But I have good news. First, imagine if your cell phone 
only worked when you called other people using the same kind of 
cell phone on the same network. So, a Verizon customer couldn't 
talk to a Sprint. Imagine if you couldn't access Google through 
Dell computers, only HP. It would be ridiculous in a commercial 
world, but that's exactly what we deal with in the public 
safety world. For example, that $3,500 police radio in Seattle, 
Washington; if you take it to Portland, Oregon, it won't work.
    Wireless carriers and Internet providers have already 
solved this fundamental problem of interoperability, because 
they had to. The same core idea of the Internet backbone and 
the desire to communicate--indeed, the same technology--is 
going to solve our problem. The U.S. military is already using 
a technology called IP Radio to connect together very different 
radios all over the world for over 4 years. Philosophically, 
they have solved our problem. And, like Google and Yahoo!, the 
technology is absolutely independent of the hardware. There are 
several companies offering IP Radio. The market's led by two 
companies: a small company, Twisted Pair Solutions, and a 
slightly larger company, Cisco.
    And it's not just the U.S. military leading the way. A 
pilot project of IP Radio known as OPSCAN, in Washington State, 
is a DHS-funded public safety system. It uses an IP Radio 
technology to connect together 41 different local, State, and 
Federal agencies, three Indian tribes, and first responders 
from Canada. The scope of this system is comparable to a small 
State, but at a fraction of the cost.
    IP isn't magic, and it can't do everything, but it will win 
the marketplace of ideas, because it's open, standards-based, 
and affordable. It's not closed, proprietary, or massively 
expensive.
    We also have an opportunity. In Washington State, we will 
soon face the daunting task of being prepared for the 2010 
Olympics just over the Pacific Northwest border with Canada. 
Senator Cantwell has been on the front lines of helping us be 
prepared for this event, and everyone, from the Washington 
State Patrol to my own fire chief in San Juan County, is 
grateful.
    We need to be prepared, and we need interoperability. First 
responders in the region will be ready to roll for emergencies, 
except that their radios do not work with the new radios 
already being carried by the Federal responders. And if a 
typical radio system is built, they won't be able to use that 
either.
    Respectfully, I'd like to offer three suggestions for the 
Committee.
    First, mandate the use of IP Radio technology when funding 
interoperable communications such as the $1 billion. We must 
support the hard work of the States, but we can't ask every 
first responder in the country to buy a new radio. Let's build 
statewide systems that accommodate their existing radios.
    Second, when funding the expansion of a radio system, 
require those systems to accommodate IP Radio technology. 
You'll soon discover two or three proprietary vendors won't 
like that very much, but 2 million first responders will.
    Third, consider taking advantage of the opportunity 
presented by the 2010 Olympics and build an IP Radio system 
that serves the needs of the local first responders first, 
instead of last.
    I also want to applaud Chairman Martin, of the FCC, for his 
comments last week to this committee in which he called for, as 
I have here, IP Radio technology as an immediate 
interoperability solution. He stated that if funds were 
available now, the entire country could be covered within 4 
years. And I agree.
    Thank you.
    [The prepared statement of Mr. Billstrom follows:]

       Prepared Statement of David Billstrom, Chairman and CEO, 
                         National Interop, Inc.
    Mr. Chairman, Mr. Vice Chairman, and members of the Committee. 
Thank you very much for the opportunity to speak today.
    My name is David Billstrom, and I am a public safety communications 
consultant with a long background in radio communications, the computer 
industry and in venture capital. I've also been a first responder for 
over 25 years. First as an EMT, then sheriff's search and rescue for 
many years, and one of 27,000 volunteer firefighters in the Pacific 
Northwest.
    I want to give you just a few high-level observations on public 
safety communications--from my somewhat unusual position of being both 
part of the problem, and I hope, part of the solution.
    I'm going to talk about three things: why interoperability is 
expensive, what's wrong with the plans underway in almost every state 
in this country, and why Google provides the key to effective public 
safety communications.
Why Is Interoperability Expensive?
    If we continue on the current path to interoperability solutions, I 
can guarantee you that 5 years from today, if you invite me back, we 
will still be talking about the problems with interoperability.
    That is because both historically and currently, questions of 
interoperability assume that we have an equipment problem that calls 
for completely new radio systems and new radios. I believe this is 
because we're relying upon the same equipment suppliers that we have 
used for years.
    And these equipment suppliers have a vested interest in ``solving 
the problem'' with more radio equipment.
    The focus on new equipment is understandable. Equipment is 
tangible, it's concrete, you can touch it. And of course we always need 
better equipment, and more of it.
    But an equipment-centric approach is very, very expensive. Which 
means it will take years.
Statewide Interoperability Systems
    The good news is that in the last several years, hard-working 
committees called ``SIECs'', or State Interoperability Executive 
Committees--in more than half of all the states have analyzed the needs 
of public safety and proposed new statewide systems that provide 
interoperability.
    These new statewide systems will be state-of-the-art, best-of-
breed, and very effective.
    The problem is, they are also the most expensive radio systems ever 
devised when calculated on a per-user basis.
    In one state, the cost was approximately $65,000 per radio user to 
build the proprietary system. Additionally, it will cost more every 
year to operate it. With 14,000 users in this system, it is quite 
lucrative for equipment suppliers.
    Why does this matter to this Committee? Because most of the states 
I have met with plan to ask you, the Federal Government, to pay for 
most if not all of their new system.
    How much are we talking about?
    In Washington State, we have an initial estimate of $600 million. 
Our Governor in Oregon has just proposed $561 million for the first 
phase of the system there, which is likely to run past $1 billion when 
complete.
    Florida already has a $900 million system and New York has started 
on their $2 billion system.
    The math is fairly easy--if we continue in this direction there is 
a $50 to $100 billion funding requirement for interoperability for 
state agencies.
    But the news gets worse.
    The problem is, these statewide systems are designed for, and 
provided to, state agencies--not local public safety agencies.
    And, as you may know, 72 percent of the one million-plus 
firefighters in the United States are volunteers. About 79 percent of 
all 800,000 law enforcement officers in the Nation work for local 
police departments. Nearly all EMTs are with local agencies. In fact, 
only 20 percent of the Nation's first responders work for state or 
Federal agencies. All of the others are with local agencies.
    And in general, local public safety agencies do not have the funds 
for new radios compatible with these new statewide proprietary systems. 
I know my fire department does not.
    So what we have are new statewide radio systems that most of our 
firefighters, EMTs, and police officers will not be able to afford to 
use.
    The approach is upside down. We should be building public safety 
communication systems that first accommodate the 1.8 million local 
first responders, and then the 200,000 state and Federal first 
responders, rather than the other way around.
Open and Closed Systems
    You may be wondering how we can accomplish this. This is where 
Google comes in . . .
    It is a simple issue--open versus closed systems. Imagine if you 
could only access Google if you were on a Dell laptop, because IBM 
laptops didn't work with Google.
    That might sound absurd, but that's exactly the current state of 
first responders in the Pacific Northwest--a police radio from Seattle, 
Washington does not work on the Portland, Oregon system--that is the 
world that proprietary systems create.
    The more proprietary--the less interoperable.
    Google and Yahoo! and all Internet businesses thrive because the 
services they provide run on every type of computer made, world-wide.
    The same idea--indeed, the same technology--is going to solve the 
problem of public safety communications.
    I can make this prediction because I can simply look at how the 
U.S. military has addressed this very same issue.
    Starting more than 4 years ago the military has been deploying a 
technology called IP Radio to allow field radios, fixed telephones, 
encrypted command radios, laptops, and satellite radios to all 
interconnect. From the battlefield across the seas to the command 
centers right here.
    And, this is a technology, not a single product from a single 
equipment vendor.
    Like Google and Yahoo!, this technology is absolutely independent 
of the hardware used.
    ``IP Radio'' means sending and receiving radio traffic on Internet 
hardware. It works by connecting together existing radio systems. Users 
on one system can talk to users on another system.
    I will even go this far: if the public safety community operated 
with the command structure of the U.S. military, we wouldn't be having 
this discussion today because firefighters, EMTs and police officers 
throughout the U.S. would already be interoperable using IP Radio.
    Now you can see why it is not radical for me to predict that open, 
standards-based software will revolutionize public safety 
communications.
    And, this technology can dramatically cut the cost of those $1 
billion statewide radio systems.
    To put it simply, this means our first responders will be able to 
use any radio they can afford--even the radios they already have--and 
be interoperable with all of their state and Federal colleagues.
    I respectfully submit that this Committee can make interoperability 
more effective, immediately, by mandating the use of open standards, 
software-based radio systems.
    And where proprietary, hardware-centric systems are already in 
place, you could mandate full and open connectivity from those 
proprietary systems to the new open standards, software-based radio 
systems.
    Finally, I want to applaud Chairman Martin of the FCC for his 
comments last week to this Committee. He suggested that if sufficient 
funds were made available now for fixed and portable IP Radio networks, 
then interoperability could be functional throughout most of the Nation 
within 4 years. I agree with him whole-heartedly.
    If I could leave you with a central message today, it would be 
this:
    First, let's not assume that the traditional suppliers of radio 
systems with proprietary technology will offer the most desirable 
solutions.
    Second, if we want true interoperability, we need to move to an 
open, device-independent, standards-based, software so that the 
majority of our first responders can be included.
    Third, IP Radio, already embraced elsewhere, will meet several of 
our most critical needs immediately. And save lives. And we may 
actually be able to afford it.
    Thank you. I welcome your questions.

    The Chairman. I thank you very much, Chairman Billstrom.
    And now may I call on Chairman Desch?

   STATEMENT OF MATTHEW J. DESCH, CHAIRMAN AND CEO, IRIDIUM 
                         SATELLITE, LLC

    Mr. Desch. Good morning, Chairman Inouye, Vice Chairman 
Stevens, and members of the Committee.
    My name is Matt Desch, and I am Chairman and CEO of Iridium 
Satellite, LLC. And I want to thank you for this opportunity to 
appear before you to discuss the state of our Nation's 
emergency communication network.
    Nearly a year and a half has passed since the disaster 
wrought by Hurricanes Katrina and Rita, but the images of those 
days in August and September 2005 are not easily forgotten. The 
Committee's efforts since then to ensure that our 
communications infrastructure is fully capable before, during, 
and after disasters is to be applauded.
    The FCC's around-the-clock work during Katrina to ensure 
that communication providers had the resources necessary for 
the recovery effort is also to be applauded. From assisting us 
in obtaining additional spectrum to facilitating Customs entry 
of additional handsets, they worked in an efficient, 
cooperative, and professional manner. We want to thank the 
Commission for these efforts, and we believe that the FCC's 
Homeland Security Bureau will work closely with communication 
providers to develop even more successful emergency 
communications solutions.
    Iridium's network is uniquely suited to the communication 
needs of first responders. Iridium satellite phones, like the 
one I have in front of me, require two things to complete a 
call. One is a charged battery, and two is a little bit of 
instruction, similar to the instruction needed when you 
purchase a new phone or a PDA.
    Unlike other systems, the Iridium system does not require 
cell sites or other infrastructure on the ground. The network 
can be available anyplace, anytime, anywhere, including in the 
air and at sea, far from shore, which is why the U.S. military 
relies on us for its communication needs in Iraq and around the 
globe, and why we were chosen to provide the communication 
network, for example, for the U.S. Tsunami Warning System.
    As part of our global coverage, we are the only mobile 
satellite provider to cover both Hawaii and all of Alaska, with 
significant ground facilities in both States. And, it's 
Iridium's experience with disaster communications that leads us 
to support S. 385, the Interoperable Emergency Communications 
Act.
    The challenge now is to provide our first responders with 
both a redundant and an interoperable emergency communications 
network. S. 385, introduced by you, Mr. Chairman with the 
support of Vice Chairman and Senators Kerry, Smith, and Snowe, 
takes on this challenge.
    The bill addresses two important lessons learned from these 
recent disasters: one, the need to create a strategic 
communications reserve to have communications equipment pre-
positioned and ready to use in an emergency; and, second, the 
need to study the creation of a national emergency back-up 
communications system and the use of satellite communications 
as an element of that system.
    We believe that it's time for the Nation to create 
communication reserves and to develop a national backup 
communications system that includes a significant satellite 
component.
    Recent disasters make the need for S. 385 abundantly clear. 
The lack of communications equipment pre-positioned in the Gulf 
Coast region hampered the relief efforts there and made 
communication problems there worse than they should have been. 
Satellite networks were often the only networks available to 
first responders after Katrina. Iridium and other satellite 
providers stripped their stocks bare to send equipment to the 
Gulf Coast, bringing it in from around the globe. Even so, we 
had to turn down or limit requests for equipment from public 
safety organizations.
    Beyond the lack of readily available equipment, a core 
problem is the lack of an integrated communications plan that 
embraces satellite. As FCC Chairman Martin said less than a 
month after Hurricane Katrina made landfall, ``If we learned 
anything from Hurricane Katrina, it is that we cannot solely 
rely on terrestrial communications.'' When the National Guard, 
the Red Cross, utility workers, search-and-rescue officials, 
and even local phone companies obtained satellite phones, they 
told us they were able to carry out their missions more 
effectively. For example, the Red Cross deployed nine 
specially-designed emergency response vehicles to the Gulf 
Coast, each equipped with ten satellite phones and portable 
VSAT dishes. The First U.S. Army division relied on Iridium 
satellite phones for their basic voice and data communication 
needs while they were deployed in the region. Louisiana's 
firefighters had constant contact with their headquarters 
through their Iridium phones, even when they were standing in 
the knee-deep waters of New Orleans.
    Satellite communications, and, in particular, satellite 
phones, have proven their value in an emergency. No matter the 
damage on the ground from a disaster, including floods, 
earthquakes, tornados, and manmade catastrophes, first 
responders can go about their duties knowing that their 
satellite communications system is available.
    September 11th revealed the need for communications 
interoperability. Hurricane Katrina did not diminish the need 
for interoperability, but it made clear the overriding need for 
redundancy. Now, over a year after the Gulf Coast disaster, the 
challenge of establishing a truly effective system still 
confronts us. If first responders do not have communications 
equipment when they need it and where they need it, any system 
will be ineffective. A strategic communication reserve that 
provides for advance placement of equipment is a necessary 
step.
    The Federal Government can also implement several 
additional steps to strengthen the Nation's emergency 
communications. One, you could expand the grant program created 
last year that gave money to hospitals to purchase satellite 
communications equipment. Two, you should consider the 
development of nonterrestrial emergency communication backup 
systems for Federal buildings. And, three, the Federal 
Government should make additional money available to public 
safety agencies to make sure that they're adequately trained to 
use their communication equipment as an integrated part of 
their response protocol.
    I'd like to thank this committee for your efforts towards 
creating more robust emergency communications. And I think, 
bills like S. 385, will begin to shape the discussion.
    Thank you for your time.
    [The prepared statement of Mr. Desch follows:]

       Prepared Statement of Matthew J. Desch, Chairman and CEO, 
                         Iridium Satellite, LLC
    Good morning Chairman Inouye, Vice Chairman Stevens, and members of 
the Committee. My name is Matt Desch, and I am the Chairman and CEO of 
Iridium Satellite, LLC. Iridium played a vital role in providing 
emergency communications after Hurricane Katrina, and I am very 
grateful to be here today to talk to you about the state of the 
Nation's emergency communications network. Nearly a year and a half has 
passed since the disaster wrought by Hurricanes Katrina and Rita, but 
the images of those days in August and September of 2005 are not easily 
forgotten. I want to applaud the Committee for its continuing efforts 
to ensure that the Nation's communications infrastructure is prepared 
before, during, and after disasters.
    During Katrina, the effect of satellite communications was greatly 
enhanced by the swift actions of the Federal Communications Commission. 
The FCC worked around-the-clock to ensure that providers had the 
resources available to assist in the recovery effort. From assisting us 
in obtaining additional spectrum to facilitating customs entry of 
additional handsets, they worked in an efficient, cooperative, and 
professional manner. I want to thank the Commission for these actions, 
and I believe that the development of the Homeland Security Bureau 
within the Commission is an important step toward ensuring more 
effective emergency communications in the future.
    Iridium's network is uniquely suited to the communications needs of 
first responders and the military. In fact, the Iridium's system 
configuration is particularly effective in an emergency. Our network 
includes more than 66 orbiting satellites, ensuring that every location 
in the U.S. and world, including both Hawaii and all of Alaska, is 
served by an Iridium satellite every minute of every day. Iridium is 
the only communications system that has this universal coverage. We 
also have significant ground facilities in both Hawaii and Alaska.
    We are the primary mobile satellite telephone provider to the U.S. 
military and thousands of Iridium handsets are in use everyday by our 
soldiers, marines, sailors, and airmen in Iraq and around the globe. We 
also serve as the communications backbone for the Nation's tsunami 
warning system in the Pacific Ocean. Iridium delivers essential 
services to users who need communications access to and from remote 
areas where no other form of communication is available, including in 
the air and at sea far from shore.
    Through a satellite phone handset or small data device, a first 
responder is able to access our communications network that is 
positioned hundreds of miles above the planet, where it is always on 
and always ready. Unlike any other network, Iridium's system does not 
have to rely on vulnerable ground infrastructure to connect calls, 
which means that destruction of the terrestrial communications 
infrastructure will not render our system inoperable. Iridium's 
satellite phones require two things to complete a call: (1) a charged 
battery; and (2) instruction similar to the instruction needed when you 
purchase a new phone or PDA. Iridium is also interoperable with other 
communications devices such as land mobile radio through off-the-shelf 
technology. And it is Iridium's experiences with disaster 
communications that leads us to offer our wholehearted support of S. 
385.
    Communications are the essential backbone of any disaster response 
system. If our first responders, public safety personnel, and medical 
professionals cannot talk to one another over a functional, effective, 
and secure network when a disaster strikes, needless lives will be lost 
and needless destruction of property may occur. Unfortunately, the very 
events that can so adversely affect our communities--whether they be 
natural or man-made, hurricanes or floods, or bombs or bullets--also 
often disrupt the basic infrastructure with which we communicate. The 
present emergency communications system for the Nation remains 
vulnerable, even as its limitations were revealed both by the September 
11th attacks and by the 2005 Gulf Coast hurricanes. Major strides have 
been made in the last year and a half, but the challenge for the future 
is to provide our first responders with both a redundant and an 
interoperable emergency communications network that is available when 
they need it, where they need it. By taking steps to ensure that first 
responders have the proper communications equipment ready for a 
disaster, this Committee can also spur business adoption of appropriate 
back-up emergency communications equipment.
    S. 385, the Interoperable Emergency Communications Act introduced 
by you Mr. Chairman with the support of the Vice Chairman and Senators 
Kerry, Smith, and Snowe, is a needed and necessary step toward this 
goal. Iridium is proud to give this bill its support. This bill 
embraces two lessons learned from our Nation's recent disasters that 
will dramatically strengthen the national emergency communications 
system: (1) the need to create strategic communications reserves in 
various locations around the Nation so that communications equipment is 
pre-positioned and ready for use when a disaster strikes; and (2) the 
need to explore the creation of a national emergency communications 
back-up system for the Nation, including an evaluation of the use of a 
non-terrestrial, satellite-based communications component for that 
backup system (which Iridium believes should be a significant component 
of such back-up system). This Committee should act quickly to report S. 
385. Doing so will address two of the most obvious problems with the 
country's emergency communications capabilities.
Satellite's Role in Emergency Communications
    Satellite communications networks were often the only 
communications network available to first responders in the Gulf Coast 
region in the days immediately following the destructive hurricanes of 
2005. Hurricanes Katrina and Rita destroyed most of the terrestrial 
communications systems used throughout the Gulf Coast. Telephone wires 
simply vanished, and wireless towers had to have extensive repairs when 
the storms had passed before they were fully-functional. Even temporary 
communications solutions such as fixed-line phones on vehicular 
platforms, trucked-in cell towers, and hastily-wired emergency shelters 
took days and sometimes weeks to deploy. But there was never enough 
equipment for all affected communities, even when these stop-gap 
measures became available. Iridium and other providers stripped their 
stocks bare to send equipment to the Gulf Coast, bringing it in from 
around the globe. Even so, mobile satellite providers had to turn down 
requests for equipment from public safety organizations, and give other 
public safety organizations, including the House Sergeant-at-Arms 
office, less equipment than they requested. The lack of available 
communications equipment pre-positioned in the Gulf Coast region 
hampered relief efforts and made the communications problems in the 
region worse than they should have been.
    Beyond that, a core problem in the emergency communications in the 
Gulf Coast was the lack of an integrated emergency communications plan 
that embraced satellite communications. As the Chairman of the FCC 
informed this Committee less than a month after Hurricane Katrina made 
landfall, ``[i]f we learned anything from Hurricane Katrina, it is that 
we cannot rely solely on terrestrial communications. When radio towers 
are knocked down, satellite communications are, in some instances, the 
most effective means of communicating.'' In the midst of this 
catastrophe, emergency personnel came to rely on satellite phones and 
other non-terrestrial services for their vital communications needs. 
The reason for that reliance was clear--more and more first responders 
found that satellite provided voice and data access when other networks 
simply could not. In fact Sulfur, Louisiana's firefighters had constant 
contact with their headquarters through their Iridium handsets, even 
while standing in the knee-deep waters of New Orleans.
    What worked in the Gulf Coast immediately after the hurricanes was 
satellite, which became a vital communications link that first 
responders found necessary as they went about saving lives. Satellites 
provided the redundancy, ubiquity, and resiliency that were unavailable 
from land-based networks. The National Guard, the Red Cross, utility 
workers, search and rescue officials, and even local phone companies 
turned to mobile satellite phones and terminals in the minutes, hours, 
and days after the hurricane struck. For example:

  <bullet> The Red Cross deployed 9 specially-designed Emergency 
        Response Vehicles to the Gulf Coast, each equipped with 10 
        satellite phones and portable, tripod mounted VSAT satellite 
        dishes.

  <bullet> The First U.S. Army Division, based on its disaster recovery 
        experience in Florida and other locations in the United States, 
        relied on Iridium satellite phones while deployed to the Gulf 
        Coast for their basic voice and data communications needs, 
        knowing that other terrestrial options would be inoperable.

  <bullet> Air evacuation teams used the Iridium communications system 
        to track helicopters when they were in the air and to transmit 
        data on incoming patients. According to the President and CEO 
        of Air Evac Lifeteam, which deployed to the Gulf Coast in the 
        hours after Katrina hit: ``We knew where our ships were at all 
        times. We were able to send and receive text messages in real-
        time when other modes of communication failed--our crews and 
        our communicators were able to exchange timely information, 
        which enhanced both the safety and the effectiveness of our 
        mission.''

    Today, the private sector is working with Iridium to provide a more 
permanent emergency communications capability for their operations. And 
that capability is reliant upon the redundancy and effectiveness of 
satellite communications. Two current Iridium projects illustrate this 
fact:

  <bullet> Iridium's communications network is being used as the 
        backbone for a new system that provides in-flight, on-demand 
        medical assistance during airborne emergencies. The network 
        provides flight crew with a direct link to physicians who have 
        been specially-trained in remote airborne diagnosis and 
        treatment.

  <bullet> MedStar Health, the primary Washington, D.C. hospital 
        operator, has chosen the Iridium system to serve as its 
        corporate backup emergency communications provider. Iridium 
        phones will be deployed throughout MedStar's medical network to 
        ensure that communications services will be available at all 
        times. According to Dr. Christopher Wuerker of MedStar, ``As a 
        vital community medical services provider, it is critically 
        important that we have redundant layers of backup 
        communications.'' Iridium equipment is also used in MedStar's 
        medical transport helicopters to provide tracking and voice 
        communications systems.

    The move to satellite communications equipment for emergency 
situations makes perfect sense--widespread and catastrophic damage on 
the ground, or the remoteness of a particular location, simply does not 
impact a satellite communications network located in space. No matter 
where disaster occurs, mobile satellite communications equipment can be 
immediately available for critical communications needs. Satellite 
communications systems also offer first responders and public safety 
personnel the interoperability they so desperately need. The satellite 
industry is already offering interoperable communications options to 
first responders.
    Satellite communications, and in particular satellite phones, have 
proven their value in an emergency. Where they are available and used 
as part of an integrated emergency communications plan, they provide 
first responders with an effective and redundant communications 
capability from the moment a disaster strikes. No matter the damage on 
the ground from a disaster, including flooding, earthquakes, tornados, 
and man-made catastrophes, first responders can go about their duties 
with the knowledge that they will have all the information they need 
provided through a satellite communications system. Unfortunately, the 
current lack of readily-available satellite communications equipment 
and the lack of an integrated plan for their deployment and use 
continue to hamper the Nation's emergency communications system.
The Future of Emergency Communications for the Nation
    The realization that the American communications system was not 
ready for a disaster was never more evident than on September 11th, 
when stories surfaced about the lack of interoperable equipment 
available to the heroes who responded to the catastrophe at the World 
Trade Center. Hurricane Katrina reinforced that realization 4 years 
later, revealing not only that the American emergency communications 
system lacked interoperability but that it also lacked redundancy. Now, 
over a year after the Gulf Coast disaster, the challenge of 
establishing a truly effective national emergency communications system 
still confronts us. S. 385 embraces that challenge.
    No matter how successful any particular emergency communications 
system is, if it is not in the hands of first responders or ready in 
times of need, it will never be as effective as it could be. The key 
for the Nation is to, in the immortal words of the Boy Scouts, ``Be 
Prepared.'' Iridium, like other communications companies, stands ready 
to answer the call in an emergency. When Hurricane Katrina struck, 
Iridium personnel worked overtime to get Iridium phones into the hands 
of those first responders who lacked operable communications equipment. 
But these efforts were hampered by the same infrastructure destruction 
that made other communications systems inoperable and the need to 
transport equipment across the Nation to the disaster area.
    The efforts were also hampered by the economic reality that in 
times of emergency, there is never a large enough stock of equipment to 
get it in the hands of everyone that needs it. A strategic 
communications reserve that provides for advanced placement of 
communications equipment is a necessary step in the development of a 
national emergency communications plan. The grants established in S. 
385, which provide for up to $100 million total for strategic placement 
of communications equipment across the Nation, will make available the 
funds necessary to make sure that communications equipment is ready and 
available when needed where needed.
    The basic reality of the present national emergency communications 
system, however, is that it is over-reliant on terrestrial systems, the 
same systems that were proven fallible along the Gulf Coast. This is 
not an issue of equipment availability or even interoperability; it is 
an issue of redundancy and effectiveness. That is why Iridium supports 
the measures outlined in S. 385 to study the development of a national 
emergency communications backup system. We also thank the Chairman and 
the Vice Chairman, and the other co-sponsors of the bill, for including 
satellite communications systems in the study of that backup system. 
For it is satellite communications that offers the best chance of 
creating a ``resilient interoperable communications system for first 
responders.'' It is beyond time for the Nation to consider creating a 
national emergency communications backup system. And Iridium is 
committed to assisting that study in any way possible.
    The Federal Government can also implement additional steps to 
strengthen the state of the Nation's emergency communications system. 
Iridium would like to see the Federal Government expand the grant 
program created last year which gave money to hospitals in the Gulf 
Coast states to purchase satellite communications equipment for use 
during emergencies. This program will bring vitally-needed 
communications equipment to these hospitals, but there is no reason to 
limit the program to the Gulf Coast. Other hospitals need these 
communications links for the times when other communications 
alternatives may not be available. Having this equipment could 
literally be the difference between life and death.
    The Federal Government's own communications networks are also in 
dire need of a backup system. The communications network for Capitol 
Hill and in Federal Government buildings around the Nation is almost 
exclusively reliant on terrestrial communications systems. If a 
disaster on the magnitude of Hurricane Katrina ever struck Washington, 
D.C., the Federal Government could very well be without basic voice and 
data communications in the minutes, hours, and days immediately 
following the disaster because the local terrestrial communications 
infrastructure has been destroyed. Iridium believes that the Committee 
should consider the development of a non-terrestrial emergency 
communications backup system for Federal buildings. Much like the 
MedStar system, an emergency backup based on satellite communications 
would provide the Federal Government with the safety and security of 
knowing that communications would be available in a time of need.
    Finally, training is a vital component of any emergency 
communications system. It is not enough to simply give a first 
responder a satellite phone, or any other communications device, and 
tell them to ``go to your job.'' Modern emergency communications 
systems are so much more than a means of voice communication. For 
instance, the real-time data transmission available over the Iridium 
system can put a host of information at the hands of a first responder, 
particularly if they are deployed to areas they are not already 
familiar with or into situations that are continually in flux. We need 
to make sure that first responders understand the immense capabilities 
of the equipment that they are given and can incorporate and use those 
capabilities when they are in emergency situations. The Federal 
Government should make money available to public safety agencies to 
ensure that they are adequately trained to use their emergency 
communications equipment as an integrated part of their response 
protocol.
Conclusion
    I would like to thank this Committee for its efforts toward 
creating a more robust emergency communications network for the Nation. 
As we have seen time and time again, effective emergency communications 
is essential during a disaster. This Committee has made emergency 
communications a priority, and bills like S. 385 will begin to shape 
the type of emergency communications system that will be available to 
our first responders when even the most devastating natural or man-made 
disaster confronts us. Strategic deployment of communications equipment 
will ensure that equipment is ready the minute disaster strikes. And a 
national emergency communications backup system, particularly one that 
contains a non-terrestrial component, will provide first responders 
with the redundant communications systems they need to do their job 
efficiently and effectively.
    I can assure the Committee that each Iridium employee takes 
seriously the vital role that we play as the piece of the Nation's 
communications infrastructure that never goes down. To that end, we 
continue to add functionality based on the lessons learned from each 
disaster recovery operation and on the recommendations of public safety 
personnel. We also continue to work with the FCC to ensure that we have 
the necessary spectrum to expand and improve our system. Our Nation's 
emergency communications system is getting better, but we have not yet 
embraced all of the lessons learned from America's recent disasters. We 
can all do more to assist our first responders, and Iridium, with its 
satellite phones and communications network, stands poised to aid in 
any way necessary. Thank you again for letting me testify before you 
today, and I will be happy to answer any questions you might have.

    The Chairman. I thank you very much, Mr. Chairman.
    And now I would like to thank the panel and call upon 
Senator Stevens for a round of questions.
    Senator Stevens. Well, thank you very much, Mr. Chairman. 
And I hope the Committee and everyone--will excuse me for going 
back a little bit in history before we consider this problem.
    Howard Baker used to say, ``If you don't toot your own 
horn, no one's going to toot it.'' When I was the solicitor in 
the Interior Department, I found that the oil and gas leases 
that were released were put into a little box, and they allowed 
people to have an opportunity to participate in the drawing 
that took place. And they would draw a name out of a hat, and 
that name got the lease, and they turned around and sold it for 
a couple of million dollars to the oil industry. I was very 
surprised when I got on this subcommittee, this Commerce 
subcommittee here on communications, to find that when spectrum 
became available because of a failure or otherwise, the same 
thing was taking place, lottery. Twenty-five bucks and you had 
your chance to get a piece of spectrum. And at times, that was 
sold for $100 million.
    Joined by my friend, we provided the concept of auctioning 
the spectrum. I remember too well the day that we got the first 
auction, and it was about $18 billion. And I called the FCC 
Chairman and said, ``Don't you have, over there, one of those 
reward systems so that anyone that makes a suggestion that 
increase income to the government--he gets a share?'' And he 
says, ``Yes, we do.'' And I said, ``Where's my check?''
    [Laughter.]
    Senator Stevens. And he said, ``You're not a government 
employee.''
    [Laughter.]
    Senator Stevens. But, in any event, what I'm saying is, 
this spectrum as most of you have said, is public. We passed an 
Act that allocated the income from when this spectrum is sold. 
The first part of it goes to a general reduction of the 
deficit--over half of it. The first responders for 
interoperability got the next billion dollars. But we also 
allocated money to the analog converter box program, to the New 
York City 9-1-1 digital transition problems, the low-power TV 
transitional digital-to-analog conversion, the low-power 
transfer to upgrade program, the national alert and tsunami 
warning program, the 9-1-1 program enhancement, and Essential 
Air Service Program interoperability.
    So, what you've suggested now, as I see it, is that we have 
about, I think, 84 megahertz here. You have 24 already. I'm 
told there are 60 left to auction. You're suggesting that 30 of 
it be turned over to this trust, and that the trust then would 
operate that and make it available to the various initial 
responders. I think the most serious problem in the country 
today is interoperability and assuring that we have total 
interoperability in all forms for the areas that you represent.
    But I have some serious questions about this. You made the 
statement, Mr. O'Brien, ``If this disturbs the $1 billion, it 
disturbs the allocation system, then we shouldn't do it.'' But, 
by definition, it's going to. We predicted we would have at 
least $10 billion in income from this spectrum. I'm told it 
could be much more. But if you take half of it out and then we 
end up with a situation where half the spectrum is not subject 
to being controlled in the public interest in the future by 
this program we've already allocated, we're going to have to 
change the existing law. We will have to take money away from 
system interoperability, the analog converter box, all those 
other things, and those programs are planned on taking part of 
this money, too.
    I don't understand, in view of the fact you have 24 
megahertz already allocated to public safety, why we should 
turn another 30 megahertz over to a trust. That can be used for 
public safety to lease it to the public sector. This is 
creating a new FCC, isn't it, Mr. O'Brien?
    Mr. O'Brien. Senator, let me answer your question, please.
    First of all, we propose that the Public Safety Broadband 
Trust be created by legislation--it will require legislation--
and that that legislation authorize----
    Senator Stevens. I know--I've only got 5 minutes. Now, tell 
me, won't it have the impact I said?
    Mr. O'Brien. No, sir, it won't.
    Senator Stevens. Why?
    Mr. O'Brien. Because we're proposing that the Public Safety 
Broadband Trust pay $5 billion for that spectrum----
    Senator Stevens. But you're----
    Mr. O'Brien.--so that there won't----
    Senator Stevens.--assuming that that's----
    Mr. O'Brien.--be a shortfall.
    Senator Stevens. What if it would auction for a lot more?
    Mr. O'Brien. The point is----
    Senator Stevens. No, no, we have a series of proposals 
already in law, where the money goes. I believe we propose 
we'll get something like, a minimum, $10 billion--most people 
think it'll be $15 billion, according to CBO. If we give half 
of it to you, the most we could possibly get would be $5 to 
$7.5 billion. The first billion goes to you, anyway. We have to 
cut out at least half of the people already expecting, under 
the law, a portion of that income, right?
    Mr. O'Brien. My understanding of the CBO number is that 
it's slightly higher than $10 billion, and that's why we're 
proposing meeting $5 billion by raising money in the----
    Senator Stevens. Well, but----
    Mr. O'Brien.--private capital markets, so that none of 
those programs would be affected.
    Senator Stevens. CBO's projection of the first auction was 
$7.5--$750 million; $18 billion came in. Now, you're saying 
that we're going to locked in by the CBO estimate? But if you 
cut the spectrum in half, I believe the total will be less, 
because you're going to be leasing your spectrum in competition 
with the people that want to bid. I really believe you--I can't 
take any more time. I guess I'll get back another time, Mr. 
Chairman. But I do think, you know, the idea is great. We have 
to find a way to deal with interoperability. But we also have 
to think first of preserving the right of the public to have 
the full control over this spectrum in the future. Yours would 
take half of the spectrum and turn it over to a trust, which we 
would never get back into the FCC.
    Mr. O'Brien. Well, but, Senator, if the spectrum is 
auctioned, it's gone forever.
    Senator Stevens. No, it isn't.
    Mr. O'Brien. The spectrum is----
    Senator Stevens. It's only gone until someone gives up or 
fails or anything. All of this stuff came back because of a 
change in policy. What if there's a change in technology? I'm 
told there is a change in technology coming. And the broadband 
people can tell you more about that.
    Mr. O'Brien. Well, but I believe--I'm--it's always been my 
understanding that the spectrum that's auctioned is pretty much 
gone to the licensee, unless the licensee misbehaves.
    Senator Stevens. I'll close----
    Mr. O'Brien. And----
    Senator Stevens. When I was a kid, I invented one of those 
radios that you have to dial. We'd go 5 degrees this way and 5 
degrees that way in order to find the point where we could 
catch the radio. Okay?
    Mr. O'Brien. Yes.
    Senator Stevens. It took 10 degrees to pick up on a crystal 
set. Now, you take 1 degree of spectrum and it's divided into 
10 already, maybe 100 with some new technology. I believe 
spectrum is going to continue to increase in value if we use it 
properly and keep the control at the FCC.
    Mr. O'Brien. Well, but so do I. With all due respect, I 
think that the proposal to put the spectrum in a Public Safety 
Broadband Trust, which is controlled long term by 
representatives of State and local and Federal; is a much 
better return to the public.
    Senator Stevens. I've got to disagree with you. Spectrum is 
subject to license. It is public property. We have never given 
it away. We've never sold it completely. We've provided the 
right to use it if the licensee has a license. But he does not 
have ownership of this property. You would get ownership of 
this property under this proposal.
    Mr. O'Brien. No, Senator, we're proposing that the rights--
the licensee rights, the Public Safety Broadband Trust, would 
be identical to the licensee rights of any other licensee, 
and----
    Senator Stevens. That's not what your statement says. You 
say you continue to lease it when you're not using it. Today, 
if you're not using part of your spectrum, FCC can come in and 
have an opportunity to bring about sharing of that. That could 
not happen under your proposal.
    Mr. O'Brien. There is no aspect of our proposal which would 
change the relationship between the FCC and the licensee, sir.
    Senator Stevens. I've taken too much time. I'll come back.
    The Chairman. Thank you very much.
    Senator Klobuchar?
    Senator Klobuchar. Thank you, Mr. Chairman. And thank you, 
Mr. McEwen, for your kind comments about our retired sheriff 
and the good work he has done on interoperability.
    I just wanted to follow up a little on what Senator Stevens 
was asking about, in a more narrow question, and then a bigger 
one. I know that the proposal that's being discussed--the 
spectrum, Senator McCain's proposal, would have mixed public 
safety and commercial use. And I just wanted people to talk a 
little bit about that idea, if you see problems with it, what 
are the strengths and weaknesses of mixing the use with the 
spectrum?
    Mr. McEwen. Well, first of all, let me just say that the 
concept here that we are supporting, the public safety 
community is supporting, is that this spectrum would be 
allocated to the public safety community under this proposal as 
a trust. That means that it's in the same category, Senator as 
any other kinds of allocations. I mean, it's never--it never 
belongs to anybody, it's always the public's--it has control 
over it. But the fact is that, in this particular case, the 
concept is that this spectrum would be managed by public 
safety. We would have a controlling interest in the board of 
directors of the trust. And the commercial interests would then 
build and manage this under our direction and control.
    The idea here is that the commercial spectrum--the spectrum 
would be actually used primarily--a lot of the spectrum would 
be used by the commercial interests, with public safety always 
having access to it and priority whenever they needed it. 
That's the concept with getting private investors to build this 
network. We have no money, we have no--if we depend upon you to 
fund this, it'll never happen, because you don't have the 
unlimited resources that we would need to build this. You know, 
we've talked about how many billions of dollars it might cost--
--
    Senator Klobuchar. But wouldn't a piece of this also 
involve a loan?
    Mr. McEwen. Pardon?
    Senator Klobuchar. Wouldn't a piece of this also involve a 
loan from the Government? No?
    Mr. McEwen. Yes, but----
    Senator Klobuchar. You were----
    Mr. McEwen.--the point is that the spectrum is worth some 
money, as the Senator--Senator Stevens has just referred to. 
What it's worth, I'm not quite sure. But--$5 billion, 
whatever--but the fact is, that value of that spectrum doesn't 
go away. If something happens that, in some way, this fails, 
that spectrum still belongs to the public. We--I mean, you 
don't give that spectrum away.
    Mr. O'Brien. May I----
    Senator Klobuchar. Jump right in, then Mr. O'Brien.
    Mr. O'Brien. All right, certainly. May I clarify just a 
couple of things?
    The first one is the beauty of where technology is taking 
us in next-generation wireless technology. The so-called fourth 
generation, which is IP-based, allows on a software basis 
different quality of service, so you can share capacity between 
public safety and commercial, while always preserving the 
primary interest of public safety. And so, it breaks through 
the classic problem that, when spectrum is reserved for public 
safety, there's some amount of lack of utilization of it, while 
public safety is, sort of, waiting for the next big event. This 
solves that problem by saying the capacity that's generated on 
the system is always available first to public safety, but then 
to commercial, so that you get the maximum utilization of it, 
using the technology.
    The second point is that we are proposing not loans, but 
loan guarantees, to the Public Safety Broadband Trust. By using 
the leverage that's created when it gets this license, it can 
go into the capital markets and actually raise the money. So, 
the $5 billion is not a loan. It's raised in the capital 
markets, but to lower the cost of borrowing it, we're asking, 
or proposing, that there be loan guarantees to the Public 
Safety Broadband Trust. And that's just to acquire the 
spectrum. The build-out would not be loans. The build-out would 
be investment--private capital investing in a next-generation 
wireless network.
    Senator Klobuchar. Thank you.
    Mr. Largent. Senator, I'd just like to say that--first of 
all, that some people have viewed our testimony here today as 
being adversarial with public safety. And I just want to say, 
first and foremost, it is not adversarial. We don't have that 
kind of relationship with public safety, because we believe in 
what they do. We were up here on the Hill for the last several 
years to ensure that the DTV transition bill actually was 
passed into law, so that public safety got the billion dollars 
that Congress already enacted, that we get this spectrum to use 
for public safety. They're getting 24 megahertz in the current 
language of the bill, and that doubles what they have today. 
And it's contiguous spectrum that they can do a lot of things 
with. And so, I would just say that, up front, there's not the 
conflict that many have perceived between CTIA and our 
membership and public safety. But what we're trying to do is 
ensure that what Congress has set out to do--and I would 
mention that what they have done is deliver 24 megahertz of 
spectrum to public safety, which is a significant piece of 
spectrum, and they have applied a billion dollars to start this 
process for public safety. And those were two----
    Senator Klobuchar. But how much do you think it would cost 
to make--I mean, there are--some estimates are $15 billion. The 
President's going backward in his budget on this. I mean, how 
much do you think this would really cost?
    Mr. Largent. That's--I have no idea. And the billion 
dollars, I'm saying, is just a downpayment to get them started. 
And they're going to need more money in the future. And we 
admit that. But these are two really key suggestions that were 
made by the 9/11 Commission--24 megahertz is what public safety 
needed, and a billion dollars to get them started--those were 
the exact increments that the 9/11 Commission made for public 
safety. And this Congress has delivered that for public safety.
    Now, they're talking about delivering broadband and all 
these other types of things. And I think there's additional 
spectrum that could be available for public safety in the 
future. But it's wrong to--I think it's wrong to take something 
off the table that took 10--over 10 years to get passed through 
Congress, the DTV transition bill, take it off the table and 
try to rejigger it now right before the auction is to be held 
later this year. That's going to create some significant 
problems.
    Mr. O'Brien. Senator, let me just take 1 minute and try to 
explain why I think this is such a compelling necessity for 
Congress to consider there now.
    The proposal we've laid out, for the first time, creates a 
self-sustaining business model for public safety communications 
now and into the future. Yes, it requires spectrum. It requires 
spectrum, which has a tremendous value. Nobody would disagree 
with the tremendous value of the spectrum. But we find 
compelling the observation that today, in doing their jobs, men 
and women in the first-responder services have devices which 
their lives sometimes depend on and which all of us sitting 
here know are inferior. Our proposal is not to create 
interoperability, except as a byproduct. Our proposal is to 
bring public safety first responders to the forefront of 
wireless communications. It cannot be done without spectrum. It 
cannot be done without significant money--billions of dollars. 
We can walk through with you the model. We can show you dollars 
and cents, and what it will take to cover 99.3 percent of the 
U.S. population. It is somewhere in the neighborhood of $20 
billion. The capital markets, the private capital markets, we 
are confident, will support that type of a build-out on a 
shared-spectrum basis. This is a unique opportunity. There is 
obviously a misunderstanding between myself and Senator Stevens 
on how we propose this spectrum go to the Public Safety 
Broadband Trust. I hope I will be able to clarify that 
misunderstanding. But I can't not take the opportunity to say: 
focus on the money. Where is the money coming from to bring 
these devices to the men and women who are risking their lives? 
It will not come, it is not coming, it hasn't come, from any 
level of government, and it's not going to come from there. And 
it hasn't come from the commercial wireless sector, which has 
had 25 years to address it. They have not addressed it. It is 
not their function to address it. It is their function to make 
money for the shareholders of their companies, which is a fine 
thing, but very different from what we're discussing.
    Thank you so much.
    Senator Klobuchar. Thank you.
    The Chairman. Thank you so much.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. And thank you, 
panelists.
    It seems to me that we're talking about the same things 
here, but we're talking about two different approaches. One is 
this top-down spectrum issue, and, in the meantime, you're over 
there bootstrapping a model that is, getting this done today. I 
am curious about how far you think that we can go with RoIP to 
successfully build the interoperability. You seem to be saying, 
``Don't get so hung up on the hardware. Focus on the software 
interoperability solution.'' So, if IP packets are delivered up 
to satellites and down to microwave dishes and then down to 
handheld communication devices, and there is an IP wrapper 
there, and it can be secure, isn't what you're discussing right 
now, that's taking place in various parts of the State, the 
interoperability that we need, regardless of spectrum, 
regardless of devices?
    Mr. Billstrom. That's right, Senator. The concept of IP 
Radio is really orthogonal to the issues of spectrum. And, as 
you just described, there are the issues of how communications 
occurs at the very lowest level, at the hardware level.
    If I was making a criticism, it was over the traditional 
trunking radio technology, that is proprietary and closed, that 
the P25 program has attempted to address. But, unfortunately, 
P25 is not standard across the United States yet, and those 
proprietary systems are still in place.
    IP Radio offers----
    Senator Cantwell. Is that part of Homeland Security? Is 
that what you're saying?
    Mr. Billstrom. Yes.
    Senator Cantwell. And so, Homeland Security is still 
favoring hardware technology that is--doesn't have the 
interoperability IP capabilities----
    Mr. Billstrom. They----
    Senator Cantwell.--that might be so universal.
    Mr. Billstrom. That's correct. And, in their defense, 
they've not been presented with an opportunity that's 
different. So, there really is no other alternative for them 
today.
    Senator Cantwell. So, where would you----
    Mr. Billstrom. If a public safety agency wants to buy a new 
radio, and if they need to support more users or more 
capability, their choices are fairly limited.
    Senator Cantwell. So, where would you go from here, then, 
on taking RoIP interoperability to the next level?
    Mr. Billstrom. I would----
    Senator Cantwell. What are the barriers in breaking that 
down? And what do you think, specifically, of Mr. O'Brien's 
idea?
    Mr. Billstrom. I think the idea of a new carrier is a very 
exciting one, and I'm not qualified to comment on it. I see 
pros and cons to both. I also see IP Radio as something we can 
do immediately as an interim step, at least, if not a method of 
integration for all of the different radio technologies. I can, 
in fact, imagine a world where we have old trunking radio 
systems still being used by a city, new technology of the type 
that Cyren Call is discussing, and military radios, all of 
which need to interoperate. And the only way to connect all 
three of those technologies right now is IP Radio, and the 
military is already doing it.
    Senator Cantwell. Could you just explain the cost 
differential, from the bootstrap model up, versus----
    Mr. Billstrom. Sure, I've heard an estimate as low as $300 
million to provide interoperability across the entire United 
States within the next 4 years.
    Senator Cantwell. And----
    Mr. Billstrom. That's obviously less than the cost of a 
single State as they've already been done.
    Senator Cantwell. I think you said a billion dollars per 
State was what you were saying----
    Mr. Billstrom. Roughly a billion is a good number.
    Senator Cantwell. So, I'd be curious about the barriers 
that you think that we need to break down so that we can 
continue those bootstrap models of existing technology and 
using RoIP, because it seems to me that if it's worked in so 
many other things, and it's working for the military now, that 
it holds great promise. And I should say, to be specific, I 
think what you're trying to say is more that open-architecture 
software has the----
    Mr. Billstrom. Absolutely.
    Senator Cantwell. Is that correct?
    Mr. Billstrom. Absolutely. Open architecture has changed 
the world of computing and has touched everyone in this room, 
but it hasn't, in public safety.
    Senator Cantwell. Well, thank you. Before I go on to Mr. 
O'Brien could you just comment on where we are with the 
Canadians on this 800 megahertz issue and what we need to do? 
Do we need to get the State Department to move faster on this--
working with the Canadian Government on resolving this issue 
for the 2010 Olympics?
    Mr. Billstrom. Yes. Not everyone in this room may be aware 
of it, but in the radio industry, when we try to license a new 
channel, just a single new channel for one radio anywhere along 
the Canadian border, the time that it takes to get that license 
through the FCC and then through Canada and enable a public 
safety agency to go on the air is measured in years. It's 
measured in years. In fact, applications made this week would 
probably not be finished until after the Olympics were over.
    Senator Cantwell. Thank you. So, we have to, obviously, 
work with the State Department.
    Mr. O'Brien, did you want to add comment there?
    Mr. O'Brien. I'd like to just clarify one thing. Senator 
Software used to improve the interoperability of existing 
systems is a fantastic idea and the best possible use of the 
money. It's something Congress should be spending a lot of time 
and attention on, and they have. But a software solution to tie 
together existing systems doesn't correct the failings of the 
system. They can't boost the performance of the basic device. 
So, if somebody has a 1980s-technology two-way radio in their 
hand when they go into an emergency, all the software 
interoperability solutions in the world can only achieve tying 
them back in. It can't improve the functionality. Our focus is 
on improving the functionality and bringing data and video-type 
services to improve situational awareness as people head into 
dangerous situations which is a very different thing. And, of 
course, yes, it's more expensive.
    Senator Cantwell. I mean, yes, Mr. O'Brien, I haven't 
reached a conclusion about your proposal. But I am saying this, 
that if the SAFECOM program in the Department of Homeland 
Security is favoring hardware technology that isn't going to 
help us on interoperability, that's a much cheaper problem to 
solve and allows us to bootstrap the existing service. I can 
guarantee you, when you have to think about the Olympic 
Peninsula or Alaska or Hawaii, and they have to think about 
tsunamis and things that are happening on a day-to-day basis, 
or could happen, or Mount St. Helens, or Mt. Ranier, you really 
want to do all that you can, now, immediately, on this issue, 
until----
    Senator Stevens. Would the Senator yield just for a second?
    Senator Cantwell. Yes.
    Senator Stevens. The problem is, when they get the local 
governments, the State governments, they award it to the lowest 
bidder. The reason the military has one is, there's 
federalization. Unless you federalize it, the lowest bidder is 
still going to buy it, whether----
    Senator Cantwell. Well, I'm happy to work with the Senator 
from Alaska on this issue, and figure out how we can make sure 
that the hardware purchases, going forward--and, again, the--
probably one of the lower-cost elements of the system can be 
upgraded to IP solutions. So, I thank the Chairman.
    The Chairman. Thank you very much.
    Senator Sununu?

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman.
    It's a very interesting hearing. And I think we can all 
stipulate that we're all for public safety and we're all for 
interoperability and we're all for our local first responders. 
But somehow, like anyone else, I feel a need to make that 
absolutely clear for the record.
    [Laughter.]
    Senator Sununu. Let me begin just by picking up on one of 
the points made by Senator Stevens, and that is, one of the 
overriding concerns of any proposal like this is its timing and 
the potential delay that it can have on choices and decisions 
and legislation that has been implemented or passed after being 
negotiated over a 10-year period. The potential costs of 
changes to that path are very significant. They can be 
financial. Senator Stevens talked about the change in the 
distribution methodology for these resources if we're not going 
to have an auction, if we're not going to have the same 
anticipated collection of revenues. It will have real 
implications on funding streams for equipment and upgrades and 
first-responder technology.
    Second is the impact to the market. The competitive 
implications of making a decision not to put spectrum in the 
hands of the private sector. And that also has public safety 
implications, real public safety implications, because that 
private-sector-controlled/used spectrum is used by both 
consumers and existing public safety responders. It's 
commercial spectrum--but they use it for public safety 
purposes. And anyone who's ever called 911 can attest to that. 
I mean, that is part of our public safety infrastructure, but 
that 911 call, most of the time, is being initiated on a 
commercial spectrum being carried by a private sector operator. 
And a delay in putting more spectrum into the hands of the 
commercial operators does ultimately have an impact on the 
quality of those networks that have some public safety 
function.
    Next, we have an existing 24 megahertz of spectrum that we 
are committed to putting in the hands of public safety. That's 
good, and that's important, and I have supported legislation to 
put that into the hands of public safety even faster. And 
there's a little bit of tension between public safety advocates 
and the broadcasters about getting that spectrum into the hands 
of public safety faster. But I think it's a tough choice, but 
one we should make and one we should continue to push for. But 
the question is, How can we make sure that 24 megahertz of 
spectrum is used as effectively as possible? And I think that's 
an area where we need to focus much more attention before just 
making a decision to throw even more spectrum at the public 
safety arena. We want to make sure we're using it effectively. 
I think the FCC has done the right thing in putting out a 
notice of proposed rulemaking, to say, ``Look, are there ways 
that we can use this 24 megahertz we've allocated more 
effectively and more efficiently?''
    And I want to begin on that point, because I think it was 
Mr. McEwen who, in his testimony, talked about the proposed 
rulemaking at the FCC. In your testimony, you argued that using 
the 24 megahertz that have been allocated for public safety 
would take away, from local licensing control, the spectrum 
long promised for use by local agencies. But it's certainly my 
sense, from watching this debate, that local licensing efforts 
has really led to a pretty inefficient use of some of the 
spectrum that's out there. So, why shouldn't we expect more 
efficiency from those public safety operators, rather than just 
casting more spectrum into their domain? That's a question for 
you, Mr. McEwen.
    Mr. McEwen. Yes, OK. Well, thank you, Senator.
    First of all, I want to thank you and the members of the 
Committee that have supported giving us the 24--or making 
available to us the 24 megahertz of spectrum. Let me give you a 
quick history.
    First of all, you--you, the Senate, and the Congress--
directed the FCC, more than 10 years ago, to give us that 
spectrum. OK? So, when you say you're concerned about that we 
use it efficiently, let me tell you, we've had 10 years to 
figure out how we're going to use it, and we don't have it yet. 
OK? And, like you said, you have supported giving that to us as 
soon as possible. Right now, the law says 2009. That's the 
earliest. So, we've had lots of time----
    Senator Sununu. But my----
    Mr. McEwen.--to figure out how to----
    Senator Sununu.--point isn't the efficiency of spectrum you 
haven't received. I'm talking about the efficiency of spectrum 
that's already in the hands of public safety.
    Mr. McEwen. You're talking about the other spectrum----
    Senator Sununu. Sure----
    Mr. McEwen.--other than the 24.
    Senator Sununu.--spectrum that's being used now. And I 
think it's fair to say that it is not necessarily being used as 
effective and as efficiently as possible. What's the spectrum 
that's in public safety hands now, 40 megahertz, give or take?
    Mr. McEwen. No, it's 23, other than----
    Senator Sununu. So----
    Mr. McEwen.--the 24.
    Senator Sununu. Well, no----
    Mr. McEwen. But the point is--the point is, I would 
respectfully disagree with you. There are lots of people who 
haven't had experience in public safety communications that 
would say that we don't use that----
    Senator Sununu. It's 25 megahertz.
    Mr. McEwen.--spectrum----
    Senator Sununu. Twenty-five megahertz.
    Mr. McEwen. Right. You know, there are lots of people that 
would say we don't use that efficiently. The problem is that 
generally there are academicians and people who have a reason 
not to think that we ought to have more spectrum. I mean, I 
would be glad to have discussions with you or anybody else, and 
I believe that if you were to think about it carefully, from 
what we would tell you, you would find that isn't necessarily 
true.
    Senator Sununu. And my point isn't an argument for not 
making more spectrum available. As I have pointed out----
    Mr. McEwen. Right.
    Senator Sununu.--I have voted much more aggressively than 
many other members of the U.S. Senate to make that available to 
you sooner.
    Mr. McEwen. Yes, you have.
    Senator Sununu. The real question, though, is, What can we 
do to ensure an improvement in the efficiency, both of the 
spectrum, the 25 megahertz public safety currently has access 
to, and the 24 that's going to be allocated?
    Mr. McEwen. Let me----
    Senator Sununu. And my point is, those are questions that 
are probably more important to address, soon and effectively, 
than deciding whether to make another 30 megahertz available.
    My time is limited, so--I apologize. I know a couple of you 
wanted to comment on that, but I'd like to move to another area 
that I think is very important.
    Senator Cantwell spoke very effectively about the 
importance of looking at existing technology, IP technology, in 
particular. Mr. Billstrom, I enjoyed your testimony. And 
Senator Cantwell and I have worked to try to make sure that, of 
the billion dollars that's being allocated as a part of this--
funds that will come from the auction of spectrum can be used, 
but doesn't have to be used for implementation of IP 
communications solutions. And the only issue I have with 
Senator Cantwell's remarks is, she talked about this as a 
bootstrap operation, and I think that can have very positive 
connotations, but, at the same time, we've got to recognize 
that these IP networks are incredibly robust. We cannot shy 
away from that. And they're only going to improve over time. 
And we saw what a positive impact they had in the wake of 
Hurricane Katrina. And, Mr. Billstrom, you obviously have much 
more firsthand experience than I or anyone on this committee. 
So, I would like to hear from you a little bit as to whether 
you think it's a good idea to use some of that billion for a 
purchase of IP technologies and to what extent you think that 
those IP systems are useful and will be useful for more rural 
areas, because, you know, they don't always have access to some 
of the backbone that makes these systems work.
    Mr. Billstrom. That's right. Both the military, overseas, 
but also the National Guard, domestically, are using IP Radio 
technology to provide connectivity into areas that have 
absolutely no infrastructure at all. So, that's a good model 
for rural communities that don't yet have Internet broadband 
access. Technology such as satellites, point-to-point digital 
microwave, many of the pieces of the puzzle that are used by 
the cellular industry can also be used here, which is--one of 
the things I didn't speak about in my testimony, is that almost 
all, if not all, of the hardware used in IP networks is the 
same hardware that is used in this building, for this--for the 
computers in this building and the computers in the military. 
We can use off-the-shelf commercially available equipment for 
that, which lowers the cost and separates the software from the 
hardware, which gives us much more flexibility as time goes on.
    We've already seen the cost of satellite units drop by at 
least a factor of 200 percent in the last 3 years. Others can 
comment more specifically to that. So, there are plenty of 
opportunities there.
    There's another area that sometimes come up, which is a 
concern about security. I am not an encryption expert, but the 
DOD that's deployed IP Radio in Iraq and Afghanistan presumably 
have addressed this issue.
    Senator Sununu. Let me close, Mr. O'Brien, by returning to 
you on this point, because I think you said something that was 
a little bit misleading in reference to the work that's being 
done in this space. You talked about the first responder, with 
a 1980s radio, that somehow, an IP system isn't going to help 
the first responder with a 1980s radio. But neither is what 
you're proposing. And I want to do something about the person 
with the 1980s technology, but setting up a system that has 
video capability or data capability, which isn't going to make 
any difference to the person with the 1980s radio technology if 
it's not compatible with the network that you're building. So, 
there's going to be an issue with compatibility and equipment 
upgrades in order to take advantage of modern IP networks that 
might have video or data capability, but that's going to exist, 
regardless, for all of those first responders that rely on 
equipment that's analog or outdated or in need of an upgrade.
    The Chairman. Thank you very much.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. First, I want to thank the panel, and I 
particularly want to thank the representatives from the Chiefs 
of Police and the Chiefs of Fire Departments. I'm a former 
prosecutor, and as a very young prosecutor, because my father 
was a volunteer firefighter, I asked to take over the arson 
specialty. And so, Steve Westerman is here, who is the Fire 
Chief from Eastern Jackson County Fire Protection District, 
which was in my area where I was the arson prosecutor. And 30 
years ago, I was trying to explain to his folks how important 
it was not to break down that door until they checked to see if 
it was locked, because it was kind of hard to make those 
circumstantial arson cases if we didn't know whether the door 
was locked or not before they broke it down fighting the fire.
    It's very difficult for me to question any testimony coming 
from your two organizations because of my background. I want to 
congratulate the City of Kansas City, and particularly Chief 
Smokey Dyer, on an incredible response to a chemical explosion 
that we had in Kansas City yesterday, a major chemical 
explosion, very near downtown Kansas City, 18,000 gallons of 
foam were used yesterday afternoon. We're talking about a major 
evacuation in a major metropolitan area, and we had no 
injuries. It was a remarkable showing of skill by our Emergency 
Operations Center in Kansas City, and I didn't want to get to 
my questions before I congratulated Chief Dyer, my old friend 
Smokey, and all of the professional first responders in Kansas 
City for that incredible job.
    I want to ask Mr. O'Brien--I'm assuming this proposal is 
predicated on the idea that it will make a profit.
    Mr. O'Brien. Actually--sorry, Senator--let me divide it 
into two pieces. A Public Safety Broadband Trust, which plays 
the major role in this operation, would be not-for-profit. The 
commercial partners that would come in to a relationship with 
the Public Safety Broadband Trust and build out to the 
specifications of the Public Safety Broadband Trust would be 
expecting to make a return on their investment. That's the fuel 
that keeps this whole thing running.
    Cyren, or whoever is selected to be the manager, would 
expect to have a negotiated arrangement with the Public Safety 
Broadband Trust to get a return on investment also. So----
    Senator McCaskill. Well----
    Mr. O'Brien.--hopefully I've got that----
    Senator McCaskill. Right. I think that was a long way of 
saying that this proposal will produce a profit, correct? I 
mean, you have great experience in this field, in terms of 
putting together a private enterprise effort that eventually 
became one of the largest and very successful wireless 
providers in this country.
    Mr. O'Brien. Right.
    Senator McCaskill. I'm assuming you've gone into this with 
a business model that will provide bottom-line positive 
activity, in terms of profit.
    Mr. O'Brien. Right. And, even more importantly, I think, is 
to use that to fund the buildout of a next-generation public 
safety system. It's a teaming up of the public interest with a 
private--a series of private--partners. If you don't have an 
opportunity for those commercial operators to make a return on 
their investment on building out the network, well, then, of 
course, as you understand, they won't build out the network.
    Our role, my role, is far more to just tee up this debate 
than it is to duplicate or replicate what I'm very proud of, 
which is the success of Nextel. I mean, Nextel was a very 
different opportunity, a very different business in a different 
time. But, yes, we set out for the shareholders of Nextel to 
try to take spectrum, use spectrum more efficiently, and 
generate value out of that proposition. And we were successful, 
as you say.
    Senator McCaskill. I guess my question is, if, ultimately, 
this entire proposal will be--will provide that, ``return on 
investment,'' or, you know, to put it bluntly, ``profit,'' why 
not just bid on the spectrum when it comes up at auction?
    Mr. Largent. Could I answer your question, Senator?
    Senator McCaskill. Sure.
    Mr. Largent. I think the--your question is the question 
that our commercial providers are asking themselves. Why would 
they pay to build a premium system that public safety needs and 
then pay a premium to the person that--the in-between person, 
between public safety and them, to build out the system? And 
then they've got to pay to build the system, itself. So, 
there's a lot of cost that goes into building this system, and 
a premium that would go to the interloper, if you will, between 
public safety and the commercial folks that would use it. And I 
just don't think--I think this industry is so competitive that 
the cost of building that system--that there would be no return 
from the investment. And so, that's why I really think there 
are some questions about the model that's constructed here, 
that there would be a healthy return. And----
    Senator McCaskill. But----
    Mr. Largent.--there's a lot of skepticism about that.
    Senator McCaskill. But let me ask a question. I'm----I want 
to make sure I understand this. Am I correct that this proposal 
assumes that commercial providers will build out the network 
when it comes to a small community like Lebanon, Missouri, as 
opposed to Kansas City and St. Louis? Well, what happens if 
those commercial providers don't step up and build that out? 
Aren't we still going to be looked to, to provide that 
important capability for rural America and rural Missouri?
    Mr. McEwen. Can I answer----
    Senator McCaskill. Sure.
    Mr. McEwen.--that, Senator? Let me give you a little 
different perspective from a public safety perspective, not a 
Morgan O'Brien perspective or a CTIA perspective. We look at 
this differently than was just described by Mr. Largent. We 
look at it that we're going to--this spectrum is not going to 
be Mr. O'Brien's spectrum, it's not going to be the 
commercial--they're not going to own this. This will be 
managed--it'll be in a trust that public safety will manage. 
OK? He described the business model. I don't want to get into 
that, because that's not my area. But the fact is that you do 
have to have investors who will make a profit, who will build 
out the network, or we would have to then ask the Congress 
again to fund more and more and more. So, that business model 
is there.
    But the difference is that this spectrum would be managed 
by public safety, not by the commercial interests, and it would 
be our interest to build out--for instance, in answer to your 
question, in these rural areas--the commercial companies that 
now are in existence don't have a commercial need. They can't 
find it profitable for them to build out in some of those 
areas. It isn't viable for them. However, we need it. We need 
that service in those rural areas, and the public needs it. 
This would pay for that extension.
    I envision taking one of the commercial, or more of the 
commercial, providers that are in existence today, take a 
Verizon, a Sprint/Nextel, a T-Mobile, either a combination of 
them or one of them--actually, we would be looking to take 
their nationwide network and improve it, build it out, harden 
it. We would invest in it. We wouldn't have to build a whole 
new network. The concept here, you know, is pretty simple. From 
our perspective, it's a little different. The problem is that 
right now the industry--Verizon and others--don't want to talk 
with us about that, because they want the spectrum for their 
own commercial purposes. If the spectrum is allocated for 
public safety, we would then be trying to negotiate with the 
commercial providers to either--as one of them, for a 
nationwide network, or having regional parts of it, to build 
this out.
    Senator McCaskill. So, you'd be doing your kind of own 
mini-auction.
    Mr. McEwen. Absolutely. Absolutely. And we would be 
building it to our needs, hardening the network, which the 
commercial interests haven't done a good job of, making it more 
reliable, more redundant. It would serve our interests, which 
are different than theirs, and would serve the public's 
interest much better than it does today.
    Senator McCaskill. It's just--you know, and I--I'm out of 
time, but I do--it's a hard concept for me to get my arms 
around, that we will take something that is--could be auctioned 
on a--in a public sale and then have those resources available 
to do what we need to do to help first responders. As a 
government function, that we would, in fact, embrace a hybrid, 
which is a profit-making venture, to someone who hasn't had to 
compete to get that, that's difficult for me.
    I thank you all very much.
    The Chairman. Thank you very much.
    Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    Obviously, it's a dual challenge, in terms of--I mean, it's 
absolutely vital that we have, you know, our first responders 
having the kind of equipment and the ability to communicate. 
Having been down to visit during--in the aftermath of the 
disaster of Hurricane Katrina, and watching the Coast Guard, 
for example, they didn't have interoperability in the 
communications, but they--you know, they're a can-do operation, 
they were able to overcome that. And so, it's no question that, 
with our--you know, our policemen and the firefighters, they 
need to have the capacity to do that. But the question is, How 
do we achieve these dual goals? And, you know, for the last 10, 
20 years, where we think--we view the spectrum as a public 
entity. So, this is unusual. It's a precedent, from the 
standpoint of transferring to a private-sector entity, in 
addition to the potential for the loss of revenues by virtue of 
doing it in this instance, in the manner in which you are 
recommending, Mr. O'Brien.
    How--I want to ask Mr. Werner and Mr. McEwen, with respect 
to the 24 megahertz--because currently it's for radio. If the 
FCC changes the rule to include that use for broadband, could 
that be accomplished?
    Mr. McEwen. Yes. Right now, the 24 megahertz--as I said, 
we've had 10 years to figure out how we're going to use this, 
and we don't have it yet, so we've got lots of time to do that. 
The 24 megahertz right now, under current rules, is segmented 
into two 12-megahertz blocks. Twelve megahertz of that is 
designated for mission-critical voice. That is mission-critical 
to the major metropolitan areas of this country. The big 
cities, like New York, Chicago, Miami, they have no more voice 
spectrum; they need it desperately. So, that was something that 
we asked the Congress to give us years and years ago, and we 
would hate to have you take that away from us. That's in--
that's pretty sacrosanct, from our perspective. The other 12 
megahertz was intended for data. Originally, when we put the 
recommendations to the FCC for the rules, it was to be wideband 
data, because nobody had heard much about broadband data. 
Today, we have recommended to the FCC that they change the 
rules to allow that to be used for either broadband or 
wideband, and it would be chosen by the local regions in your 
area of the State. So, that is intended to be done that way. 
That isn't a different problem.
    The problem here is taking that 12 megahertz and trying to 
build a nationwide network. As far as we can understand, there 
isn't enough spectrum there to attract the kind of investors to 
build this without having to, again, come back to you to fund 
it.
    Senator Snowe. I see. So, you're saying that is the only 
way to have an interoperable deployment of broadband to all 
areas of the country.
    Mr. McEwen. That's right. It would be a----
    Senator Snowe. So, it is not possible, under the 24 
megahertz, with the 12 that you're saying would be set aside?
    Mr. McEwen. That's our opinion. I mean, we believe that 
that isn't sufficient, number one, to serve the needs of both 
commercial and private/public safety. Without the investment, 
we have no money to build a nationwide network, Senator. And 
that's the big problem here, is that the commercial people 
don't offer us any commercial--any kind of a model that would 
pay for this, other than to come back to you, sitting here 
today, to continue to fund that. I mean, this is a great way to 
take it off the backs of the taxpayer.
    Senator Snowe. Mr. Werner?
    Mr. Werner. Just add to that. The other problem that we run 
into with the current system is that we are forced to stovepipe 
our systems based on the current model. The Public Safety 
Broadband Trust would allow, at much larger economy of scale--
which means we, as first responders, would now be able to buy 
devices on a common network that's commercial, and be able to 
see the evolution of the new technology that we are constantly 
behind. Without that economy of scale, even if we were able to 
take the 12 megahertz and make it a nationwide network, we 
still would not have the volume to create the opportunities to 
buy radios at what we think are affordable and reasonable 
prices, which we are very much having difficulty now.
    And just--along with that same with the network, when you 
talk about the IP Radios, I don't think any of us here have any 
argument that IP Radios are in our future. The difference 
that--the really big difference here that you see, that this 
network offers, is, we don't have the network in place that the 
military has in place, which is very expensive. If we did have 
such a network of 700 megahertz that strengthened--the IP 
Radios suddenly become a much more viable solution for us to 
use on an everyday basis. And we see the partnerships.
    And with the satellite, the proposal that Cyren Call has 
written, that we are looking at as Public Safety Broadband 
Trust, also embraces satellite technology that says we realize 
that it can't be terrestrial all the time, because of the 
failures and the redundancy.
    So, I think that what this does is, it creates an 
opportunity that is self-sustaining on a commercial market, 
that has the volume of scale that continues the ability to 
evolve new technology, as opposed to us buying radios that are 
obsolete as soon as we buy them.
    Senator Snowe. Mr. Largent, how do you respond to that? 
Because I think it is the question, What is the guarantee that 
if we go through the traditional route that you are going to 
extend this network to rural areas? As I understand, under Mr. 
O'Brien's proposal, we are talking about covering 99 percent of 
our population within the next decade. It is a concern, for 
those of us who represent rural areas, as to whether or not 
we're ever going to get this service. What would the wireless 
industry do to guarantee braodband deployment and public safety 
services in rural areas?
    Mr. Largent. Well, Senator, I'm not sure you were here for 
my opening statement, but I mentioned there that we are 
conducting a seminar--not a seminar, but a--putting our heads 
together with the public safety community to try to figure out, 
What are the best ways that we can put this puzzle together? 
And it'll be the first time that we've ever done that. We're 
going to conduct that in--I think it's in April--April 9th--the 
week of April 9th. And we'll conduct that kind of discussion.
    But the important thing is, is that Congress has acted. 
They've delivered 24 megahertz in the 700-megahertz spectrum, 
for public safety. We still think that there's a possibility to 
use the 12 megahertz to deliver a broadband service for public 
safety in the space that you've given them already. We don't 
need to go back and rework it.
    Senator Snowe. In all parts of the country?
    Mr. Largent. In all parts of the country----
    Senator Snowe. In all----
    Mr. Largent.--that's right.
    Senator Snowe. In all?
    Mr. Largent. Absolutely.
    Senator Snowe. They obviously disagree on that question.
    Mr. O'Brien. Yes. Senator, may I just take 1 minute?
    Senator Snowe. Yes.
    Mr. O'Brien. It's a critical imperative to get the benefits 
of broadband into rural America. We see only one way. I don't 
think a seminar conducted by CTIA is going to reverse 25 years 
of ignoring rural America by wireless. And it's not because 
commercial wireless is heartless, it's because they are driven 
by the necessity to earn a return on the investment they make.
    The beauty of--the reason we're so anxious to have you take 
a close look at--this proposal is that it will bring broadband 
to rural areas, because the Public Safety Broadband Trust will 
be able to take a national view of meeting certain objectives. 
And the primary objective--our suggestion--is that the Public 
Safety Broadband Trust should extend coverage to rural America, 
where it has not been, and to have it paid for by the overall 
economics of a nationwide system. This is new. This is 
disruptive.
    This is, with all due respect, not going to be solved at a 
seminar run by Dale Hatfield or Albert Einstein. It's about the 
money. Where do you find the money? If this Congress and the 
State and local jurisdictions are willing to fund billions of 
dollars a year of losses in rural America, then that solves the 
problem. But I don't believe they are. Twelve megahertz of 
spectrum won't support a solution such as ours. It's math, not 
politics. It's math. You need to have sufficient critical mass 
of spectrum to attract the investment, to solve this problem, 
and to bring broadband to rural America.
    We urge the members of this committee to consider this. It 
is complex. It is complex. But take into consideration that 
virtually every public safety organization that has looked at 
this--virtually every one--is supporting this. This is a 
crying-out-for-help signal. We are sending men and women into 
dangerous situations every day, knowing that their devices are 
inferior. How can we, as a country, continue to do that? We 
have a solution. I understand that the legislation was put on 
the books a year ago. That can't possibly mean that the 
legislation can't be improved by this committee and this 
Congress. It can't mean that.
    Senator Snowe. Thank you, Mr. Chairman.
    Thank you.
    The Chairman. Thank you very much.
    Senator Carper?

              STATEMENT OF HON. THOMAS R. CARPER, 
                   U.S. SENATOR FROM DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    I think this is the second or third hearing I've attended 
as a new member of this committee. And I was joking with one of 
my colleagues, Senator Pryor--I said, ``It was only last year I 
learned how to spell VoIP, now I've got to learn how to spell 
RoIP.''
    [Laughter.]
    Senator Carper. Well, hopefully I'll come along.
    I--in my old job, as Governor, I--we actually, in Delaware, 
put in place an 800-megahertz system, started doing it about--
almost 10 years ago. We came into some money and decided to 
spend it on other things, put in a system that would allow our 
police and fire and paramedics and National Guard and other 
first responders to communicate. Took a while to perfect the 
system, and we had problems with the remote parts of our State, 
the parts that stick out into the ocean, and we had problems 
communicating with first responders when they were in 
buildings--big buildings. But we finally worked it out, put a 
lot of repeaters in on these towers, and finally got a pretty 
good system. The folks from Motorola were good. They didn't 
give up, and we wouldn't let them give up. And we put some 
money of our own, and took a little bit of Federal money, too, 
to pump in, to make it work. So, that's, sort of like, the 
perspective that I bring to this argument.
    And I say that as a preface to a question I'm really going 
to ask you all, and give you about a minute to respond to this 
question, if you will. I missed your opening statements. I'd be 
lying if I said I'm going to go home and read them. And----
    [Laughter.]
    Senator Carper. maybe I should. Others will tell you 
they're going to home and read them. I'll tell you the truth--
I'm not.
    What--that's why I hire these smart staff people--what I 
would like to ask each of you--just a minute apiece--give me a 
1-minute takeaway, just, kind of, tell me, out of your 
testimonies--it's impossible for me to remember everything 
you're going to say, but maybe a 1-minute takeaway from each of 
you for a guy who's a recovering Governor.
    Mr. Werner. OK. We need new technology. You, going through 
the experience of 800-megahertz radio system, know how 
difficult and complex that is, and you know that once you put 
all that money into it, that it is what it is; it doesn't 
change, it doesn't evolve. In 10 years, you'll be forced to 
replace that infrastructure that you have in place, which will 
be millions and millions of dollars. And just that example of 
New York City that Mr. Largent referenced earlier, their 
system, for New York City alone, is $500 million--funded by the 
Federal Government, by the way. Now, if you're going to give 
Charlottesville, Virginia, that umpteen million dollars, or the 
State of Virginia, I don't really have any more discussion with 
you. I'm OK with that. I don't think that's going to happen.
    The other thing is, we're continually--the way the--the way 
it's set up now, it's forced to stovepipe the current systems, 
not to make them system-of-systems or a nationwide network. 
And, again, we're faced with the expensive nature of the 
radios, because of a limited competition for public safety, 
because of the economy of scale. Change the network, make it 
available to everybody, increase the technology, it evolves, 
it's self-sustaining. It looks to me like it makes perfect 
sense.
    Senator Carper. All right. Thanks, Mr. Werner.
    Mr. McEwen, give me your best 1-minute.
    Mr. McEwen. I'll give you a quick 1-minute.
    You talked about the new 800--or the 800-megahertz system 
in Delaware. That's a voice system, mission-critical voice 
system. It's very good. It's getting better all the time. I 
know the people that run it in Delaware, so I'm familiar with 
it.
    This is a data system with voice capability. People are 
talking about Internet protocol, Voice-over-IP. You have that 
capability in a broadband network, but it's primarily to bring 
us new capabilities in a broadband way and have 
interoperability and roaming throughout the whole country. It's 
a big difference. It's a revolutionary change. We will never 
have the money--there's no money that I know of, in this 
Congress or any other place, to build this kind of a network 
and to have a nationwide opportunity like this. And I will tell 
you, if you talk to your people back in Delaware, they will 
tell you they think this is the right thing to do.
    Senator Carper. All right, thank you.
    Mr. O'Brien, 1 minute, please.
    Mr. O'Brien. Yes, Senator, and thank you.
    ``Nearly miraculous'' is the way I describe wireless 
services today and on the near horizon--nearly miraculous and 
transformational. It's hard to exaggerate what they have done 
and will do. Our plea is to figure out a way, which can only 
happen here, it can only happen in this committee--figure out a 
way to make those capabilities available to the men and women 
who never calculate the reward, but always are willing to take 
any risk to try to save life or property. Give them those 
devices.
    Senator Carper. I think the last time I heard someone use 
the term ``nearly miraculous,'' they were describing my 
election to the U.S. Senate.
    [Laughter.]
    Senator Carper. Miracles do happen.
    Mr. Largent?
    Mr. Largent. Senator, I would just say that we applaud 
Congress for passage of the DTV Transition Act that designated 
24 megahertz to public safety, a billion dollars to begin the 
investment in their system. We don't think that that'll be the 
last money that they'll need; they'll certainly need more. But 
it's a good start. And I would just say that we need to keep 
that course on this particular spectrum.
    The debate that they raise is a worthy debate that needs to 
be aired out in Congress, it needs to be talked about among the 
experts in the field. And we're proposing to do that, in April, 
as I mentioned. But our message to you is really that we need 
to keep this ship going in the same direction on the 700 
megahertz, and get that auction to occur so that they can begin 
building out their 24 megahertz for public safety and that the 
commercial sector can begin building out its 60 megahertz.
    Senator Carper. Thanks.
    Mr. Billstrom?
    Mr. Billstrom. Senator, I've never done anything in 1 
minute, so----
    [Laughter.]
    Senator Carper. Well, give it a shot.
    Mr. Billstrom.--I'm going to give it a shot.
    The--what, mostly, has been discussed today is really what 
I would call operability. And what I testified on today was 
interoperability. And my focus is fairly pragmatic, and it's 
also immediate. So, there are the systems like the one in your 
home State that are 800 megahertz, and closed. We can't take a 
radio from another city and use it in Delaware. Not right now. 
And we have rural areas that have 1980s--in fact, some have 
1970s-technology radios.
    We're suggesting IP Radio is a solution for connecting all 
those together for interoperability. It's not necessarily for 
operability.
    Senator Carper. Thank you.
    The last word.
    Mr. Desch. And last, but not least, the poor satellite guy 
here, who's got a slightly different approach here, in that--
not in the middle of this debate about what's interoperability 
or the best way to allocate spectrum, which is an interesting 
discussion, but still represent that the systems, even the 
current system, after 25 years, only, still, is built out to 
over 65 percent of our country. The key message that came out 
of Katrina and Rita wasn't interoperability. It--that was a big 
issue--but was the fact that the systems didn't work for 
hundreds of miles and there wasn't any other solution.
    So, we represent just the opinion here that S. 385, which 
you're supporting, is a great first step to redundancy, which 
is an important thing. Don't forget that there are other 
solutions that fit together, interoperate--RoIP is a great 
solution, and we use it, and make the systems work--but, in 
these systems, don't forget the satellite component.
    Senator Carper. Good.
    Mr. Desch. Thank you.
    Senator Carper. Thank you all very much, that was helpful. 
Thank you.
    Thanks, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, for holding this 
hearing. Thank you, to our panel. Thank you, to the first 
responders and the members of your organization, for the great 
work that you do out there.
    I'm, as is Senator Carper, new to this Committee, so it's a 
steep learning curve, and I appreciate it when you use small 
words and big print. As my tech-savvy teenage daughters always 
refer to it as ``back in the day.'' I don't remember the 
crystal-set era, but I do remember a time when we didn't have 
near the options in technology available to us, even in a state 
like South Dakota. And I grew up in a small town of 600 people, 
where, at the time, we had one TV station and none of the 
things that we're talking about, in terms of the avenues to the 
world that our kids have today.
    That's why I want to hone in a little bit on some of the 
points that have been discussed earlier with regard to the 
impact of this proposal and other approaches to reaching rural 
areas.
    In South Dakota, the State Department of Homeland Security 
tells us that we have 90-percent interoperability with regard 
to voice. The next step, obviously, is broadband. And I also 
want to know, as I've listened to the discussion back and 
forth, what will best accomplish the objective of providing 
that sort of broadband interoperability for our first-responder 
community in South Dakota. And so, as you have batted that back 
and forth here, I find that to be of great interest and want to 
continue to hear from you about any additional light that you 
can shed on that particular subject.
    Mr. O'Brien, I do have a question--a couple of questions 
that are maybe more of a practical variety regarding the Cyren 
Call plan. One has to do with whether or not public safety 
communications would be prioritized over typical private 
customers' communication. The way I understand it, that would 
mean a call between a firefighter and their headquarters would 
be prioritized over a call between teenage sweethearts, for 
example. And I guess my question is, Would that technology be 
reliable? And has it been tested extensively?
    Mr. O'Brien. Senator, let's talk about a couple of 
different things. A network--a fourth-generation wireless 
network such as we propose--has three major functionalities. 
One is voice, one is data, and the other is video. For purposes 
of focusing on your question, we are proposing that mission-
critical voice--and it doesn't sound, from your hypothetical, 
like you are referring to mission-critical voice--would 
continue to be carried on existing technologies until such time 
as public safety determines that Voice-over-Internet Protocol 
has achieved a level of robustness that they want to move to 
it. I personally predict that will not be so very far down the 
road because I have confidence in where technology is going. 
But, I make an important distinction between mission-critical 
voice and data and video capabilities, which are otherwise not 
possible on traditional land mobile systems. These advanced 
data and video capabilities would never be possible on 
traditional systems in a rural State such as yours.
    I do want to focus attention on--particularly for rural 
States--the benefits of creating a Public Safety Broadband 
Trust and allowing that trust to take a national point of view 
about broadband deployment. For the first time ever, this will 
be a not-for-profit driven perspective to look at coverage--
extensive coverage--as its first design criteria and will 
solve--it's the only model I've seen that has any chance of 
solving--the 25-year-old problem that commercial wireless 
cannot deploy in areas where they cannot earn a return on those 
facilities. That's the rural dilemma. We're trying to address 
it.
    Senator Thune. Second question, a follow-up to that, would 
a customer choose a communications provider where a connection 
could be preempted at any time by a public safety need?
    Mr. O'Brien. If we are fortunate enough to see our vision 
come true, that will be one of the most interesting parts of 
the marketplace test of this kind of a concept. When you think 
about the functionalities--the features and functionalities--of 
the network we are proposing, built to public safety grade, we 
believe there are large numbers of commercial customers that 
will value those capabilities just like the police value them. 
We believe that commercial customers will go on that system 
knowing that, based on certain well-articulated protocols, 
under certain circumstances public safety will have priority. 
Think about it in terms of when you're driving down the highway 
and a siren goes off behind you. You move over to make way for 
a higher-priority use. We believe that same concept is well 
within the potential of having a marketplace success.
    Mr. Largent. Senator, if I could respond to your question, 
I think your question is a good one. And the commercial 
operators that are members of our association are asking 
themselves the same question, How do we get return on our 
capital when we're coerced, forced, to build towers in rural 
South Dakota, where there's no return on our investment? Are 
they going to--is this trust fund going to force us to build 
towers there because we build out in New York, and we'll just 
take the offset--the capital from New York and put it in South 
Dakota? And I just don't see that that's realistic, that--
you'll end up with the same problem that existed 5 or 10 years 
ago with our industry, where we were building out in the major 
metropolitan areas, but not in rural America. But now, as you 
know, we're extending into rural America, and our coverage is 
much, much better today, but getting better every year.
    Mr. McEwen. Mr. Largent just makes a very good point, and 
that emphasizes what I've been saying right along. He's saying, 
``How can we be coerced or forced to build out into these rural 
areas?'' Well, that is the whole point, that is exactly what 
we're telling everybody. We need this coverage in those areas 
where they will not provide it, because they are not going to 
be coerced or forced to do it. We would do it with private 
investors' money, and we would provide the public with better 
service and service that we need now that they don't give us.
    Mr. Largent. I just don't see where the private investor 
return--gets a return on his capital, building in areas that 
are not profitable in the first place, which is why I think 
taking the 12\1/2\ megahertz--the 12 megahertz that Congress 
has already set aside in the DTV transition, and saying that's 
for broadband--and there's no commercial interest in that, it's 
for broadband--and we're going to build that out, and it's 
going to cost money for the Federal Government. It's going to 
cost money to build that out, no question about that. But we 
think we have the expertise in that area to lend to public 
safety to help do that in the most expeditious and expedient 
and least expensive way.
    Mr. O'Brien. Senator, we have the most powerful system on 
Earth for determining whether ideas like this can succeed. In 
the marketplace when presented with an opportunity to 
participate in the next-generation Public Safety Broadband 
Trust wireless network, in every fiber of my being and all of 
my experience, I am sure that numerous commercial operators--
whether they happen to be current operators who belong to CTIA 
or not--numerous operators and numerous entrepreneurs will step 
up for the right, for the privilege, of participating in that 
network.
    Obviously, I can't prove it. It's something that sits out 
there in the future. But all of my experience suggests--all of 
my experience raising money on Wall Street, all of my 
experience operating a network--suggests yes, that is exactly 
what will happen. There's the ability within the Public Safety 
Broadband Trust to subsidize the rural buildout with the more 
lucrative buildout in the major markets. That's the very thing 
that fuels this idea.
    Again, I urge you to please give us an opportunity to come 
in and explain it more to you or your staff. It is somewhat 
complicated, but it is very compelling as you get into it.
    Senator Thune. Mr. Chairman, I thank you. I'm anxious to 
hear more about--that particularly with regard to the data and 
other advanced communications and how that becomes more readily 
available in rural areas.
    But you've all done a good job of making your points for 
your respective points of view today, and it's helpful. All of 
us who represent rural areas are very interested in this 
subject and how best to accomplish the objective we all have in 
mind.
    So, thank you for your testimony, and we'll continue to 
keep the discussion going. Thanks.
    The Chairman. Thank you very much.
    There is a vote pending now, but I'd like to call upon 
Senator Stevens for the last question.
    Senator Stevens. Well, I hope, Mr. Chairman, that all the 
members here at this panel will agree to meet with Dale 
Hatfield to discuss interoperability solutions.
    I want to call your attention to what has been deployed now 
by the Michigan National Guard. It is a vehicle that has an in-
vehicle software solution to enable the integration of advanced 
electronics communications equipment, security/counterterrorism 
features, and other technologies. This vehicle includes the 
capability of providing radio communications interoperability 
through a switch that allows the first responders to talk to 
each other via dissimilar communications systems, which include 
municipal safety radio, State and Federal radios, military 
radios, land lines, cellular, satellite, and whatever, all 
means of communications.
    Now, I think this conference could step out of the box and 
stop talking about who gets spectrum and talk about how we meet 
the needs of these first responders now. This vehicle is--
working right now for Michigan. And it's on a demonstration 
phase right now. And I urge you to think about that, going to 
that meeting and discussing interoperability solutions, not 
allocation of spectrum.
    And, again, respectfully, Mr. O'Brien, no matter what you 
say, you're asking us to create a new subdivision of the FCC, 
giving complete control over what amounts to, 54 megahertz, 
with only 30 going out to the industry, as a whole. That is, to 
me, impossible for us to do, fiscally. We should not it do from 
the point of view of substance either.
    Thank you.
    The Chairman. Thank you very much.
    As I indicated, there's a vote pending.
    I will not be asking questions now, but I will be 
submitting them to all of you. And I hope that you can respond 
to them.
    The record will be kept open for 2 weeks. If you have any 
addendums, new exhibits, or new statements, please submit them. 
And I hope that you will respond to my questions, written 
questions.
    Thank you very much. The Committee is adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    I am pleased that the Committee is focusing on this very important 
issue. In fact, I would go so far as to say that there may be no more 
important issue facing this committee than the issue of public safety 
interoperable communications.
    The 9/11 Commission's Final Report states that: ``Command and 
control decisions were affected by the lack of knowledge of what was 
happening 30, 60, 90, and 100 floors above.'' To remedy this problem, 
the 9/11 Commission recommended the ``expedited and increased 
assignment of radio spectrum to public safety entities.'' Congress did 
so belatedly last year when it finally set the date of February 17, 
2009, for the availability of 24 MHz of spectrum to public safety after 
years of wrangling with the National Association of Broadcasters.
    However, public safety has long stated that 24 MHz is not enough to 
remedy this crisis. On September 11, 1996, 5 years to the day before 
the 9/11 terrorist attack, the Public Safety Wireless Advisory 
Committee released its final report, which stated that ``Over the next 
15 years, as much as an additional 70 MHz of spectrum will be required 
to satisfy the mobile communication needs of the public safety 
community. The currently allocated public safety spectrum is 
insufficient to meet current voice and data needs, will not permit 
deployment of needed advanced data and video systems, does not provide 
adequate interoperability channels, and will not meet future needs 
under projected population growth and demographic changes.'' If only we 
had listened to the public safety community in 1996, we may not have 
had the lapses in command and control communications during September 
11, 2001.
    Over 10 years later, public safety is still grappling with 
inadequate spectrum and radio communication systems that do not 
communicate with one another. And Congress sits here debating the 
issue.
    That is why last week I announced plans to introduce legislation to 
provide more spectrum to public safety for an interoperable national 
broadband network. The network, which would be created by providing an 
additional 30 MHz of radio spectrum in the upper 700 MHz band to public 
safety, would allow first responders seamless nationwide roaming 
capability and real-time transmission of data. I invite any member of 
this Committee to join me in drafting this legislation and helping move 
it through the legislative process swiftly.
    I fought for many years to clear the 700 MHz spectrum for first 
responders and I do not intend to allow the February 2009 date to be 
delayed, contrary to media reports. Additionally, I have long believed 
in a competitive marketplace for spectrum, and I do not intend to 
change my views now. Therefore, I ask that the wireless industry, the 
public safety community and others review the legislation when it is 
introduced and start a dialog with each other and legislators so we can 
work together to remedy our Nation's interoperable dilemma that has 
deadly consequences.
    The Federal Government has made strides in developing a 
comprehensive, interoperable emergency communications plan, 
establishing equipment standards, funding the purchase of emergency and 
interoperable communications equipment, and belatedly making additional 
radio spectrum available. But none of this is enough. We must do more. 
We are at a watershed moment where we can provide more of the 700 MHz 
spectrum to solve our national public safety communications crisis and 
greatly enhance our emergency preparedness. If we do not act now, this 
valuable spectrum will be auctioned off and this opportunity will be 
lost forever.
    I look forward to working with my colleagues to move legislation 
through the Committee and I thank the Chairman for holding this 
important hearing today.
                                 ______
                                 
                 Prepared Statement of Globalstar, Inc.
    Globalstar, Inc. (``Globalstar'') submits the following written 
testimony for the formal record being compiled in connection with the 
February 8, 2007, hearing of the Senate Committee on Commerce, Science, 
and Transportation (``Committee'') on ``The Present and Future of 
Public Safety Communications.'' As one of the main providers of 
reliable communications to the Gulf Coast states during and in the 
aftermath of Hurricane Katrina, and an active participant in the 
proceedings of the Federal Communications Commission (``FCC'') and its 
Independent Panel Reviewing the Impact of Hurricane Katrina on 
Communications Networks (``Independent Panel'') \1\ Globalstar believes 
that it is well positioned to advise the Committee and the FCC on 
additional steps that may be taken to ensure that the Nation's 
communications infrastructure is prepared for future emergencies.
---------------------------------------------------------------------------
    \1\ See Recommendations of the Independent Panel Reviewing the 
Impact of Hurricane Katrina on Communications Networks, Notice of 
Proposed Rulemaking, EB Docket No. 06-119, FCC 06-83 (June 16, 2006) 
(``Katrina Panel NPRM'').
---------------------------------------------------------------------------
I. Background
    Globalstar is now in its seventh year of providing mobile satellite 
service (``MSS'') voice and data services. Globalstar's services are 
currently available in all areas of the world, except central and 
southern Africa, Southeast Asia, and the Indian subcontinent, areas in 
which Globalstar is in the process of negotiating to expand coverage. 
Globalstar is one of only two FCC-licensed companies that provide MSS 
using battery-powered handheld and vehicle-mounted phones. Globalstar's 
MSS phones are ``operable'' with each other and with any other 
communications device that is connected to a public switched telephone 
or wireless network anywhere, including wireline, cellular, and 
interconnected specialized mobile radio and private systems. As a 
result, a Globalstar user can communicate via satellite with any other 
Globalstar user and with anyone on or connected to the worldwide public 
switched telephone network. A significant and growing number of 
Globalstar's customers are first responders and other public safety 
officials who rely, with increasingly frequency, on Globalstar's 
products and services to meet their day-to-day communications needs, 
and, more importantly, to ensure that they have operable communications 
systems during times of emergency.
    Globalstar's services proved their value to first responders and 
other public safety entities by operating without interruption 
throughout the Gulf Coast during Hurricane Katrina and in its 
aftermath. Because of those services, thousands of first responders and 
other public safety officials whose other means of communication had 
been destroyed were able to communicate among themselves and with the 
outside world. Many state and local governments also now seek to ensure 
that Globalstar's satellite phones are made an essential component of 
their emergency response plans. For example, Haley Barbour, Governor of 
Mississippi, stated that, ``as a result of Globalstar's performance 
[during Hurricane Katrina], [Globalstar's] satellite phones are now a 
part of the State Emergency Response Team deployment package for future 
emergencies.'' \2\ In addition, the press and the public have 
recognized the immense value of Globalstar's services in meeting the 
communications needs created by disasters such as the Gulf 
hurricanes.\3\ President Bush has personally praised Globalstar's role 
in the hurricane response.\4\ Building on lessons learned in 2005, and 
by request from certain Federal agencies, Globalstar prepositioned 
equipment in distribution centers in anticipation of the 2006 hurricane 
season in the Southeastern United States, and will do the same again 
this year.
---------------------------------------------------------------------------
    \2\ See Letter to Kevin J. Martin, FCC Chairman, from Haley 
Barbour, Gov. of Miss. (Dec. 21, 2005) (``Barbour Letter'').
    \3\ See, e.g., Crisis on the Gulf Coast: When Satellite Was the 
Only Game in Town, VIA SATELLITE, Jan. 2, 2006 (``Globalstar doubled 
its capacity to make calls to landline phones, increased its active 
spectrum allocation via special temporary authorities granted by the 
U.S. Federal Communications Commission (FCC), and allocated gateway 
coverage footprints to increase capacity in the affected area to manage 
the unprecedented surge in users''); Paul Davidson, Satellite Phones 
Provide Critical Link to Outside World, USA TODAY, Sept. 6, 2006 
(noting that Globalstar ``sold more than 11,000 phones and leased 1,000 
more'' immediately following Hurricane Katrina); Satellite Phones 
Critical to Katrina Relief Efforts, SATELLITE WEEK, Sept. 5, 2006 
(noting that Globalstar saw ``increased usage . . . from response 
agencies at all levels'' in the aftermath of the hurricanes).
    \4\ See Letter from President George W. Bush to Globalstar (Nov. 
21, 2005).
---------------------------------------------------------------------------
    The effectiveness of Globalstar's MSS services in such stressed 
conditions rests on the fact that--as an MSS system--Globalstar's 
satellite constellation is largely unaffected by ground-based disasters 
that can disrupt terrestrial services. But this effectiveness reflects 
also the reliability of Globalstar's products, distribution channels, 
and customer service. Not surprisingly, those who have relied on 
Globalstar's services during recent disasters and emergencies uniformly 
have praised them.\5\ As a result, a significant and increasing number 
of Globalstar's customers are Federal agencies that have chosen 
Globalstar to meet their communications needs because they recognize 
Globalstar's reliability as a service provider.\6\ For example, in 2006 
the Department of Defense amended its policy regarding the procurement 
of satellite communications equipment, making it easier for individual 
components of the Department to procure Globalstar voice and data 
products for unclassified communications in the United States. In doing 
so, DOD recognized that ``recent developments related to disaster 
relief in the United States indicate a need to broaden the available 
base of MSS for unclassified operations.'' \7\
---------------------------------------------------------------------------
    \5\ See e.g., Barbour Letter, supra at n. 3.
    \6\ Among other Federal agencies, for example, Globalstar currently 
provides service to: The U.S. Department of Homeland Security; U.S. 
Department of Justice; U.S. Federal Emergency Management Agency; U.S. 
Secret Service; U.S. Federal Bureau of Investigation; U.S. Customs 
Service and Border Protection; U.S. Drug Enforcement Administration; 
U.S. Department of Defense; U.S. Northern Command; The Army National 
Guard; U.S. Coast Guard; U.S. Marine Corps; National Security Agency/
Central Security Service; Federal Bureau of Prisons; Defense 
Intelligence Agency; U.S. Department of State; U.S. Environmental 
Protection Agency; Federal Aviation Agency; National Aeronautics and 
Space Administration; U.S. Department of Transportation; U.S. 
Department of Health and Human Services; U.S. Dept of the Interior; 
U.S. Department of Transportation Federal Highway Administration; and 
the National Nuclear Security Administration.
    \7\ See Globalstar Press Release, Globalstar Applauds Updated DOD 
Policy Regarding the Procurement of Satellite Handsets, May 18, 2006, 
available at http://www.globalstar.com/en/news/pressreleases/
press_display.php?pressId=407.
---------------------------------------------------------------------------
    Globalstar has been granted authority to integrate an Ancillary 
Terrestrial Component (``ATC'') into its MSS system, and currently is 
the only MSS licensee capable of seamlessly incorporating ATC into its 
existing, first-generation MSS system.\8\ Globalstar is in the process 
of conducting engineering analyses and meeting with potential business 
partners regarding ATC technologies and services. The realm of possible 
MSS/ATC services continues to expand as technologies evolve, and once 
deployed, Globalstar's ATC network will bring significant benefits to 
Globalstar's public safety (and other) customers. In light of these 
benefits, in July 2006 Globalstar filed a Petition for Rulemaking to 
expand its ATC authority to encompass its entire spectrum 
assignment.\9\
---------------------------------------------------------------------------
    \8\ See Order and Authorization, Globalstar, LLC, Request for 
Authority to Implement an Ancillary Terrestrial Component for the 
Globalstar Big LEO Mobile Satellite Service (MSS) System, 21 FCC Red 
398 (2006). Globalstar already has proven the ease with which ATC 
services can be integrated into its MSS system in a series of 
demonstrations in New York and Washington in the summer of 2002, 
conducted pursuant to its ATC experimental license (Call Sign WC2XXD). 
In those demonstrations, Globalstar used a transportable base station 
no larger than a suitcase and modified Telit 550 dual mode Globalstar/
GSM phones to enable demonstration participants to place calls to 
anywhere in the world through the base station and the satellite system 
into the public switched telephone network. Id. at para. 16.
    \9\ See Globalstar Petition for Expedited Rulemaking to provide 
Ancillary Terrestrial Component Services in its Entire Spectrum 
Allocation (filed June 20, 2006) (``Globalstar Petition for Expanded 
ATC Authority''). See also Consumer and Governmental Affairs Bureau 
Reference Information Center Petition for Rulemakings Filed, Report No. 
2784 (Jul. 27. 2006). To date, the FCC has not acted on Globalstar's 
Petition.
---------------------------------------------------------------------------
    Globalstar has participated extensively in the FCC's Independent 
Panel's activities. Globalstar submitted written comments recounting 
its experience in the aftermath of Katrina in advance of the 
Independent Panel's second meeting, and on March 6, 2006, Globalstar's 
Chairman and Chief Executive Officer traveled to Jackson, Mississippi, 
to testify before the Panel in person.\10\ Globalstar's comments and 
the written testimony of Globalstar's Chairman and Chief Executive 
Officer are attached at Exhibits 1 and 2.
---------------------------------------------------------------------------
    \10\ See Comments of Globalstar submitted to the Federal 
Communications Commission Independent Panel Reviewing the Impact of 
Hurricane Katrina, Pub. Notice DA 06-57 (Jan. 27, 2006) available at 
http://www.fcc.gov/eb/hkip/PubCom/Globalstar.pdf; Statement of James 
Monroe III, Chief Executive Office, Globalstar, LLC, before the Federal 
Communications Commission Independent Panel Reviewing the Impact of 
Hurricane Katrina, at 2-3 (Mar. 6, 2006) available at http://
www.fcc.gov/eb/hkip/GSpeakers060306/ACT1050.pdf.
---------------------------------------------------------------------------
II. Specific Recommendations
    Globalstar agrees with those witnesses who advocate a multi-prong 
approach to ensuring that first responders have reliable satellite 
communications networks at their disposal in advance of future 
emergencies. Specifically, Globalstar makes the following 
recommendations based on its own experiences during past hurricanes and 
other natural disasters:
    1. Training. Globalstar has observed that, although they had the 
foresight to stock Globalstar phones and other satellite communications 
equipment, some first responders had not received adequate training in 
the proper use of the equipment. This lack of training accounted for a 
sizable number of communications failures during the first 48 hours 
after Hurricane Katrina. While in some cases, first responders simply 
had failed to keep the handset batteries charged, in other instances 
they did not realize that satellite phones require a clear line of 
sight between the handset and the satellite in order to function 
effectively. Accordingly, Globalstar believes that it is essential that 
first responders and other emergency personnel receive proper training 
on the operation of satellite equipment, and that such training be 
updated on an ongoing basis as technologies evolve. Such training could 
be organized for local, state and Federal level first responders under 
FEMA, and Globalstar is actively engaged in training and outreach 
initiatives with its public safety customers so that they are prepared 
when the next emergency occurs.
    2. Deployment Plans. In reviewing its experiences during Hurricane 
Katrina and other emergencies, Globalstar has found that first 
responders often do not have pre-emergency deployment plans in place 
that they can invoke in advance of an actual emergency. As a result, 
Globalstar had difficulty determining where to send its phones and 
other equipment for staging into disaster areas. In the case of 
Hurricane Katrina, only through repeated contacts with FEMA and other 
officials was Globalstar ultimately advised where to send it equipment, 
which resulted in significant delays in the delivery of Globalstar 
equipment into the hands of those who needed it. In order to avoid this 
problem in the future, Globalstar believes that it is vital that first 
responders, preferably through cooperation at both the state and 
Federal level, establish a plan to deploy operable equipment in advance 
of an emergency. Globalstar also recommends that such plans ensure 
military (i.e., National Guard) assistance to transport emergency 
communications equipment into the affected area faster and more 
efficiently.
    3. Funding Mechanisms. During and in the aftermath of Hurricane 
Katrina, Globalstar found that although many local and state first 
responders already had operable Globalstar phones for emergencies, in a 
number of cases they either did not know how to activate their service 
through their local or state government procurement agency, or did not 
have funding readily available for procurement. This lack of available 
funding mechanisms often resulted in delays before Globalstar service 
could be activated, leaving first responders with little or no 
communications capability. Globalstar believes that, in order to 
overcome the difficulties that first responders might have in securing 
budget approval to pay for multiple service subscriptions for phones 
that they might not use on a day-to-day basis, local, state and Federal 
agencies should examine whether there are ways that they might improve 
their contracting methods and/or pool their emergency communications 
funds to ensure that they are prepared for future emergencies. For 
example, first responders could seek to share the cost of 
communications equipment on a statewide (or nationwide) basis and, 
consequently, receive volume discounts on their minutes of use. 
Globalstar also has launched special pricing and service plans to 
ensure that Globalstar's services are cost effective for first 
responders with limited communications budgets.\11\ Globalstar believes 
that the FCC should encourage other communications providers to do the 
same.
---------------------------------------------------------------------------
    \11\ See, e.g., Globalstar Launches Emergency Satellite Rate Plan, 
Press Release of March 2, 2006, available at http://
www.globalstarusa.com/en/about/newsevents/press_display.php?
pressId=62.
---------------------------------------------------------------------------
    4. State of-the-Art Equipment. In Globalstar's experience, because 
of budget and other procurement constraints, first responders often do 
not have the same state-of-the-art equipment that its large commercial 
customers have. There are a number of relatively new communications 
products for first responders available from Globalstar and other 
satellite service providers. For example, during Hurricane Katrina, 
Globalstar's technicians developed and sent to FEMA four transportable 
Globalstar Emergency Communications System ``picocells''--transportable 
units about the size of a large ice chest that are configured with 
Globalstar Fixed Access Units (``FAUs'') and GSM cellular picocells. 
When combined with a small PC not much bigger than a laptop, these 
units essentially create a small local area network that is capable of 
handling six simultaneous cellular-to-satellite calls, five 
simultaneous cellular-to-satellite calls, and one 9.6 kbps data 
``call.'' Other satellite-based products that could be of great value 
to first responders include narrow bandwidth video, solar-powered 
phones and satellite backhaul infrastructure for cell phones and other 
portable communications equipment. Local, state and Federal agencies 
and commercial operators must work together to develop and deploy new 
solutions for emergency preparedness.
    5. Health Care Communications. Finally, Globalstar believes that it 
is vital that the FCC take additional steps to ensure that not only 
first responders, but also members of the medical community have access 
to reliable, redundant, state-of-the-art communications equipment fur 
use during times of emergency. Globalstar provides satellite 
communications services to approximately 1,100 hospital and other 
health care facility subscribers, many of which have multiple 
Globalstar phones. In addition, Globalstar has taken concrete steps to 
ensure that its services are made available to additional hospitals and 
other health care providers that normally might not seek out satellite 
equipment due to cost constraints.\12\ But still today, many hospitals 
and other health care centers only have terrestrial communications 
networks at their disposal, leaving them ill-prepared in the event of 
future natural or manmade disasters.
---------------------------------------------------------------------------
    \12\ For example, in 2004 the Iroquois Healthcare Association (IHA) 
used grant funding to purchase one in-hospital telephone, one portable 
telephone and one laptop computer with an Internet connection through 
Globalstar for each of 29 hospitals in 12 counties to provide redundant 
communications for use during times of emergency. See Signal--Armed 
Forces Communications and Electronics Association, April 1, 2004 
(Volume 58; Issue 8), 2004 WLNR 15277393.
---------------------------------------------------------------------------
III. Conclusion
    Globalstar respectfully submits the above recommendations to aid 
the Committee and the FCC in their efforts to facilitate 
interoperability among first responders and to ensure that the Nation 
is prepared for future emergencies.
                                 ______
                                 
                               Exhibit 1
   Federal Communications Commission Independent Panel Reviewing the 
                      Impact of Hurricane Katrina
Comment of Globalstar, LLC
Public Notice DA 06-57
January 27, 2006

    In the aftermath of Hurricane Katrina, Globalstar was one of a very 
small number of telecommunications companies serving the Gulf Coast 
region whose services were not disrupted. We are one of only two FCC-
licensed companies that provide mobile satellite services (``MSS'') 
using battery-powered handheld and vehicle-mounted phones. Our MSS 
phones are ``operable'' with each other and with any other 
communications device that is connected to a public-switched telephone 
or wireless network anywhere, including wireline, cellular, and 
interconnected specialized mobile radio and private systems.\1\ As a 
result, a Globalstar user can communicate via satellite with any other 
Globalstar user and with anyone on or connected to the worldwide 
public-switched telephone network. Globalstar's services proved their 
value to first responders and other public safety entities by operating 
without interruption throughout the Gulf Coast during the hurricanes 
and in their aftermath.
---------------------------------------------------------------------------
    \1\ In his testimony at the September 29 Hearing, Satellite 
Industry Association Chairman Tony Trujillo presented a comprehensive 
review of the role and importance of the satellite industry to 
emergency preparedness. We incorporate Mr. Trujillo's testimony by 
reference.
---------------------------------------------------------------------------
    In his Written Statement of September 29, 2005, before the House 
Subcommittee on Telecommunications and the Internet Committee on Energy 
and Commerce (``September 29 Hearing''), Chairman Kevin Martin noted:

        Fortunately, satellite service providers did not experience 
        damage to their infrastructure. They have helped to bridge some 
        of the gaps left by the outages by providing satellite phones 
        and video links to law enforcement officials, medical 
        personnel, emergency relief personnel, and news outlets.

    The Chairman's comment is absolutely true, but it fails to capture 
the vital role that satellite phones and data terminals played in the 
days, weeks, and months following Hurricanes Rita and Wilma, as well as 
Katrina. MSS is not a service that is ``nice to have'' or a ``bridge 
service'' that will make do until terrestrial services are restored. To 
the contrary, MSS is an increasingly essential service for legions of 
government and non-government customers who require communications 
during emergencies or in remote areas or who simply want 
telecommunications capability that they know will work under virtually 
all conditions.
    We here provide a summary of Globalstar's response to the Hurricane 
Katrina emergency.

  <bullet> In advance of Hurricane Katrina:

    <ctr-circle> Prepositioned phone inventory to strategic locations

    <ctr-circle> Re-allocated coverage footprints of Texas and Florida 
            Gateway earth stations to increase capacity in Gulf region

    <ctr-circle> Trained network operations team to monitor usage 
            patterns in real-time to manage anticipated traffic 
            increase effectively

  <bullet> Immediately after Hurricane Katrina:

    <ctr-circle> Donated about 100 phones each to the Governors of 
            Louisiana and Mississippi

    <ctr-circle> Activated and deployed roughly 10,000 additional 
            phones within 1 week to FEMA and other state and Federal 
            agencies

    <ctr-circle> Activated and deployed some 2,000 simplex data 
            terminals so that FEMA and other agencies could reliably 
            track their mobile and fixed assets such as generators and 
            trailers

    <ctr-circle> Doubled the capacity for Globalstar calls to landline 
            phones

    <ctr-circle> Within 24 hours increased available network access by 
            60 percent

    <ctr-circle> Continuously reallocated gateway capacity and coverage 
            to maintain service quality in Gulf region

    <ctr-circle> Developed and deployed four new transportable 
            Globalstar Emergency Communications System ``picocells,'' 
            which mate GSM cell phones with a Globalstar fixed phone 
            for backhaul to create a small Local Area Network (see 
            attached news release)

    We have attached as an Appendix a public version of our principal 
e-mail reports to the FCC staff between August 30 and September 22, 
2005.
    Even though Globalstar's calling increased 566 percent in the week 
following Katrina compared with the week preceding Katrina, we were 
able to maintain our quality of service to ensure that FEMA and other 
first responders had adequate service. Our efforts were recognized by 
public officials, including President George Bush and Mississippi 
Governor Haley Barbour, as well as national publications such as the 
Wall Street Journal (in its edition of November 3, 2005).
    The point that must not be lost amid public officials' concern 
about the lack of ``interoperability'' among the heritage private radio 
systems licensed to police, fire, and other first responders is that 
MSS systems already provide ``operability'' for public safety, national 
security, and disaster management. Globalstar proved this during two 
consecutive hurricane seasons--2004 and 2005. The Commission can 
support the satellite industry and assist its fellow government 
agencies by helping to increase awareness of the communications 
capabilities already available via satellite and by encouraging 
agencies to coordinate among themselves to develop contingency plans 
using phones and networks that will always work during emergencies.
            Respectfully submitted,
                                           Globalstar, LLC.
                                 ______
                                 
                  Globalstar, LLC--Appendix to Comment
             Selection of Globalstar Status Reports to FCC 
                      Following Hurricane Katrina
8/31/05

    Here is some additional information about Globalstar's response to 
the hurricane emergency. Per our conversation, our gateway earth 
stations are not in the hurricane zone, and we have no outages at all 
on our system. The gateways serving the hurricane area are in Sebring, 
Florida and Clifton, Texas. I have attached the coverage maps that we 
submitted with our Sebring license application, which is currently 
pending. We are operating Sebring under STA granted July 13.
    At this time, we are working from California and Canada 
(unfortunately, our Gulf States distribution manager based in southern 
Mississippi lost his home and has not been able to ``be on the scene'' 
for us), primarily with FEMA and also with Senator Landrieu's office. 
The emergency escalated so suddenly yesterday that state agencies are 
still reacting.
    Globalstar distributes phones and service through a network of 
dealers and its own 800 number and website. As to phones, in the last 
36 hours or so we have shipped 500 phones from our warehouse here in 
California to FEMA at FEMA's designated location. In addition, dealers 
and individual customers calling the 800 number have ordered another 
1,400 phones. (We normally activate about 2,000 phones in the U.S. in 
an entire month.) These phones are activated and shipped as ordered 
from our provisioner, Unigistics. While the vast majority of our U.S. 
phones are Globalstar/CDMA phones manufactured by QUALCOMM, we also 
have a supply of Globalstar/GSM phones manufactured by our Italian 
vendor, Telit, which are distributed primarily in Europe. We have been 
shipping the latter as well, and we are modifying our network to serve 
them.
    With respect to the network, we have taken the steps necessary to 
increase capacity to accommodate the much greater than anticipated call 
volume. Specifically:

        1. We will triple the Globalstar/GSM capacity of the Sebring 
        gateway by Friday Sept. 2.

        2. We will increase the PSTN interconnect capacity at Clifton 
        by 50 percent by Friday Sept. 2 and again by another 50 percent 
        (of original capacity) by Sept. 9. This will allow us to avoid 
        blocked calls and busy signals.

        3. We will increase Globalstar/GSM capacity of the Clifton 
        Gateway 2.5 times by Friday Sept. 2.

        4. We will increase the overall airlink capacity at Clifton by 
        50 percent by Sept. 9.

        5. We will continue to make adjustments as necessary to meet 
        demand.

    [We] will keep you informed about developments in the Globalstar 
System as they occur. Please do not hesitate to contact [us] by phone 
or e-mail.
          * * * * *
9/1/05

    Further to the information that [we] sent you this morning--
    One of the two T1 trunks connecting the Sebring, Florida, and 
Clifton, Texas, Gateways went down after the hurricane. Half of our GSM 
capacity riding on that trunk was lost. Our Operations Department 
quickly rearranged our U.S./Canada network configuration and freed up 
some capacity on the remaining trunk. The arrangement now allows us 
more GSM call capacity than when we had both trunks up.
    As to phone sales, we received orders for another 2,750 phones 
today. Our provisioning company has added staff to activate phones and 
will work through the weekend. They can now activate about 1,400 per 
day (versus a typical 80 per day), which will cause a few days' backlog 
because of the unprecedented number of orders. We have asked whether 
they can add additional temporary staff. Our Canadian phone battery 
supplier has placed orders for battery components and will be 
significantly increasing its production of batteries. The supplier 
currently has sufficient inventory for the next couple of weeks.
    We have donated 100 phones to the States of Louisiana and 
Mississippi.
    [We] will provide you with an update tomorrow.
          * * * * *
9/2/05

Open Letter From the Desk of Jay Monroe
Chairman and CEO Globalstar, LLC

    As the tragedy in the Gulf continues to develop, our thoughts and 
prayers are with those affected. Beyond our concern we are working to 
ensure that Globalstar provides needed communications to help save 
lives and property as the country bands together to help the victims of 
this unparalleled event.
    The physical damage to the region has widely affected land-based 
communications, resulting in many response organizations turning to 
Globalstar satellite service. We have planned and trained for this kind 
of situation, but the magnitude of the crisis is staggering, and many 
have asked us what we are doing in response. Here are some highlights:
Satellite Phone Deliveries
    Globalstar is working closely with emergency organizations to get 
as many units activated and into the hands of these groups so the 
phones aid recovery teams.

  <bullet> Within the first week of this disaster, Globalstar, our 
        dealers and clients have deployed over 10,000 phones to the 
        Gulf Coast region.

  <bullet> Globalstar has donated the use of 100 phones to the States 
        of Louisiana and Mississippi.

  <bullet> We continue to work closely with FEMA and the American Red 
        Cross.

  <bullet> We are deploying over 15 times the normal volume of 
        equipment, primarily to response agencies, in order to help the 
        region.

Network Quality
    Globalstar was designed from the start to provide reliable service 
regardless of events on the ground. Our network team is monitoring 
usage to ensure that we effectively manage the sudden increase in 
system usage. Over the past several days, we have:

  <bullet> Doubled capacity for Globalstar calls to landline phones

  <bullet> Increased active Globalstar spectrum allocation to handle 
        increased volume

  <bullet> Re-allocated gateway coverage footprints to increase 
        capacity in the Gulf area

  <bullet> Continually monitored usage to accommodate regional usage 
        increases

    As with all telecommunications systems there may be instances where 
calls cannot be completed during periods of intensified usage. These 
occurrences are being minimized with our initial efforts, and our work 
is ongoing to ensure maximum network availability during this crisis.
Customer Care
    Globalstar is providing full support with many employees working 
well beyond scheduled hours in the United States and Canada. While 
current wait times and activation times may be longer than normal, 
every caller who waits will be answered.
Contact
    If you would like to purchase Globalstar products please call 1-
877-728-7466. For existing customers who may have questions, contact 
Globalstar Customer Care at 1-877-452-5782. Media inquiries should be 
directed to John Dark, Senior Marketing Manager, Globalstar at 408-933-
4413.
    On a personal note, my home is in New Orleans and most of my family 
lives there. None of us have received a reliable report on the 
condition of our houses and neighborhoods, and all of us are among the 
displaced at this time. While it is great solace to know that 
Globalstar is an important tool in aiding relief workers and 
individuals in the area, I will share with you my deep anguish over the 
losses we are all experiencing.
            Sincerely,
                                                Jay Monroe,
                                                  Chairman and CEO,
                                                       Globalstar, LLC.
          * * * * *
9/8/05

    For the last several days Globalstar has been recording more than 
20,000 calls and 60,000 minutes per day through our Clifton, TX, 
Gateway and an additional 2,500 calls and 7,500 minutes through 
Sebring, FL. We believe that the majority of these are FEMA calls 
although we cannot be certain.
    FEMA has ordered several thousand of our ``AXTracker'' simplex data 
modems. The AXTracker is a battery-operated, self-contained telemetry 
device designed for asset tracking and fleet management in remote 
regions. We understand that FEMA is using these to keep track of its 
emergency equipment in the field such as portable generators.
    Our network seems to be functioning properly. We had one problem 
with a two-circuit private line provided by Sprint connecting Sebring 
and Clifton. One circuit went down at the beginning of last week. We 
contacted NCS and our Sprint sales rep and got the circuit back up 
quickly.
          * * * * *
9/20/05

    Globalstar has constructed two of its planned four ``Globalstar 
Emergency Communications Systems'' (GECS) and hopes to ship the two to 
FEMA (or other government agencies) by tomorrow. There are two 
components: (1) A water-resistant crate about 3.5 x 2 x 1.5 feet houses 
six Globalstar fixed access units (FAUs). The GECS fits in the back of 
a pickup truck or SUV or in a small boat. The FAUs will be connected by 
30-foot cables to their antennas, which can be placed anywhere there is 
line of sight to the satellites. The user can plug any six telephones 
into the FAUs through standard RJII jacks. The crate must be connected 
to a 110V power source. (2) A cellular GSM picocell, which is a device 
about the size of a dinner plate two inches thick. Two picocells can be 
connected to the FAUs through a small PC not much bigger than a laptop. 
The PC provides all the functionality of a cellular base station. The 
picocell is manufactured by Intelcomm. Additional picoccells could be 
added by adding more ports on the PC.
    When two picocells are connected to the FAUs through the ``base 
station,'' the whole unit is capable of processing fifteen simultaneous 
cellular-to-cellular calls (essentially creating a small local area 
network) or six simultaneous cellular-to-satellite calls, or a 
combination. Initially, Globalstar will provide preprogrammed GSM SIM 
cards with special phone numbers. Eventually, we will work out the 
network connectivity so that any GSM cell phone can be used with the 
GECS. All of the GECS equipment can carried by two people and set up 
wherever there is a 110V power source.
          * * * * *
9/22/05

    As you know, Globalstar's principal U.S. Gateway is in Clifton, 
Texas, near Waco. Right now, the National Weather Service is showing 
that Rita will track fairly close to Waco. We do not expect any adverse 
effects from rain or flooding. Clifton is currently providing the 
primary coverage in the Katrina area. Our contingency plan provides for 
expanding the coverage in Sebring, Florida and the two Canada Gateways 
if we have to shut down Clifton briefly. This will ``stretch'' the 
other three Gateway coverage areas, which could result in a reduction 
in the length of time that any given call can be maintained in the area 
normally covered by Clifton. However, there will be no total loss of 
service anywhere. We can execute the contingency plan with about 90 
minutes' advance notice.
    [We] will keep you apprised of developments as they occur.
    [We] don't yet have anything specific to report regarding the 
provision of additional emergency phones to the Texas Gulf coast except 
that we have our established relationship with FEMA and will continue 
to work cooperatively.
                                 ______
                                 
                               Exhibit 2
   Federal Communications Commission Independent Panel Reviewing the 
                      Impact of Hurricane Katrina
Statement of James Monroe III
Chief Executive Officer
Globalstar, LLC
March 6, 2006

    Chairwoman Victory and distinguished Members of the Panel. I very 
much appreciate the opportunity to appear before you on behalf of 
Globalstar. Globalstar is one of the original ``Big LEO'' mobile 
satellite systems licensed by the Federal Communications Commission 
more than a decade ago. Like the rest of the telecommunications 
industry, we suffered through the doldrums of the business recession 
that began in 2000. We entered chapter 11 bankruptcy in 2002, and the 
pundits, the terrestrial wireless industry and even many of our 
regulators gave us up for dead. But our loyal and dedicated employees 
and, most importantly, our customers, did not give us up for dead. Why 
not? Because we provide a unique suite of products and services that 
government and industry have come to rely upon in remote areas of the 
globe and during the emergencies that routinely disable terrestrial 
wireline and wireless communications for a period of time.
    We all know that Hurricane Katrina was a an extraordinary event 
with an unusually disruptive impact on the land-based 
telecommunications infrastructure. We also all know that Government's 
response to the emergency was not acceptable to the public or to its 
elected officials. My presentation today will address, first, 
Globalstar's response to the emergency as we experienced it and, 
second, our recommendations to ensure a faster and better coordinated 
response if and when the next such event occurs.
    In the aftermath of Hurricane Katrina, Globalstar was one of a very 
small number--perhaps fewer than five--of telecommunications companies 
serving the Gulf Coast region whose services were not disrupted. We are 
one of only two FCC-licensed companies that currently provide mobile 
satellite services, or ``MSS,'' using battery-powered handheld and 
vehicle-mounted phones. Our satellites serve the Southeast United 
States with the aid of our Gateway satellite Earth stations near Waco, 
Texas, and Sebring, Florida. Because our satellite constellation is 
located 850 miles above the Earth's surface, as long as either one of 
those ground stations is undisturbed, our customers in the Gulf Coast 
area can obtain uninterrupted service even when all terrestrial 
communications in the area are unavailable.
    Much of the debate among telecommunications policymakers following 
Hurricane Katrina concerned the lack of ``interoperability'' among 
proprietary radio systems used by local, state and Federal police, fire 
and rescue and other emergency assistance agencies, which I refer to 
collectively as ``First Responders.'' This lack of interoperability is 
indeed a problem that these agencies and state and Federal regulators 
have been attempting to solve for years. However, the lack of 
interoperability was not an impediment for those agencies that had MSS 
phones at their disposal during and after the hurricane. This is 
because MSS phones, which use globally-allocated radio spectrum, and 
which do not rely on the terrestrial infrastructure to function 
effectively, are ``operable'' with each other and via satellite with 
any other communications device that is connected to the public 
switched telephone network or to a wireless network anywhere.
    If I may, I would like to summarize briefly Globalstar's actions 
both before and immediately after Hurricane Katrina came ashore.
    In advance of Hurricane Katrina, we--

    <ctr-circle> Prepositioned our phone inventory to strategic 
            locations such as Baton Rouge;

    <ctr-circle> Re-allocated the coverage footprints of our Texas and 
            Florida Gateway earth stations to increase our capacity in 
            the Gulf Coast region; and

    <ctr-circle> Prepared our network operations team to monitor usage 
            patterns in real-time to manage the anticipated traffic 
            increase effectively.

    Immediately after the hurricane moved out of Louisiana and 
Mississippi, we--

    <ctr-circle> Within 24 hours, increased available network capacity 
            in the affected areas by 60 percent;

    <ctr-circle> Donated about 100 phones each to the Governors of 
            Louisiana and Mississippi;

    <ctr-circle> Within about 1 week, activated and deployed roughly 
            10,000 additional phones to FEMA and other state and 
            Federal agencies;

    <ctr-circle> Activated and deployed some 2,000 simplex data 
            terminals so that FEMA and other agencies could reliably 
            track their mobile and fixed assets, such as generators and 
            trailers;

    <ctr-circle> Doubled the capacity for Globalstar calls to landline 
            phones;

    <ctr-circle> Continuously reallocated Gateway capacity and coverage 
            to maintain service quality in the Gulf Coast region; and

    <ctr-circle> Developed and sent to FEMA. four new transportable 
            Globalstar Emergency Communications System ``picocells,'' 
            which mate GSM cell phones with a Globalstar fixed phone 
            for backhaul to create a small, self-contained local area 
            network.

    Even though Globalstar's calling increased a staggering 566 percent 
in the week following Hurricane Katrina, compared with the week 
preceding, we were able to maintain our quality of service to ensure 
that FEMA and other First Responders had uninterrupted communications 
capability. Why were we able to do this? Because we were prepared.
    I do not mean to imply that everything worked smoothly--it did not. 
No company or government agency can anticipate each potential point of 
failure during a calamity. Even if we could, the cost of designing 
hardware and software and preparing ourselves for the unthinkable would 
be cost-prohibitive. We design our equipment and procedures to work 
properly ``nearly all the time.'' This does not mean that we cannot 
take steps to reduce the points of failure.
    With that in mind, I would like to share with you Globalstar's 
observations and recommendations based on our experience, not only with 
Hurricane Katrina, but also with Hurricane Wilma some weeks later and 
with the series of hurricanes that struck Florida during 2004.
    First, we found that some First Responders, who had the foresight 
to stock Globalstar phones and other satellite communications 
equipment, had not received adequate training in proper use of the 
equipment. This lack of training accounted for a sizable number of 
communications failures during the first 48 hours after the hurricane. 
In some cases, First Responders simply had failed to keep the handset 
batteries charged, just as we at home might fail to keep fresh 
batteries in our flashlights in the event of a power failure. Others 
did not realize that satellite phones require a clear line of sight 
between the handset and the satellite in order to function effectively. 
Accordingly, it is essential the First Responders and other emergency 
personnel receive proper training on the operation of satellite 
equipment. There is no reason that such training cannot be organized 
for local, state and Federal First Responders under FEMA, and 
Globalstar is actively engaged in training and outreach initiatives 
with its public safety customers so that they are prepared when the 
next emergency occurs.
    Second, we found that First Responders generally did not have pre-
emergency deployment plans that they could invoke in advance of the 
actual emergency. As a result, Globalstar had difficulty determining 
where to send our phones and other equipment for staging into the 
disaster area. Only through repeated contacts with FEMA and other 
officials were we ultimately advised to send our equipment to staging 
areas--primarily Baton Rouge. In order to avoid this problem in the 
future, it is vital that First Responders, preferably through 
cooperation at both the state and Federal level, publish a plan to 
deploy operable equipment in advance of an emergency. We also recommend 
that any such plan ensure military--for example, National Guard--
assistance to transport emergency communications equipment into the 
affected area faster and more efficiently.
    Third, we found in many cases that although local and state First 
Responders already had operable Globalstar phones for emergencies, they 
either did not know how to activate their service through their local 
or state government procurement agency, or did not have funding readily 
available for procurement. It is understandable that First Responders 
might not be able to secure budget approval to pay for multiple service 
subscriptions for phones that they might not use on a day-to-day basis; 
however, if local, state and Federal agencies were able to improve 
their contracting methods and pool their emergency communications 
funds, they could share the cost statewide, or even nationally, of 
emergency preparedness and could, consequently, receive volume 
discounts on their minutes of use.
    Fourth, we found that First Responders often did not have the same 
state-of-the-art equipment that our large commercial customers have. 
There are a number of relatively new solutions for First Responders 
available from Globalstar and other satellite service providers. As I 
noted previously, Globalstar's technicians developed and sent to FEMA 
four transportable Globalstar Emergency Communications System 
``picocells.'' This product is quite similar to an ancillary 
terrestrial component, or ATC, product that we intend to develop now 
that the FCC has authorized us to implement ATC. Other satellite-based 
products that could be of great value to First Responders include 
narrow bandwidth video, solar-powered phones and satellite backhaul 
infrastructure for cell phones and other portable communications 
equipment. Local, state and Federal agencies and commercial operators 
must work together to develop and deploy new solutions for emergency 
preparedness.
    In summary, we recommend that First Responders train their 
employees on the proper use of equipment, deploy emergency equipment in 
advance of a disaster, work together to share resources and funding, 
and work with industry to procure and maintain, state-of-the-art 
equipment.
    That concludes my prepared statement. I respectfully refer the 
Panel to Globalstar's written statement submitted on January 27 for 
additional detail about Globalstar's response to Hurricane Katrina. 
Thank you.
                                 ______
                                 
  Prepared Statement of Paul J. Cosgrave, Commissioner, Department of 
    Information Technology and Telecommunications, City of New York
    New York City strongly commends the Senate Commerce Committee for 
addressing our concerns with the $1 billion public safety 
interoperability grant program that the Committee established last 
year. In the recently proposed ``Interoperable Emergency Communications 
Act'' (S. 385), which provides the National Telecommunications and 
Information Administration (NTIA) with additional guidance on how to 
allocate the $1 billion in interoperability funding, the Committee 
removes a counterproductive linkage between funding eligibility and the 
use of specific spectrum.
    Last year, Congress expedited the release of $1 billion in grants 
to state and local public safety agencies to support the deployment of 
interoperable public safety communications systems. While applauding 
Congressional recognition of the need for such funding, the City of New 
York was greatly troubled that such grants would be directed solely 
toward a newly reallocated portion of the wireless spectrum. As Mayor 
Bloomberg made clear in Senate testimony and a separate letter 
(attached), this statutory preference for newly allocated public safety 
spectrum would not serve the interests of high-risk cities like the 
City of New York.
    New York City, however, urges the Committee to go further. A 
provision in S. 385 would not permit interoperability grants to be 
provided directly to localities. Especially in the Nation's highest 
risk areas, wireless public safety communications systems are funded 
and deployed by municipal agencies. In the initial hours after an 
event, state agencies are unable to play a significant role in 
emergency response in major metropolitan areas. Indeed, New York City 
has been a leader in the development of public safety communications. 
New York City has already invested more than $1 billion in our own 
public safety infrastructure, including a commitment of well over $0.5 
billion to upgrade our interoperable voice and data networks since the 
September 11, 2001 attacks.
    Unfortunately, S. 385 would effectively prohibit interoperability 
grants from being provided directly to the agencies that need them 
most: local first response agencies in high-risk urban areas. In 
particular, the bill would require the Assistant Secretary of NTIA to 
distribute the grants on the basis of the USA PATRIOT Act formula, 
including a states-only distribution and a minimum to each state of 
0.75 percent, which consumes 40 percent of the funds without any 
consideration of risk. It is New York City's view that the USA PATRIOT 
Act formula effectively shifts funds away from high-risk areas, which 
the 9/11 Commission recommended be the basis for all homeland security 
grant allocations. Furthermore, the requirement that funds be 
distributed to states only ensures that the communications needs of 
state agencies will be given preference over the needs of municipal 
agencies, which are in fact the first responders to all urban 
emergencies. For example, New York State's interoperable communications 
network applies mainly to State agencies--participation by local 
agencies is ``optional.'' While we intend to be interoperable with the 
state's new network, our day-to-day first responder communications 
would overwhelm the state's system.
    I appreciate this Committee's efforts in the area of public safety 
interoperability, including its responsiveness to New York City's 
initial concerns. However, the City of New York respectfully, but most 
urgently, requests that S. 385 be modified to address the issues 
outlined above.
                                 ______
                                 
   The National Grange of the Order of Patrons of Husbandry
                                   Washington, DC, February 8, 2007
Hon. Ted Stevens,
Vice Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Vice Chairman Stevens:

    Attached is a copy of the National Grange's November 28, 2006 
filing with the FCC supporting the decision to dismiss a petition by 
Cyren Call to create a Public Safety Broadband Trust. The National 
Grange believes this proposal to alter the digital television (DTV) 
provisions of the Deficit Reduction Act of 2005 (DRA 05) will he 
harmful to rural areas and represents a setback in Congress' effort to 
provide our public safety professionals with a reliable and 
interoperable communications infrastructure.
    With the inclusion of DTV provisions within the DRA 05, Congress 
took a definitive step to bring our Nation's television broadcast 
services into the digital age while freeing up valuable spectrum in the 
700 MHZ band for new commercial telecommunications services as well as 
dedicating a block of 24 MHZ of spectrum for our first responders. As 
you can see in our filing to the FCC, this represented a thoughtful 
compromise among numerous stakeholders.
    The new commercial applications resulting from the auction of the 
700 MHZ band represent an opportunity for traditionally underserved 
rural communities to benefit from more expansive and consistent 
advanced telecommunications services. The Cyren Call proposal directly 
threatens the application of those services. The National Grange 
respectfully asks for your continued support and swift implementation 
of the DTV provisions within the DRA 05, including an expedited auction 
of the 700 MHZ spectrum.
            Sincerely,
                                              Leroy Watson,
                                              Legislative Director,
                   National Grange of the Order of Patrons of Husbandry

Enc.
Cc:

Chairman Daniel K. Inouye
Hon. John D. Rockefeller IV
Hon. John F. Kerry
Hon. Byron L. Dorgan
Hon. Barbara Boxer
Hon. Bill Nelson
Hon. Maria Cantwell
Hon. Frank R. Lautenberg
Hon. Mark Pryor
Hon. Thomas R. Carper
Hon. Claire McCaskill
Hon. Amy Klobuchar
Hon. John McCain
Hon. Trent Lott
Hon. Kay Bailey Hutchison
Hon. Olympia J. Snowe
Hon. Gordon H. Smith
Hon. John Ensign
Hon. John E. Sununu
Hon. Jim DeMint
Hon. David Vitter
Hon. John Thune
                                 ______
                                 
   The National Grange of the Order of Patrons of Husbandry
                                  Washington, DC, November 28, 2006
Hon. Kevin J. Martin,
Chairman,
Federal Communications Commission,
Washington, DC.

Re: RM-11348

    The National Grange, the Nation's oldest general farm and rural 
public interest organization, opposes the proposal made by Cyren Call 
for the creation of a Public Safety Broadband Trust, that would he a 
free give-away of portions of the 700 MHZ band of spectrum. The 
National Grange believes that Congress has already taken the necessary 
action, in the Deficit Reduction Act of 2005, (DRA 05) to allocate an 
additional 24 MHZ of the 700 MHZ band to first responders for 
interoperable communications. We strongly believe that the Cyren Call 
proposal would not be in the best interest of family farmers and other 
residents of rural communities who currently lack adequate commercial 
access to advanced telecommunications technologies and who currently 
face disruptions from the transition to digital TV broadcasting. We 
also believe that Cyren Call's proposal would undermine, not aid, 
Congress' effort to provide first responders with the timely, reliable 
communications systems they need, as recommended by the 9/11 
Commission. As such the National Grange supports the decision by the 
Federal Communications Commission to dismiss Cyren Call's petition on 
this matter.
    By including digital TV (DTV) provisions in the DRA 05, Congress 
set in motion a plan to advance the Nation's conversion of its TV 
broadcast services to new digital technology. This will free up vast 
amounts of high-quality spectrum in the 700 MHZ band, a portion of 
which will be made specifically available for public safety uses. This 
plan is entirely consistent with the recommendations made by the 9/11 
Commission. The National Grange believes that the transition to DTV 
will be especially disruptive for rural communities that lack access to 
competitively priced satellite or cable television services and that 
continue to rely on over-the-air broadcasting to receive television 
programming. Nevertheless, the National Grange has supported the DTV 
transition provisions of the DRA 2005, in part, because the Congress, 
in its wisdom, allocated a significant portion of the newly available 
spectrum to become available for additional commercial 
telecommunications applications. These new commercial applications of 
spectrum hold out a promise of more robust, more reliable and more 
consistent service coverage for rural and fanning communities that are 
currently underserved by existing advanced telecommunications 
technologies.
    The National Grange believes that the provision of new spectrum in 
DRA 05 for use by first responders is a critical step in meeting their 
interoperable communications needs in times of natural and manmade 
crises. Funds for these programs, as well as other programs to 
facilitate the transition to DTV, will come from the public auction of 
the remaining spectrum in the 700 MHZ band vacated by TV broadcasters. 
The DRA 05 provides up to $1.5 billion for digital set top converter 
box subsidies that will ease the transition to digital TV for rural 
consumers. An additional $1 billion will be provided to help public 
safety agencies better deploy and use interoperable communications 
systems. Additional funds are also provided for a unified national 
alert system ($156 million) and enhanced 911 services ($43 million).
    The National Telecommunications and Information Administration 
(NTIA) will administer these grant programs. The National Grange has 
already opened a dialogue with NTIA to explore ways that we can use our 
network of nearly 2,800 local and county Grange chapters across the 
United States to assist in implementing a public service education 
program in rural America to facilitate the transition to DTV in 2009. 
Delays in implementing the provisions of DRA 05 related to the DTV 
transition that might arise from further reconsideration of the Cyren 
Call proposal would complicate and disrupt our efforts to train and 
mobilize our volunteer resources in rural communities across the Nation 
to participate in public service educational campaigns regarding the 
DTV transition. Other non-profit and civic organizations are preparing 
similar commitments of resources to assist with this transition in 
rural communities as well. Given the disproportionate impact that the 
DTV transition will have on rural communities and the clear necessity 
for public service educational programs to address those impacts, we 
believe that further delays in the implementation of the DTV transition 
provisions would be directly contrary to the legislative intent of the 
DRA 05.
    The National Grange also believes that, in this instance, auctions 
are the right way to allocate spectrum to commercial telecommunications 
service providers. Auctions raise billions for the Treasury, and ensure 
that economic and technical value--not political favoritism--determines 
the highest and best use of the spectrum. The FCC's own data clearly 
indicates that, given reliable access to these technologies, consumers 
in rural areas are increasingly turning to wireless technologies to 
serve their communications needs. Rural consumers recognize the 
convenience, mobility, efficiency and security that wireless 
technologies can provide. The National Grange believes that market 
demand for advanced telecommunications services in rural communities, 
coupled with appropriate discretionary oversight of commercial 
applications of new telecommunications technologies and services by 
state and Federal regulatory agencies, is more likely to result in 
greater effective allocation of spectrum resources to serve rural and 
farming communities than the Public Safety Broadband Trust advocated by 
Cyren Call.
    Under current law, this spectrum auction must occur by January 
2008, but the National Grange believes that there is no compelling 
reason to postpone the spectrum auction until then. The sooner this 
auction occurs, the sooner critical public funds can be used for DTV 
transition programs, for enhanced investment in first responder 
networks and interoperability and for deficit reduction. In addition 
the sooner this spectrum auction occurs, the sooner that spectrum 
resources can be made commercially available for deployment of advanced 
telecommunications services in rural and farming communities.
    Recently, Representative Nancy Pelosi eloquently stated the House 
of Representative's order of business when the Democrats gained the 
majority. At the top of the list was enactment of all the 
recommendations made by the 9/11 Commission. Another point she made was 
that no program shall advance if it increases the Federal deficit. 
Implementation of the DRA 05, as written, supports both of these goals 
by improving public safety communications and by providing additional 
resources to the U.S. Treasury for deficit reduction.
    In sharp contrast, Cyren Call's proposal would only advance its own 
interests, potentially at the expense of family farmers and rural 
residents who live in communities that are currently underserved by 
advanced telecommunications technologies and services. It would derail 
Congress's carefully thought-out plan and current time line for the 
conversion to digital TV. It would delay the timely allocation of 
spectrum for public safety communications and other important public 
benefits.
    Thank you for your consideration of the views of the National 
Grange in opposition to Cyren Call's proposal for a Public Safety 
Broadband Trust. The National Grange believes that the public interest 
will best be served if the FCC implements, as enacted, Congress's well-
orchestrated digital TV provisions outlined in the DRA 05. These 
provisions will result in new commercial applications of spectrum that 
hold out a promise of more robust, more reliable and more consistent 
service coverage for rural and farming communities that are currently 
underserved by existing advanced telecommunications technologies.
            Sincerely,
                                              Leroy Watson,
                                              Legislative Director,
                  National Grange of the Order of Patrons of Husbandry.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                           Charles L. Werner
    Question 1. Both CTIA and the FCC suggest that a national broadband 
network can be built on 12 of the 24 megahertz that public safety is 
currently expected to receive following the DTV transition. Why do you 
believe an additional 30 megahertz is needed? What effect would an 
additional allocation have on the use of other public safety bands?
    Answer. The International Association of Fire Chiefs (IAFC) is a 
governing board member of the National Public Safety Telecommunications 
Council (NPSTC) which has commented on the Federal Communications 
Commission (FCC) PS Docket No. 06-229, WT Docket 96-86, Ninth Notice of 
Proposed Rule Making regarding this issue. I have attached a copy of 
this document, which completely answers your question.
                                 ______
                                 
                               Before the
                   Federal Communications Commission
                         Washington, D.C. 20554




In the Matter of          )
                          )                       PS Docket No. 06-229
Implementing a            )                       WT Docket 96-86
 Nationwide, Broadband,
Interoperable Public      )
 Safety Network in
The 700 MHZ Band          )
                          )
The Development of        )
 Operational, Technical
and Spectrum
 Requirements for
 Meeting
Federal, State and Local
 Public Safety
Communications
 Requirements Through
 the
Year 2010


   Comments of the National Public Safety Telecommunications Council
    The National Public Safety Telecommunications Council (NPSTC) 
submits these comments in response to the Commission's Ninth Notice of 
Proposed Rulemaking (Ninth NPRM) in the above proceedings.\1\ The Ninth 
NPRM proposes rule changes that the Commission believes would promote 
deployment of a centralized public safety nationwide broadband network 
utilizing the 12 MHZ wideband segment channels in the 700 MHZ band 
currently allocated to local and state agencies through the regional 
planning process. The network would encompass Internet Protocol based 
system architecture and be administered by a nationwide licensee.
---------------------------------------------------------------------------
    \1\ Implementing a Nationwide, Broadband Interoperable Public 
Safety Network in the 700 MHZ band and In the Matter of the Development 
of Operational, Technical and Spectrum Requirements for Meeting 
Federal, State and Local Public Safety Communications Requirements 
Through the Year 2010, Ninth Notice of Proposed Rulemaking, PS Docket 
No. 06-229, WT Docket 96-86, FCC 06-181 (December 20, 2006).
---------------------------------------------------------------------------
    It has become increasingly apparent to NPSTC that deployment of a 
nationwide public safety broadband network is enormously important for 
emergency responders at all levels of government: local, state and 
Federal. It will be an essential tool for addressing the expanded 
domestic defense and emergency response obligations of all public 
safety agencies. Such a proposal is not a substitute for present land 
mobile assignments, including the current 700 MHz narrowband spectrum, 
that provide for public safety mission critical voice communications. 
However, a data network will serve growing critical needs if it meets 
the expectations that the 700 MHz public safety segment has portended; 
it must encompass advanced data services that will also include Voice 
over Internet Protocol (VoIP) capabilities that will provide a vital 
backup to public safety mission critical land mobile voice systems; it 
must conquer the historical public safety challenge of satisfying the 
most critical communications requirements with highly limited or no 
resources; and it must be available to all agencies, small or large, 
wealthy or poor, rural, suburban or urban.
    NPSTC believes that these attributes translate to five principles 
which the Commission must address if it is to provide a meaningful 
response to the current public safety communications situation: 
universal access by all agencies, sufficient spectrum to ensure 
commercial investment and public/private coexistence on a shared data 
network, a modern data network built to public safety standards and 
able to accommodate changing requirements, a governance structure 
ensuring public safety community control and standards and protection 
of mission critical voice spectrum from interference. We do not believe 
these attributes can be realized if public safety is limited to the 12 
MHZ of its existing 700 MHZ allocation as proposed in the Ninth NPRM. 
Also, we do not believe that secondary use of the narrowband spectrum 
provides any meaningful spectrum supplement for broadband use because 
the areas of the country where there will be the greatest demand for 
broadband are the same areas where the narrowband voice channels will 
be fully utilized once the spectrum is cleared and systems are 
implemented. We also have serious questions regarding the near-term 
viability of the cognitive technologies that would be necessary for 
such broadband/narrowband spectrum sharing.
    The Commission, Congress, Administration, public safety and private 
interests now have a short opportunity to enact and structure a 
nationwide broadband network that will satisfy the five principles 
identified above. Unless these principles prevail, the opportunity will 
be lost and public safety communications will deteriorate further, with 
many agencies left behind. Set forth below is NPSTC's path to a 
nationwide broadband network that will improve communications 
dramatically and bring the unity that is vitally necessary to public 
safety operations.
The National Public Safety Telecommunications Council
    NPSTC serves both as a resource and advocate for public safety 
organizations in the United States on matters relating to public safety 
telecommunications. NPSTC is a federation of public safety 
organizations dedicated to encouraging and facilitating, through its 
collective voice, the implementation of the Public Safety Wireless 
Advisory Committee (PSWAC) and the 700 MHZ Public Safety National 
Coordination Committee (NCC) recommendations. NPSTC explores 
technologies and public policy involving public safety agencies, 
analyzes the ramifications of particular issues, and submits comments 
to governmental bodies with the objective of furthering public safety 
communications worldwide. NPSTC serves as a standing forum for the 
exchange of ideas and information for effective public safety 
telecommunications. The following 13 organizations participate in 
NPSTC:

        American Association of State Highway and Transportation 
        Officials

        American Radio Relay League

        American Red Cross

        Association of Fish and Wildlife Agencies

        Association of Public-Safety Communications Officials--
        International

        Forestry Conservation Communications Association

        International Association of Chiefs of Police

        International Association of Emergency Managers

        International Association of Fire Chiefs

        International Municipal Signal Association

        National Association of State Emergency Medical Services 
        Officials

        National Association of State Telecommunications Directors

        National Association of State Foresters

        National Association of State Telecommunications Directors

    Several Federal agencies are liaison members of NPSTC. These 
include the Department of Agriculture, Department of Homeland Security 
(SAFECOM Program and the Federal Emergency Management Agency), 
Department of Commerce (National Telecommunications and Information 
Administration), Department of the Interior, and the Department of 
Justice (National Institute of Justice, CommTech Program).
Current Proposals Addressing Broadband
    The Ninth NPRM is the most recent in a series of Commission 
proceedings that address the optimal use of this critical portion of 
the spectrum. In addition to this proposal for deployment of a 
nationwide broadband public safety network, the Commission also has 
open proceedings in which it is examining the structure of the 700 MHz 
public safety allocation, the reallocation of certain 700 MHz guard 
band segments and service rules for the yet-to-be auctioned 700 MHz 
commercial allocation. These converging proceedings present a pivotal 
opportunity to propose the 700 MHz capacity needed to support an 
economically viable, sustainable, nationwide, broadband public safety 
network, if sufficient spectrum is made available to do so. By 
examining these proposals one can discern a path that reflects the 
principles identified herein and that will thereby unify public safety 
communications while providing commercial interests a viable 
opportunity to invest in and use the network.
    The Commission first began to explore how to provide broadband 
capability for public safety from the current 700 MHz wideband and 
guard band segments while preserving local discretion in choosing 
whether the spectrum would be utilized for broadband or wideband 
applications.\2\ Public safety input to that proceeding was clear that 
the Commission needs to provide the option to choose wideband or 
broadband solutions within the current 700 MHz data spectrum as 
requirements dictate. Under the Access Spectrum/Pegasus proposal,\3\ 
the current 4 MHz B Block guard band would be eliminated, with 3 MHz 
placed in the public safety segment and 500 kHz paired channels moved 
to the A Block guard band, which would be relocated adjacent to the 
spectrum added to the public safety segment. This spectrum is from two 
sources: of the 52 B Block licenses, 42 are held by the Commission as a 
result of the 800 MHz reconfiguration, having originally been licensed 
to Nextel, with the remaining 10 licenses held by Access Spectrum, 
Pegasus, and others, who seek compensation for relinquishing these 
licenses.
---------------------------------------------------------------------------
    \2\ In the Matter of the Development of Operational, Technical and 
Spectrum Requirements for Meeting Federal, State and Local Public 
Safety Communications Requirements Through the Year 2010, Eighth Notice 
of Proposed Rulemaking, WT Docket 96-86, FCC 06-34 (March 21, 2006) and 
In the Matter of Former Nextel Communications, Inc. Upper 700 MHZ Guard 
Band Licenses and Revisions to Part 27 of the Commissions Rules, WT 
Docket No. 06-169 and Development of Operational, Technical and 
Spectrum Requirements for Meeting Federal, State and Local Public 
Safety Communications Requirements through the Year 2010, WT Docket No. 
96-86, Notice of Proposed Rulemaking (NPRM), FCC 06-133 (September 8, 
2006).
    \3\ Access Spectrum and Pegasus are current holders of 700 MHZ 
guard band licenses.
---------------------------------------------------------------------------
    A consensus among public safety organizations has emerged embracing 
the Access/Pegasus proposal while recognizing its inherent limitations. 
NPSTC believes this proposal should be adopted, regardless of the 
licensing structure ultimately chosen for the existing data spectrum 
because it helps minimize interference to the 700 MHZ narrowband voice 
spectrum. However, even with the reconfiguration that Access Spectrum 
and Pegasus have proposed, the resulting spectrum is still far short of 
that needed for a nationwide broadband network and the regulatory 
structure proposed by the Commission would not support deployment of 
such a network. As noted above, local officials need the discretion 
afforded by the regional planning process to use the current 700 MHZ 
data segment for either broadband or wideband operations, as addressed 
in responses to the previous Eighth NPRM. It preserves for local 
officials, whose governments must assume associated capital and 
operating costs, the decision whether to pursue a more resource-
demanding broadband network or more cost efficient wideband network. 
The discretion is particularly important to rural agencies facing large 
coverage and topology challenges where the costs for local governments 
makes implementation of wideband coverage more achievable than the 
advanced services broadband will provide.
    By contrast, any nationwide broadband network, of necessity, must 
be uniform in design and deployment. It must be available to all 
agencies; otherwise it will not unify public safety but further divide 
it. For this reason, it must be in addition to, not a replacement for, 
the systems that will be deployed on the current 700 MHZ wideband 
segment, as enhanced by the Access Spectrum/Pegasus proposal.
    It is in this context that NPSTC, and the public safety community, 
has embraced the Public Safety Broadband Trust (PSBT) proposal.\4\ The 
PSBT proposes that 30 MHZ of the yet-to-be auctioned spectrum in the 
upper 700 MHZ band be committed to public safety communications for a 
nationwide interoperable broadband network. A trust, organized, 
populated and controlled by the public safety community, would be 
established to administer these channels and develop funding sources to 
build and maintain the network. To that end, private entities would 
lease access to the spectrum from the trust in a shared government/
commercial environment; the leasing revenue would fund building, 
maintaining and upgrading the network and also repay monies borrowed 
against Federal loan guarantees to compensate the Treasury for foregone 
auction revenue. The PSBT would establish the technical parameters of 
the network to ensure public safety standards, pervasive 
interoperability among agencies and open architecture. It presents a 
governing body embracing public safety representation and a management 
structure promoting public/private spectrum use.
---------------------------------------------------------------------------
    \4\ Consumer and Governmental Affairs Bureau Reference Information 
Center, Petition for Rulemakings Filed, Report No. 2794, RM 11348, Part 
27, Cyren Call Communications Inc., In the Matter of Communications 
Reallocation of 30 MHZ of Corporation 700 MHZ Spectrum (747-762/777-792 
MHZ) from Commercial Use (October 30, 2006), Dismissed, Order, DA 06-
2278 (November 3, 2006).
---------------------------------------------------------------------------
    Critically, the PSBT approach presents a path toward a nationwide 
public safety broadband network because it addresses the systemic 
under-funding of government radio systems on an ongoing basis. It will 
be able to do so, however, only if there is sufficient spectrum to 
attract commercial interest to invest in a shared government/commercial 
network. The shared environment that would emerge provides adequate 
spectrum to protect all interests and a funding base to construct and 
maintain the network, a forceful incentive for coexistence. It is this 
essential element that is absent in the Ninth NPRM which proposes only 
12 MHZ of already allocated public safety 700 MHZ spectrum for this 
critical purpose.
    NPSTC recognizes that the PSBT concept will require Congressional 
approval not to auction the 30 MHZ of the 60 MHZ of commercial 700 MHZ 
spectrum. It will require Congressional enactment allowing the PSBT to 
borrow monies to pay the Treasury the revenues that would have come 
from auction. While the concept is opposed by commercial interests that 
seek to purchase the spectrum, the PSBT proposal presents the best path 
to unify public safety services, its premise being to offer a new, 
exciting and achievable path to solving the challenges of future public 
safety communications.
    The Ninth NPRM has some of the same characteristics as the PSBT. 
However, there are also several important and decisive differences. 
Most critically, instead of 30 MHZ, the nationwide network proposed in 
the Ninth NPRM would consist of only 12 MHZ. With a spectrum segment so 
small, it provides no realistic means to build and maintain an advanced 
broadband network. Its pay-as-you-go format continues the status quo in 
a sector that is perennially under-funded. Its Commercial Mobile Radio 
Service (CMRS) model approach ignores and would dangerously compromise 
the diversity, redundancy, security and universal obligations of public 
safety communications. Its reliance on cognitive technologies is 
untested in any public safety scenario.
    The inadequacy of spectrum in this proposal culminates in its most 
serious flaw. NPSTC is firmly convinced that commercial interests will 
have no incentive to invest in the network. NPSTC has made inquiries of 
private interests regarding commitments to invest and use the spectrum 
under the circumstances proposed by the Ninth NPRM. Responses were 
negative and premised on the lack of adequate spectrum to coexist with 
public safety given the preemptible status of commercial service on the 
network. The use of 12 MHZ simply will not provide even the capacity to 
accommodate the enormous expansion of domestic defense and emergency 
responsibilities of local, state, and Federal Government agencies, much 
less present viable opportunities for shared commercial usage.
    Without commercial investment to support the build-out and 
maintenance of the network, the burden will fall to state and local 
governments under the pay-as-you-go format. Faced with ever-increasing 
burdens to protect our homeland this is neither realistic nor 
achievable. Under the Ninth NPRM concept no nationwide public safety 
broadband network will ever be built. Deploying and maintaining a 
nationwide broadband network consistent with public safety standards, 
generating revenues to assure universal access, promoting public/
private use and possessing the ability to respond to emergent 
circumstances requires a focused and accountable structure that the 
Ninth NPRM cannot deliver.
The Opportunity
    NPSTC believes that within the PSBT concept, the Access Spectrum/
Pegasus guard band proposal, and the Ninth NPRM is a path to a 
nationwide public safety broadband network that will improve quality 
and coverage and unify public safety. The path embraces universal 
access, sufficient spectrum to ensure commercial investment and 
participation, capital and operational resources ensuring an enduring 
modern nationwide broadband network and a governance structure ensuring 
public safety community control, emergency response standards and 
management expertise and efficiency. The foundation for the path is the 
dedication of spectrum that is adequate to support the initiative.
    This path requires action by the Congress, Administration and the 
Commission. The public safety controlled PSBT must have the requisite 
statutory or regulatory authority to assume daily management of the 
spectrum, finance the deployment and pay the Treasury for the value of 
spectrum intended for auction, with discretion to take such action as 
necessary to respond to expanded or emergent needs, all subject to the 
Commission's regulatory authority and to Congressional oversight.
    The interests of all parties desiring access to the 700 MHZ band 
can converge to secure this short-lived opportunity. Public safety can 
be convinced to embrace a shared environment if the nationwide 
broadband network is available to all agencies for the full range of 
uses and environments that agencies encounter daily and if operations 
are protected. Private investment and commercial use will ensue where 
adequate capacity and reliability is present. An accountable PSBT can 
ensure through supervision and incentive, that cognitive radio 
technology is eventually possible in both public and commercial 
environments, subject to appropriate testing. For the first, and 
perhaps last time in our history, adequate spectrum resources combined 
with concepts the Commission has under consideration make a nationwide 
public safety broadband network possible.
Summary
    NPSTC recognizes the reality that the expectations and economic 
value of those pursuing the yet to be auctioned 700 MHZ band compete 
with providing a nationwide public safety broadband network. The 
Commission's Ninth NPRM initiated an examination of how these seemingly 
competing objectives can be reconciled. NPSTC believes that the core 
principles enumerated above set the proper course and that these 
interests can ultimately converge.
    NPSTC's plea is that the interests involved and the consideration 
by the Congress, the Commission and the Administration comprehend 
another reality. Current public safety operations are complex and 
difficult, hindered by lack of resources, where dangerous delays and 
disruption lurk. Congestion of public safety communications channels 
pervades virtually every urban and suburban area. The improvements a 
nationwide public safety broadband network will afford will make an 
enormous difference to the effectiveness of deterrence, response and 
investigation. The greatest and most definitive benefit will accrue to 
the citizen who desperately needs help when confronted with an 
emergency.
            Respectfully submitted,
                                          Vincent R. Stile,
                                                         Chair,    
                                                National Public Safety 
                                            Telecommunications Council.
February 26, 2007
                                 ______
                                 
                               Before the
                   Federal Communications Commission
                         Washington, D.C. 20554




In the Matter of          )
                          )                       PS Docket No. 06-229
Implementing a            )                       WT Docket 96-86
 Nationwide, Broadband,
Interoperable Public      )
 Safety Network in
The 700 MHZ Band          )
                          )
The Development of        )
 Operational, Technical
and Spectrum
 Requirements for
 Meeting
Federal, State and Local
 Public Safety
Communications
 Requirements Through
 the
Year 2010


Reply Comments of the National Public Safety Telecommunications Council
    The National Public Safety Telecommunications Council (NPSTC) 
submits these reply comments addressing the Commission's Ninth Notice 
of Proposed Rulemaking (Ninth NPRM) in these proceedings.\1\ The Ninth 
NPRM proposes a centralized interoperable public safety national 
broadband network that will be shared with commercial interests. It 
proposes to use the 12 MHZ wideband segment currently allocated to the 
public safety service in the 700 MHZ band.
---------------------------------------------------------------------------
    \1\ Implementing a Nationwide, Broadband Interoperable Public 
Safety Network in the 700 MHZ band and In the Matter of the Development 
of Operational, Technical and Spectrum Requirements for Meeting 
Federal, State and Local Public Safety Communications Requirements 
Through the Year 2010, Ninth Notice of Proposed Rulemaking, PS Docket 
No. 06-229, WT Docket 96-86, FCC 06-181 (December 20, 2006).
---------------------------------------------------------------------------
    The benefit and need for a public safety broadband network is 
endorsed by cellular carriers, equipment manufacturers, public safety 
agencies and organizations. While embracing this essential objective; 
the comments diverge regarding how to attain the goal. The divide 
centers on whether public safety agencies need additional spectrum. 
Cellular carriers, pursuing the remaining 60 MHZ of the 700 MHZ band 
through the auction process, oppose any additional allocation; 
asserting that public safety's current allocation is adequate.
    NPSTC believes that additional spectrum is crucial to meeting 
public safety's expanded responsibilities. It is critical to the 
technical and economic viability of the Commission's proposal. The 
Commission should reject the static position that denies the enormous 
expansion of domestic defense and emergency response responsibilities. 
It should pursue a path providing additional spectrum for a broadband 
network capable of delivering improvements paralleling today's 
challenge.
Summary of Comments
    Interests supporting the Ninth NPRM's premise that 12 MHz is 
sufficient for a public/private network include cellular carriers, 
broadband equipment providers and their trade associations.\2\ Several 
oppose any additional spectrum for public safety communications.\3\ 
These interests also recommend relocating current public safety 
narrowband voice channels but object to the proposal of guard band 
licensees to provide additional channels to public safety.\4\
---------------------------------------------------------------------------
    \2\ Comments of Verizon Wireless, AT&T, MetroPCS Communications, 
Alcatel-Lucent, the Cellular Telecommunications Internet Association 
(CTIA) and Consumer Electronics Association (CEA).
    \3\ Comments of AT&T, MetroPCS Communications, CTIA and CEA.
    \4\ Comments of Verizon, AT&T, Alcatel and CTIA.
---------------------------------------------------------------------------
    In contrast, public safety agencies and other interests state that 
12 MHZ is inadequate to support public safety operations and cannot 
additionally accommodate commercial interests, reflecting, as APCO 
indicates, the proposal's ``fatal'' flaw.\5\ Many public safety 
comments emphasized that eliminating the wideband channels diminishes 
the options and flexibility afforded to local officials.\6\ Secondary 
operation by commercial interests on the 12 MHZ public safety segment 
was strongly challenged.\7\ The guard band licensee proposal to provide 
public safety additional channels was endorsed.\8\ Several comments 
challenged the ability of the commercial radio service (CMRS) model to 
meet public safety standards of universal coverage, redundancy, 
diversity and reliability.\9\ Several parties noted that the Public 
Safety Broadband Trust (PSBT), in contrast to the Ninth NPRM, is a 
viable technical and economic proposal.\10\
---------------------------------------------------------------------------
    \5\ Comments of the City of Philadelphia, Region 22 Planning 
Committee, Metropolitan Washington Airports Authority, Association of 
Public Safety Officials, International (APCO), Northrop Grumman, 
GEOCommand, RCC, Spectrum Coalition and Cyren Call.
    \6\ Comments of the City of Philadelphia, Region 22 Planning 
Committee, Dataradio, M/A Com, Motorola, Northrop Grumman, Spectrum 
Coalition and APCO.
    \7\ Comments of the Telecommunications Industry Association.
    \8\ Comments of Region 39 700 MHZ Committee, Region 22 Planning 
Committee, Dataradio, Access Spectrum/Pegasus, Missouri Highway Patrol, 
Frontline Wireless.
    \9\ Comments of Dataradio, Northrop Grumman, RCC, Spectrum 
Coalition.
    \10\ Comments of APCO, Region 22 Planning Committee.
---------------------------------------------------------------------------
    Equipment manufacturers Dataradio, M/A Com and Motorola discussed 
the importance of flexibility for local operations and addressed these 
requirements in the context of band alignment. Northrop Grumman stated 
that the viability of the proposal is so tenuous it would delay access 
to the 700 MHZ band. Cyren Call reiterated its PSBT proposal that would 
use 30 MHZ of the yet to be auctioned 700 MHZ band for a public/private 
broadband network; Frontline Wireless proposed that a new E Block of 10 
MHZ be established from this spectrum to serve public safety agencies 
and carriers.
    NPSTC's position is more than a simple plea for additional spectrum 
for public safety. It recognizes the technical challenges pervading the 
band yet the opportunities and efficiencies presented by broadband 
technology. We have pursued policies throughout the 700 MHz proceedings 
that promote not only the coexistence of services but a complementary 
environment benefiting all interests. While our review of the comments 
is biased toward those presenting positive contributions to public 
safety's challenges, an important element is the benefits that can 
accrue across all users.
Additional Spectrum is Integral to a Nationwide Public Safety Broadband 
        Network
    Assertions that public safety has adequate spectrum are insulated 
from the reality facing the Nation's emergency services. The cellular 
deployment experience has neither the history nor the challenges and 
should not serve as the justification to deny public safety additional 
spectrum. No commercial carrier has channels spread over ten frequency 
bands that vary widely in propagation characteristics, and often 
needing the use of multiple bands simultaneously at an incident scene. 
Nor has any carrier faced an almost 50 year history of regulatory 
direction to reduce channel size, a direction counter to broadband 
delivery. In their comments for this proceeding, the Consumer 
Electronics Association and High Tech DTV Coalition have made reference 
to the Criterion Economics paper released on February 6, 2007 and 
entitled ``Improving Public Safety Communications: An Analysis of 
Alternative Approaches.'' This paper, prepared at their expense, was 
developed to primarily support their assertions that public safety does 
not need more spectrum and distorts facts concerning the history and 
intended purpose of the 24 MHz of public safety spectrum allocated by 
Congress in the Balanced Budget Act of 1997. We urge the Commission to 
review the March 7, 2007 report of Cyren Call Communications entitled 
``Setting the Record Straight: A Critique of Criterion Economics' 
Improving Public Safety Communications: An Analysis of Alternative 
Approaches.'' \11\ In our view this paper does an excellent job of 
explaining the true history of public safety communications and the 
vast difference of needs between public safety and commercial systems.
---------------------------------------------------------------------------
    \11\ ``Setting the Record Straight: A Critique of Criterion 
Economics' Improving Public Safety Communications: An Analysis of 
Alternative Approaches'' prepared by Cyren Call Communications 
Corporation (March 7, 2007).
---------------------------------------------------------------------------
    Unlike the cellular carriers, public safety agencies face widely 
varying geographic and population requirements where they must provide 
service. Broad geographic areas must be covered efficiently for a small 
number of users, requiring relatively high power handsets or other 
mobile receivers as compared to the cellular environment. Public safety 
cannot tolerate denied access, garbled transmissions or dropped calls. 
These values translate to substantially higher standards of reliability 
for the infrastructure and equipment. The cost is not only additional 
investment, which is consistently under funded, but often results in 
diminishing of network capacity. The result is an achieved value and 
not an indication that public safety uses its spectrum inefficiently.
    Added to this environment is that today's first responder works in 
a world transformed by the September 11, 2001 attacks and the recent 
hurricanes. The 9/11 Commission's recommendation of additional public 
safety spectrum was not misinformed but grounded on the enormous 
enlargement of state and local government responsibilities. It 
recognized the widening gap between the responsibilities of local, 
state and Federal agencies for domestic security, emergency 
preparedness and radio resources. Of the many policy and technical 
decisions faced by the Commission in this proceeding, the amount of 
spectrum dedicated to public safety is the key to meeting these 
challenges.
    The current structure of the public safety services, including the 
700 MHZ public safety allocation, provides local governments, who must 
pay for the networks capital and operating costs, wide discretion. This 
is consistent with the national framework committing the management and 
financing of public safety responsibilities to local government. 
Contentions that the CMRS history should be either a model showing 
inefficient public safety spectrum use or the path to deliver public 
safety services are wrong. Instead, what emerges is a blind allegiance 
to commercial control of the remaining 60 MHZ of 700 MHZ and a deep 
discounting of what this spectrum can provide to emergency response.
Failing to Provide Additional Spectrum While Eliminating Current 
        Flexibility and Discretion in the 700 MHZ Public Safety Segment 

        Presents Significant Risks
    Removing the 12 MHZ from its intended use and mandating a broadband 
network will come at significant cost and create substantial risk. It 
will remove local officials with primary responsibility for public 
safety from determining how radio resources should assist their 
operations. Comments in support of the Ninth NPRM ignore that wideband 
is appreciably more affordable and effective for many agencies, 
especially in less densely populated areas. This is particularly 
critical when the only funding comes from local, state and Federal 
taxpayers. The comments also improperly discount the proposal of the 
guard band licensees to increase flexibility and discretion to shape 
communications to respond effectively.
    The importance of the guard band licensee proposal is in what it 
provides and in its underpinnings. It adds crucial flexibility allowing 
local agencies to choose more cost efficient wideband channels or the 
expanded services accompanying broadband. Underlying the proposal is an 
extensive technical analysis demonstrating its ability to protect 
against interference between and among services while promoting more 
efficient use for public safety and commercial users. It presents a 
fundamental premise of how services cannot only coexist but complement 
one another.
    Significantly, contrary to comments urging only the relocation of 
the public safety narrowband channels to obtain purported adjacent 
channel compatibility, the guard band licensee proposal resolves 
challenges from Canadian broadcast operations to U.S. border agencies. 
The opposing comments do not, and in failing to do so present severe 
interference challenges to border agencies in the use of the 700 MHZ 
narrowband voice interoperability channels.
    The risk accompanying simply redesignating the 12 MHZ as broadband 
becomes more profound by the uncertainty of private sector 
participation and investment. Its fragile and tentative state is 
starkly shown as not one commercial interest filed a comment stating 
that it will use the band or invest in it. Similarly, no comment 
supporting the proposal addressed or refuted the several objections 
that commercial broadband operations, with secondary authority 
throughout the public safety segment, present serious interference 
challenges, particularly to public safety's narrowband voice channels. 
Much diluted local discretion, substantially increased interference 
challenges, and an economic model that is not viable, go in a direction 
opposite of the important goal of an interoperable broadband network 
providing advanced services to all agencies.
The Justification for Additional Spectrum
    NPSTC urges the Commission to pursue assisting public safety in 
efforts to rescue spectrum from the yet to be auctioned 700 MHZ. We do 
not believe a viable network can be deployed and used without it.
    The path commences with adopting the guard band licensee proposal 
to add channels to the public safety segment. It requires analyzing not 
only coexistence but how infrastructure and equipment across various 
services can complement one another to the benefit of all. The PSBT 
proposal is at the forefront of how to approach this challenge. The 
Frontline Wireless proposal should also be given further close 
examination. While we are waiting for additional details from the 
proponents, we believe there are a number of issues that, from our 
perspective, need to be addressed. Under the Frontline proposal, the 
selection of the operator for a nationwide public safety broadband 
network would not be made by public safety and not by Congress or the 
FCC; rather it would be a matter of who puts the highest dollar number 
on the table. It seems to us that a vitally important decision is being 
left to chance. Without regard to whether this operator understands the 
unique requirements of public safety, the operator would be given 
exclusive rights to share capacity on public safety's 12 MHZ. If the 
operator runs into financial trouble, public safety could be sitting 
across the table bargaining with an operator with the sole objective of 
recovering the highest percentage of their money. The Frontline 
proposal seems to permit the outcome that if no agreement is reached 
after negotiations with public safety, the E block licensee would then 
have the chance to build out ``commercial only'' facilities on whatever 
basis it chooses, thus defeating the purpose of the ``set aside'' in 
the first place. The commercial operator would be the spectrum licensee 
of the E block, the system operator, and it would have the exclusive 
right to access the public safety spectrum on a shared basis. This 
combination would give too much negotiating leverage when it bargains 
with public safety to discuss shared facilities. Particularly since it 
has a great chance of keeping and using the spectrum if no deal is 
reached, the winner will have no incentive to bargain in good faith 
with public safety.
    NPSTC urges the Commission to cross the barrier so clearly 
delineated in the comments and move public safety and commercial 
interests to higher standards. What is presented is the opportunity to 
provide the spectrum resources parallel to the magnitude of 
responsibility public safety faces while preserving the opportunities 
to commercial interests the band presents.
Conclusion
    NPSTC urges the Commission to address the need to provide public 
safety agencies at all levels of government the additional spectrum in 
the 700 MHZ band required for a viable nationwide broadband network 
that can assist all agencies. It should reject the myth of those 
challenging the needs of public safety and who would prefer to keep the 
value of that spectrum for their own interests.
            Respectfully submitted,
                                          Vincent R. Stile,
                                                         Chair,    
                                                National Public Safety 
                                            Telecommunications Council.
March 12, 2007

    Question 2. The President's FY 2008 Budget for the Department of 
Homeland Security proposes to reduce State and Local Preparedness 
Grants by over 30 percent from $2.7 million to $1.9 million and to 
reduce Firefighter Grant Assistance by over 50 percent, from $662,000 
to $300,000. Chief Werner, could you briefly discuss the impact these 
cuts would have on state and local first responders?
    Answer. The President is requesting $300 million for the Assistance 
to Firefighters Grant Program (commonly known as the ``FIRE Act''), a 
2.4 percent increase from the Administration's proposal last year. The 
President is also requesting $0 for the Staffing for Adequate Fire and 
Emergency Response (SAFER) Act grant program. These proposed funding 
levels represent a significant decrease from the $547 million for FIRE 
and $115 million for SAFER that Congress appropriated for FY 2007.
    In addition, the President requested $250 million for grants 
through the State Homeland Security Grant Program (SHSGP). This request 
also represents a significant decrease from the $525 million 
appropriated by Congress for FY 2007.
    The IAFC urges Congress to fully fund the FIRE and SAFER Act grant 
programs. According to the U.S. Fire Administration's report, ``Four 
Years Later--A Second Needs Assessment of the U.S. Fire Service,'' 
there are still major shortages in the basic requirements of America's 
fire service. For example:

  <bullet> An estimated 42 percent of volunteers serving in communities 
        with less than 2,500 people serve in departments that are 
        involved in structural firefighting but have not formally 
        trained all involved firefighters in those duties.

  <bullet> An estimated 36 percent of fire departments are involved in 
        delivering emergency medical services (EMS) but have not 
        provided formal training in those duties to all involved 
        personnel.

  <bullet> An estimated 65 percent of fire departments do not have 
        enough portable radios to equip all emergency responders on a 
        shift.

  <bullet> An estimated 60 percent of fire departments do not have 
        enough self-contained breathing apparatus (SCBA) to equip all 
        firefighters on a shift.

  <bullet> An estimated half (48 percent) of fire departments do not 
        have enough personal alert safety system (PASS) devices to 
        equip all emergency responders on a shift.

    It is important that the FIRE and SAFER grant programs be fully 
funded to meet these basic needs.
    In addition, we have concerns about the proposal in the President's 
budget to limit the use of FIRE grant funding for training, equipment 
and personal protective gear. The President has proposed this change in 
prior fiscal years, however each time Congress made sure that the funds 
could be used for all hazards and for all types of programs, including 
wellness and fitness, fire prevention, public education, and 
modifications of facilities for the health and safety of personnel, as 
the original legislation intended. We urge Congress to continue to make 
sure that FIRE grant funding can be used for all of the legislatively-
authorized categories.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Charles L. Werner
    Question 1. Are you aware if manufacturers of P25 compliant radios 
have any discretion with respect to conforming to the standard? If so, 
what features of P25 radio are subject to manufacturer's discretion?
    Answer. To my knowledge, if a radio is to be P25 compliant, there 
is no discretion to conforming to the standard.

    Question 2. To the best of your knowledge, have there been 
instances where certain features of P25 compliant radios from one 
manufacturer were not interoperable with P25 compliant equipment from 
another manufacturer?
    Answer. Not that I am aware but recently, radios that were 
supposedly P25 compliant were found not to be through NIST tests. It is 
a complicated standard and it is even harder for the lay public safety 
responder to understand and validate.

    Question 3. Is there a conformance test for P25 radios that is 
available today for manufacturers?
    Answer. I believe that NIST has developed a test to validate 
compliance. I recommend that you contact Mr. Derek Orr at NIST 
regarding additional information about P25.

    Question 4. Have there been emergency situations you are aware of 
where a first responder has stated a preference for using analog radios 
instead of digital radios?
    Answer. Yes, while the digital radios offer many new functional and 
safety features as well as more efficient use of spectrum, analog 
offers a clearer voice audio during many fireground operations. Loud 
noises can create interference and potentially unintelligible audio 
voice in digital radios.

    Question 5. Do you see a role for analog mutual aid channels in the 
large scheme of achieving interoperable communications?
    Answer. Many are in operation today and will be into the 
foreseeable future. Bridge technology is available and in operation 
today to connect disparate systems in a planned mutual aid environment.

    Question 6. Is there a standard for public safety personnel to 
exchange data? For exchanging video? Should any standards developed be 
open standards? What is the danger of not having open standards?
    Answer. There are standards being developed (Emergency Data 
Exchange Language--EDXL) as part of the Global Justice initiative. They 
are open standards which are crucial to future success and 
interoperability between devices.

    Question 7. Many communities rely on the Department of Homeland 
Security's SAFECOM guidance in guiding purchase and requests related to 
facilitating interoperable communications. Do you believe that 
historically DHS has focused too much on hardware solution? Do you 
believe that DHS guidance in the past has chilled local governments 
from pursuing IP-based solutions?
    Answer. SAFECOM has developed a ``Continuum'' to describe the route 
to interoperability. Technology is only a part of that solution. The 
first effort, and probably the most significant, is governance. As to 
IP-based solutions, the technology at this time is not advanced 
sufficiently to be useful for voice mission-critical public safety 
wireless radio communications. This also includes the fact that the 
wireless networks are not made to the reliability and redundant 
standards of public safety systems. However, a wireless network that is 
designed under the guidance of the Public Safety Broadband Trust may 
lead to a network appropriate for these technologies.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Charles L. Werner
    Question 1. Can you provide the Committee with an update on the 
costs and status of interoperable systems in the existing public safety 
spectrum bands?
    Answer. There are approximately 55,000 public safety communications 
operations in the United States. Each one is different with different 
operational requirements and at different levels of financial ability. 
The status of interoperable systems in the existing public safety 
spectrum bands is available from SAFECOM from a recently completed 
survey of public safety agencies.

    Question 2. Has the public safety community conducted studies 
showing the condition of interoperability nationwide today, matching 
that interoperability to existing spectrum allocations, and how much 
additional spectrum is needed overall?
    Answer. The SAFECOM Baseline study on interoperability, recently 
completed, provides information on status of interoperability today. 
The Public Safety Wireless Advisory Committee Report submitted to the 
FCC and NTIA on September 11, 1996 provides detailed information on how 
much additional spectrum is needed overall for public safety. I 
referred to this report in my testimony.

    Question 3. The new broadband network that is envisioned would need 
enough capacity for both government and commercial use. In any given 
day, how much capacity would need to be dedicated to public safety vs. 
commercial use? Would public safety's capacity needs on this network 
likely increase as time went by?
    Answer. I think on a daily basis, the demand would be much like 
that of the commercial market. During a serious incident a much higher 
demand would be needed for the initial time immediately following an 
incident/event.
    I think that the increased use will occur but such that the 
technology and network will increase but similar to that of the 
commercial subscriber model.

    Question 4. What are some of the special needs of public safety 
that are not available on existing commercial networks?
    Answer. The primary reason public safety does not use voice on 
commercial networks is that commercial networks are generally not built 
to the hardened status that public safety communications networks are 
and that public safety priority for its mission-critical status is not 
assured. Additionally, the commercial network has a drop rate of 2 
percent which is much higher than mission critical voice systems of 
public safety. However a new Public Safety Broadband Trust guided 
network may well change that paradigm.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Harlin R. McEwen
    Question 1. Both CTIA and the FCC suggest that a national broadband 
network can be built on 12 of the 24 megahertz that public safety is 
currently expected to receive following the DTV transition. Why do you 
believe an additional 30 megahertz is needed?
    Answer. First, it is important to understand the background of the 
24 MHz of spectrum assigned to public safety in the upper 700 MHz band.
    In 1995, the Federal Communications Commission (FCC), in concert 
with the National Telecommunications and Information Administration 
(NTIA), established the Public Safety Wireless Advisory Committee 
(PSWAC) to provide an assessment of the communications needs of public 
safety agencies through the year 2010. On September 11, 1996, PSWAC 
released a report setting forth the current and future spectrum needs 
of public safety. Among the findings of the PSWAC report was that 97.5 
MHz of new public safety spectrum was needed by 2010, including 25 MHz 
within 5 years (i.e., by 2001).
    As a result of the PSWAC report, Congress directed the FCC (in the 
Balanced Budget Act of 1997) to allocate no later than January 1, 1998, 
24 MHz of radio spectrum between 746 and 806 MHz (to be recovered from 
television channels 60-69 as a result of the implementation of digital 
television). The FCC then reallocated for public safety use, television 
channels 63, 64, 68, and 69. On August 6, 1998, the FCC created the 
Public Safety National Coordinating Committee (NCC) under the authority 
of the Federal Advisory Committee Act (FACA). The purpose of the NCC 
was to recommend rules for the use of the 24 MHz of spectrum in the 700 
MHz band.
    The NCC, in its final report in July 2003, recommended that half of 
the new spectrum (12 MHz) be designated for urgently needed public 
safety narrowband voice channels, and that the remaining 12 MHz be 
designated for wideband data channels. Since then, significant advances 
in technology have made it desirable to add the option of using 
broadband data channels. To accommodate this there are several new 
plans currently under study by the FCC.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A proposal known as the Public Safety Broadband Trust has been made 
to allocate 30 MHz of additional spectrum for public safety (from C and 
D blocks) to be assigned to a Trust that would be controlled by public 
safety and would enter into public/private partnerships to deploy a 
nationwide broadband public safety network that would also be used for 
commercial broadband communications.
    The current 24 MHz of spectrum already allocated for public safety 
is not sufficient for such a nationwide broadband network because:
    1. Half of the spectrum (12 MHz) is allocated for urgently needed 
narrowband voice and is already licensed and being used by public 
safety agencies in areas where there are no competing television 
broadcasters. Many other agencies have this spectrum in the planning 
process and plan to use it once the television broadcasters have 
vacated the spectrum in February 2009.
    2. The wideband data channels are designated for local and state 
licensing and are being planned for local, regional and state use. As 
an example, one contract already has been approved for a three-county 
wideband system in Minnesota.
    3. The 12 MHz of spectrum designated for data channels is not 
sufficient in capacity to support both public safety and commercial 
services such as proposed for the Public Safety Broadband Trust (PSBT). 
There must be sufficient spectrum for commercial investors to be able 
to offer reliable commercial services that would not regularly be 
disrupted by public safety pre-emption. Without commercial investors 
public safety has no funding mechanism to build a nationwide broadband 
network.

    Question 1a. What effect would an additional allocation have on the 
use of other public safety bands?
    Answer. Most of the existing public safety allocations below 512 
MHz are highly fragmented on very narrow channels that are interleaved 
with users such as construction companies, taxicab fleets and tow truck 
operators. While entirely unsuitable for broadband applications, they 
were designed to and do meet a wide variety of mission-critical public 
safety voice communications requirements that are integral to the 
ongoing responsibilities of public safety officials. The nationwide 
advanced technology interoperable broadband network under consideration 
is not expected to replace these legacy voice systems, at least for the 
foreseeable future, in part because IP-based voice facilities need more 
testing and performance improvement (particularly in the area of 
latency) before they will be deemed to satisfy the rigorous reliability 
requirements of emergency response providers. As individual public 
safety entities elect to migrate more of their traffic to the proposed 
broadband network, it is not unreasonable to expect that some of the 
narrowband voice channels could be abandoned and returned to the 
Commission. However, this is all based upon an assumed build-out of a 
nationwide broadband network such as proposed in the Public Safety 
Broadband Trust.

    Question 2. The President's FY 2008 budget for the Department of 
Homeland Security proposes to reduce State and Local Preparedness 
Grants by over 30 percent from $2.7 million to $1.9 million and to 
reduce Firefighter Grant Assistance by over 50 percent, from $662,000 
to $300,000. Mr. McEwen, could you briefly discuss the impact these 
cuts would have on state and local first responders?
    Answer. The states and localities are depending on the DHS grant 
programs to assist with improving operable as well as interoperable 
public safety communications systems. Unfortunately many of today's 
public safety systems are older analog systems that are close to the 
end of their useful lifecycles. These communications systems are 
inadequate to handle the tremendous demands that are made of public 
safety in their everyday duties as well as disastrous or catastrophic 
events such as a terrorist attack or a major natural disaster. These 
inadequacies are not remedied by software solutions that simply connect 
incompatible networks together. The budget cuts that were proposed will 
delay upgrading systems and will put both first responders and the 
citizenry at additional risk. There is general agreement that bringing 
all the Nation's public safety systems into the 21st century must be a 
priority and that it will take time under the best of circumstances. 
Given this fact, I regret the cuts to the DHS grant programs. The 
justification offered for the cuts has been unpersuasive.
    First, the interoperability funds in the NTIA Public Safety 
Interoperable Communications (PSIC) Grant Program were intended to 
accelerate the use of the new 700 MHz frequencies. By reducing other 
DHS programs to offset the NTIA funding it leaves public safety with no 
net gain. It is robbing Peter to pay Paul. Finally, to claim that there 
is unused funding in the pipeline is misleading. Virtually all that 
funding is allocated to projects underway but not completed. Congress 
should recognize that when it appropriates funding for public systems 
there will be a time period during which the systems are planned, 
procured and installed.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Harlin R. McEwen
    Question 1. Are you aware if manufacturers of P25 compliant radios 
have any discretion with respect to conforming to the standard? If so, 
what features of P25 radio are subject to manufacturer's discretion?
    Answer. The P25 Standard contains mandatory core elements that 
assure interoperability but also allows for manufacturer unique 
features to encourage innovation and the development of new 
applications while maintaining interoperability with other P25 radios. 
P25 radios are tested for compliance at a feature level. All P25 radios 
need not be capable of all the features defined by the P25 standard. 
There are core features that must be included to enable 
interoperability in the standard P25 mode. There are other features 
that are ``optional'' but must meet the standard if included. Finally, 
P25 allows for the inclusion of other features that have not been 
standardized, but no features that are not standard can impede the 
intended interoperability functionality.

    Question 2. To the best of your knowledge, have there been 
instances where certain features of P25 compliant radios from one 
manufacturer were not interoperable with P25 compliant equipment from 
another manufacturer?
    Answer. The P25 standard is a very lengthy and complex set of 
documents and over time it has become apparent that different 
manufacturers in good faith have interpreted certain specific details 
differently.
    There are over 100 localities and 15 states that are operating P25 
systems. Many agencies have successfully tested and certified radios on 
their systems from competitive manufacturers. Among the jurisdictions 
currently using multiple vendor radios are the States of Alaska, 
Arkansas, and Colorado, as well as the City of Phoenix.
    The national public safety organizations are working with the 
National Institute of Standards and Technology (NIST), the Department 
of Homeland Security (DHS) SAFECOM Program, the Project 25 Steering 
Committee and the manufacturers represented by the Telecommunications 
Industry Association (TIA) to address the known issues and are in the 
process of developing new testing and certification procedures to 
address these issues.

    Question 3. Is there a conformance test for P25 radios that is 
available today for manufacturers?
    Answer. A conformance test process was begun in April 2005, and we 
are hopeful that it will be completed by the end of 2007. NIST, with 
the support of SAFECOM and the P25 Steering Committee, is developing a 
comprehensive P25 Conformity Assessment Program. Although a number of 
the conformance testing procedures are complete, there are a number of 
``key interfaces'' that collectively comprise the P25 standard, and not 
all interfaces have received complete and uniformly agreed technical 
definitions, nor have all of the identified test protocols been fully 
developed.
    Aspects of the P25 standard unfortunately are highly technical in 
nature, and the processes of standards development and definition and 
of the formulation and application of testing protocols are not easily 
condensed into concise, easy to communicate summary form. The topics 
addressed in the prior answers are treated in more detail in a number 
of documents available on the Internet that may be helpful to you, 
Senator Cantwell, and others on the Committee who may desire additional 
background information on these topics. The Commonwealth of Virginia 
(through the efforts of its State Interoperability Executive Committee) 
provides a good, summary (yet fairly detailed) overview of the P25 
standard, its relevance to public safety communications, and a status 
summary of conformance testing and validation, along with links to more 
formal, technical documents, all of which can be accessed at http://
www.interoperability.virginia.gov/P25.html.

    Question 4. Have there been emergency situations you are aware of 
where a first responder has stated a preference for using analog radios 
instead of digital radios?
    Answer. While digital systems generally offer better performance 
over a broader range of conditions, much greater flexibility, and more 
efficiency than analog, some public safety organizations, particularly 
fire fighters, have continued to prefer analog. Many smaller agencies 
are still using analog systems and are not able to afford replacing 
them. Clearly the future of communications will be dependent upon 
digital systems and the public safety community has been working to 
make sure that new digital systems meet their mission-critical needs.

    Question 5. Do you see a role for analog mutual aid channels in the 
large scheme of achieving interoperable communications?
    Answer. Yes. Public safety has a significant investment in analog 
mutual aid communications. They are useful not only from an asset 
perspective but also from a Mutual Aid/Incident Command System 
perspective. A Mutual Aid response is built on communications 
interoperability and written agreements that pre-determined resources 
(human and equipment) respond to numerous scenarios.
    Also, some analog mutual aid channels have been ``harmonized'' 
across national borders with Canada and Mexico. Current FCC rules 
require 800 MHz NPSPAC radios be capable of analog mutual aid operation 
on five specific 800 MHz channels.
    Analog mutual aid channels have also been identified in VHF and UHF 
bands. The FCC has also designated interoperability (Mutual Aid) 
channels in the 700 MHz band that operate in the digital P25 mode.

    Question 6. Is there a standard for public safety personnel to 
exchange data? For exchanging video? Should any standards developed be 
open standards? What is the danger of not having open standards?
    Answer. There are no specific standards for public safety data 
exchange today. Public safety would prefer to use open standards 
wherever possible. Certainly, data exchange standards are important. 
Examples of this in today's environment are e-mail and instant 
messaging. These examples show that while the applications can be 
different and perhaps proprietary, it is possible to develop 
information exchange standards so that different end-user applications 
interface in an effective manner.

    Question 7. Many communities rely on the Department of Homeland 
Security's SAFECOM guidance in guiding purchase and requests related to 
facilitating interoperable communications. Do you believe that 
historically DHS has focused too much on hardware solution? Do you 
believe that DHS guidance in the past has chilled local governments 
from pursuing IP-based solutions?
    Answer. I support the current SAFECOM guidance and the preference 
it shows for open standards. Open standards are the key to 
accomplishing true interoperability. For these reasons, I believe that 
the current DHS guidance is appropriate as it allows for flexibility 
for state and local first responders to choose the technology solutions 
that best address their needs.
    The P25 standard has been critical in facilitating interoperability 
between systems from different vendors and injecting competition into 
the handset marketplace. Regardless of whether we are discussing 
hardware or software, open standards are crucial, and their necessity 
is affirmed in the SAFECOM guidance. There is a role for IP but there 
is work to be done to make it totally acceptable for mission-critical 
use.
    For example, a January 13, 2007, National Security 
Telecommunications Advisory Committee (NSTAC) Report to the President 
stated the following regarding IP-based solutions:

        ``Today's various IP gateways do not interoperate in part 
        because of conflicting VoIP protocols. Furthermore, they often 
        support only a basic audio patch to the different access 
        networks; to improve end-to-end services and achieve 
        interoperability between these IP gateways, it will be 
        necessary to drive the adoption of interoperable protocols for 
        transporting emergency communications services across IP 
        networks.''

    Another example goes into more detail. On August 22, 2006, I 
attended a meeting hosted by the National Institute of Standards and 
Technology (NIST), Office of Law Enforcement Standards (OLES), in 
conjunction with DHS SAFECOM. Also in attendance were key stakeholders 
from various Federal agencies and states, as well as a number of public 
safety vendors, including M/A-COM, Motorola, Cisco, and Twisted Pair. 
We were brought together to discuss the role of IP-based solutions for 
public safety. While the public safety participants discussed the 
attractiveness of the cost of IP-based systems, we identified 
limitations such as:

  <bullet> A lack of standards profiles

  <bullet> Security related to:

    <ctr-circle> Privacy and integrity of messages

    <ctr-circle> Authentication and authorization of users

  <bullet> Reliability

    <ctr-circle> Concerns about IP in mission-critical situations

    At the end of the session, the entire group reached the following 
conclusions about the limitations of IP-based solutions:

  <bullet> ``You can't just dump VoIP into an existing network and 
        expect it to work.''

  <bullet> Most public safety agencies do not often have the staff or 
        funding to continuously upgrade and manage their systems to 
        meet the requirements.

  <bullet> IP doesn't automatically mean interoperability.

  <bullet> Government officials need further education on the 
        relationship between the strengths and limits of VoIP:

    <ctr-circle> Just because this area involves Internet Protocol does 
            not mean it is using the Internet.

    <ctr-circle> VoIP is part of some LMR solutions.

  <bullet> Radio-to-radio in the absence of infrastructure is critical 
        to public safety:

    <ctr-circle> Everything is secondary to voice.

  <bullet> IT and IP product and applications life cycles tend to be 
        much shorter than public safety funding cycles for 
        communication systems.

    For these reasons, I believe that the current DHS guidance is 
appropriate and Congress should let the public safety community, 
working with SAFECOM, determine whether the guidance needs to be 
revised.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Harlin R. McEwen
    Question 1. Can you provide the Committee with an update on the 
costs and status of interoperable systems in the existing public safety 
spectrum bands?
    Answer. The recent Baseline Survey conducted by the DHS SAFECOM 
Program gives some indication of the status and progress of 
interoperability in public safety communications. The results can be 
found at http://www.safecomprogram.gov/SAFECOM/baseline/.

    Question 2. Has the public safety community conducted studies 
showing the condition of interoperability nationwide today, matching 
that interoperability to existing spectrum allocations, and how much 
additional spectrum is needed overall?
    Answer. No. The public safety community does not have the funding 
or resources to do such a study.

    Question 3. The new broadband network that is envisioned would need 
enough capacity for both government and commercial use. In any given 
day, how much capacity would need to be dedicated to public safety vs. 
commercial use? Would public safety's capacity needs on this network 
likely increase as time went by?
    Answer. That is difficult for me to answer, given the varied daily 
needs of public safety. Cyren Call Communications has developed a white 
paper entitled Public Safety Broadband Capacity Analysis that may be 
helpful to understanding the answer. I have attached a copy for your 
reference. See Supplemental Attachment on page 86.
    Yes, it is envisioned that public safety's capacity needs on this 
network would likely increase as time went by.

    Question 4. What are some of the special needs of public safety 
that are not available on existing commercial networks?
    Answer. Public safety needs are measurably different from the needs 
of commercial users. A dropped call on a commercial network is 
inconvenient, however, on a public safety network, it can mean life or 
death. Public safety networks must operate at near 100 percent 
reliability 24/7. Public safety radios must work every time in mission-
critical situations.
    For this reason, public safety spectrum cannot be compared to 
commercial use in that a public safety network must be able accommodate 
peak traffic flows, without failing or delay, during an emergency. A 
public safety officer can never hear, ``all systems busy, please try 
your call again later.'' Public safety networks are designed to 
accommodate peak usage demand during major emergencies. Peak demand at 
an incident can require 3-10 times the number of resources required on 
an average day.
    The communications needs of public safety are also dramatically 
different from a commercial user. Public safety officers must be able 
to connect to the network, as well as directly to each other. This 
usage pattern for public safety radios is referred to as ``talk 
around.'' This is where the officers communicate radio-to-radio without 
going through a network. This can be critical at times when many 
officers converge on an incident.
    Public safety also requires near ubiquitous network coverage. 
Public safety users must communicate throughout their jurisdictions, 
including the most rural areas and require 95 percent or more 
geographic coverage. There is not currently a single commercial service 
in the United States that can provide that level of coverage.
    Further, police radios are ``in-use'' at levels that far exceed the 
average commercial user. In the course of the day, a police radio is 
often in a monitor mode, listening to calls to other officers to see if 
they need assistance. As many as 50 officers can be monitoring a single 
channel at the same time. A typical police officer's radio in the 
monitor mode is equivalent to a long conference call with 50 to 70+ 
people listening. Typically public safety is in this mode 30-50 percent 
of the time. This is equivalent to over 4,000 ``cell phone'' minutes 
per officer per month, which is 10 times the ``typical'' usage.
    When we compare the cost of public safety systems to commercial 
cellular systems we must take into account the fact that public safety 
radios are used 24 hours a day, 7 days a week for an average of 7 years 
before replacement. The average life of a cell phone is significantly 
shorter.
    Public Safety needs a hardened network with infrastructure built to 
withstand local natural hazards (tornadoes, hurricanes, earthquakes, 
floods, etc.) that would include hardened towers and backup power with 
fuel supplies to withstand long term outages of public power sources. 
For the most part, commercial networks do not offer that level of 
service or reliability.
                                 ______
                                 
                        Supplemental Attachment
               Public Safety Broadband Capacity Analysis
Introduction
    The future of telecommunications is moving toward the ubiquitous 
carriage of information via IP-based telecommunications systems. 
Wireless services are part of this evolution as all voice, data, and 
video will soon be sent and received via IP based radio access that is 
an integral portion of this future all IP network environment.
    To fully understand the radio spectrum requirements of this future 
network, Cyren Call performed an analysis of the capacities a public 
safety-grade wide area wireless broadband network will have to support 
to ensure that public safety can leverage and utilize the advanced 
capabilities required to meet its mission of providing protection and 
safety for the citizens of the United States.
Background
    Public Safety has recognized that the specific spectrum allotments 
that will support wireless broadband technology for its needs must be 
identified and set aside now to ensure that it is available for the 
future. It is generally agreed by the Congress of the United States, 
FCC, NTIA, commercial industry, and the scientific community that 
spectrum is a finite resource. To ensure the many competing interests 
for this resource have sufficient allocations for their specific 
requirements, Congress and the FCC agree that each need be weighed 
against the benefits a specific allocation can provide for overall 
common good of the United States.
    To this end a determination of what is sufficient spectrum for a 
given entity or services provider becomes an exercise of peering into 
the future and using the best available information to assess what 
impacts technology change will have on its needs.
    What is known is that as wireless services have evolved to 
incorporate services beyond basic voice, spectrum with increasingly 
larger channel sizes are required to deliver advanced capabilities and 
provide the level of performance demanded by these services. This has 
caused a competition for spectrum to arise with many entities vying for 
its share of the spectrum pool.
    Public safety is no exception, it is in competition with the 
wireless commercial operators for spectrum to support its mission. This 
has raised the debate not only as to how much spectrum public safety 
will require to implement broadband services but in an era of fiscal 
constraints, how it will be able to sustain and keep evergreen the 
technology base required to have services available now and into the 
future.
Scope
    As outlined above there are many facets to the current debate over 
public safety's broadband requirements and what will be required to 
ensure these capabilities are available for its use. This analysis was 
undertaken to determine not only the sufficiency of current spectrum 
allotments to support wireless broadband technologies for public safety 
but also what would be required for a public/private partnership that 
enables public safety to evolve and maintain a desired level of service 
now and into the future.
    This focus provides the boundaries for this analysis and the 
underlying assumptions used in the capacity calculations. Two spectrum 
positions were analyzed to determine the requirements of public safety 
and also a public/private partnership. These were:

  <bullet> 12 MHz--6 MHz by 6 MHz paired

  <bullet> 30 MHz--15 MHz by 15 MHz paired

Assumptions
    In this section the major assumptions used in the analysis are 
outlined. Specific assumptions that are critical to the methodology of 
the analysis are highlighted in context with the use of the assumption.
General
    This study assumed a national network view. The national network 
assumed 37,000 cell sites required to provide coverage and capacity to 
meet the requirements of the baseline user population, their profiles, 
and offered services. Due to the scope, magnitude, make-up and varying 
sizes of public safety jurisdictional entities within the U.S. specific 
case by case sample studies for jurisdictions in large dense urban, 
suburban, rural, and highway corridor environments will be the basis 
for future studies to assess individual jurisdictional needs. 
Incidents/events of various scales were a key component of this study 
to assess capacity and performance requirements for these types of 
occurrences.
Analysis Period
    A period of 10 years was used in this analysis, from 2008 to 2018. 
By using a full 10 year study period considerations such as technology 
and applications evolution and maturity, services adoption, gains in 
spectral efficiency, convergence and concurrent use of services, and 
increasing demands for mobility could be employed to assess the demands 
that would be placed on the network.
Network Technology
    Today there are three major wireless technologies considered to be 
on migratory and evolutionary paths to what is envisioned will be the 
technology deployed for the 3G+ or 4th wide area mobile next-generation 
networks in the study period. These are:

        GSM > UMTS > HSPA > LTE

        WiMax > LTE

        EVDO Rev A/B > LTE

    Long Term Evolution or LTE is a term used to describe the 
envisioned technical characteristics that will be required for these 
next-generation wide area mobile networks. This analysis blended and 
used common technical stated evolutionary characteristics across all 
three technology tracks such as OFDM-MA and MIMO,\1\ flat IP core 
network architectures, mature IMS/SAE services delivery and management, 
VoIP-based push to talk, and other attributes to normalize the capacity 
and performance assumptions that will be available to provide broadband 
services.
---------------------------------------------------------------------------
    \1\ OFDM-MA: Orthogonal Frequency Division Multiplexing--Multiple 
Access, MIMO: Multiple Input/Multiple Output.
---------------------------------------------------------------------------
Radio Access Layer
    The radio link for a given sector was characterized using the 
following design assumptions from HSPA+ as this provides a conservative 
estimate for modeling rather than using the stated objectives for 3GPP 
LTE:

        Channel Size: 5 MHz

        Reuse Factor: 3/1

        Uplink Capacity: 11.5 Mbps

        Downlink Capacity: 28 Mbps
Broadband Network User Population
    It is estimated that by 2018 there will be less than 3 million 
public safety personnel and that the U.S. population will be 300+ 
million. A conservative and high estimate of 3 million public safety 
users and 32 million critical infrastructure and enterprise users was 
assumed as the user population for this network in 2018.
Services
    The following table depicts the services that were characterized 
that would be provided by the network for this study.


----------------------------------------------------------------------------------------------------------------
                    Sub-                                                             RAN Service Rqmt.   E-E/1-
                  category   Capacity    Service                          Service     Throughput rate      Way
Type  Category     (where      Mgmt.   description        Example          level   --------------------   Delay
                applicable)   Ref. ID                                   designator   (Kbps)    (Mbps)     (ms)
----------------------------------------------------------------------------------------------------------------
Voic  PS Tele-  PTT          TSP-1     Individual-  1:1 or Walkie       Guaranteed        24     0.024      <150
 e     Service                          Direct       Talkie
       s
      [P25]     ...........  TSP-2     Group        Talk Groups         Guaranteed        24     0.024      <150
      ........  ...........  TSP-3     Broadcast    1:N or 1:1 for      Guaranteed        24     0.024      <150
                                                     Dispatch
      ........  ...........  TSP-4     Un-          1: All Devices on   Guaranteed        24     0.024      <150
                                        addressed    Channel
      ........  ...........  ........  Open         All Devices on      Guaranteed        24     0.024      <150
                                        Channel      Channel
      ........  Monitoring   TSM-1     Individual-  Unit/Device level   Guaranteed        24     0.024      <150
                                        Direct
      ........  ...........  TSM-2     Group        All Units/Device    Guaranteed        24     0.024      <150
                                                     assigned to group
      ........  ...........  TSM-3     Channel      All Units/Device    Guaranteed        24     0.024      <150
                                                     on channel
      ........  ...........  TSM-4     Scanning     All Units/Devices   Guaranteed        24     0.024      <150
                                                     on selected
                                                     channels
      ........  Alerting     TSA-1     lndividual-  Unit/Device level   Guaranteed        24     0.024      <150
                                        Direct
      ........  ...........  TSA-2     Group        All Units/Devices   Guaranteed        24     0.024      <150
                                                     assigned to group
      ........  ...........  TSA-3     Audible      Individual device/  Guaranteed        24     0.024      <150
                                        Emergency    assigned units to
                                                     a group
      ........  ...........  TSA-4     Silent       Unit/Device level   Guaranteed        24     0.024
                                        Emergency
      CMRS      Network      CMR-1     Local        Local M-M/M-PSTN    Predictive        24     0.024      <150
                 Based
      ........  ...........  CMR-2     Long         Long Distance M-M/  Predictive        24     0.024      <150
                                        Distance     M-PSTN
      ........  ...........  CMR-3     Conferencin  Voice               Predictive        24     0.024      <150
                                        g
      ........  ...........  CMR-4     CLASS        Call Forward, Call  Predictive        24     0.024      <150
                                        Features     Wait, Trace, etc.
      ........  ...........  CMR-5     Voice Mail   Traditional Voice   Predictive        24     0.024      <150
                                                     Mail Services
Data  Media     Photo        DMP-1     Image        Stills, Slide Show  Best             144     0.144      1000
                                        Transfer                         Effort
      Messagin  SMS          DMT-1     Text         Both basic and      Best            14.4    0.0144      4000
       g                                             enhanced (rich      Effort
                                                     text) SMS
      ........  E-Mail       DMT-2     Enhanced     Text w/             Best            14.4    0.0144      4000
                                        Text         attachments--vari   Effort
                                                     ous includes M-
                                                     Media
      FTP       Bulk Data    DFT-1     Reporting    Form based data     Best              64     0.064      1000
                                                     transfer            Effort
      ........  ...........  DFT-2     File         Various file type/  Best              64     0.064      2000
                                        Transfer     sizes               Effort
      Sensor    Telemetry    DSR-1     Bio-Metrics  Personnel           Guaranteed      28.8    0.0288       <50
                                                     physiology
                                                     reporting/mgmt.
      ........  ...........  DSR-2     Environment  Temperature,        Predictive      14.4    0.0144      4000
                                        al           Moisture, etc.
      ........  ...........  DSR-3     Situational  Intrusion           Guaranteed      28.8    0.0288      <500
                                        Awareness    Detection,
                                                     Wireless Fence,
                                                     alarm
      ........  ...........  DSR-4     Vehicle      Vehicle Sensors--   Predictive        64     0.064      1000
                                        Telemetry    Speed, Crash,
                                                     Engine, etc.
      Location  Reporting    DLB-1     Person       Individual          Guaranteed      14.4    0.0144      <250
       Based                                         location tracking
      ........  Reporting    DLB-2     Vehicle      Vehicle location    Guaranteed      14.4    0.0144      1000
                                                     tracking
      ........  Bulk Data    DLB-3     GIS          Thematic Maps       Best              64     0.064      4000
                                        Thematic     (e.g., Hurricane    Effort
                                                     Track Flooding)
      ........  Reporting    DLB-4     Sensor       Location of Sensor  Best            14.4    0.0144      4000
                                                     both fixed and      Effort
                                                     temporary
      ........  Reporting    DLB-5     Robotic      Location of         Best            14.4    0.0144      <500
                                                     Robotic Elements/   Effort
                                                     devices/machines
      Work      Personnel    DFM-1     Normal/      Daily Assignment    Best              64     0.064      1000
       Force     Mgmt.                  Daily        via form based      Effort
       Mgmt.                                         data
      ........  Personnel    DFM-2     Incident/    Event personnel     Predictive        64     0.064      1000
                 Mgmt.                  Event        assignments,
                                                     accounting, etc.--
                                                     Interactive form
      Asset     ...........  DAM-1     Normal/      Daily mgmt &        Best              64     0.064      4000
       Mgmt.                            Daily        tracking of         Effort
                                                     assets--assignmen
                                                     t/status form
                                                     based
      ........  ...........  DAM-2     Incident/    Event/Incident      Best              64     0.064      4000
                                        Event        mgmt. and           Effort
                                                     tracking of
                                                     assets--assignmen
                                                     t/status form
                                                     based
      Robotics  ...........  DRS-1     Control      Remote Control/     Guaranteed        64     0.064      <250
                                                     mgmt. of robotic
                                                     devices
      ........  ...........  DRS-2     Data         Robotic gathered/   Predictive    varies              varies
                                                     assembled data                  on type
Vide  Media     Video        DMV-1     Real-Time    Broadcast Quality-- Guaranteed      1000         1      <500
 o                                                   Uni-Directional--
                                                     24-30 fps
      ........  ...........  DMV-2     Real-Time    Basic Quality--Uni- Predictive       500       0.5      1000
                                                     Directional--15
                                                     fps
      ........  ...........  DMV-3     Streaming    Store and Forward-- Predictive       300       0.3      1000
                                                     Uni-Directional--
                                                     8-10 fps
      ........  ...........  DMV-4     Conferencin  Multi-participant   Guaranteed       770      0.77      <150
                                        g            Video + Voice +
                                                     Media - Bi-
                                                     Directional--15
                                                     fps
----------------------------------------------------------------------------------------------------------------

Services Note
    It was assumed that all services have a failure point based on 
excessive delay. For example:

  <bullet> It may be acceptable to wait a minute for a file transfer, 
        but it may not be acceptable for that file transfer to take 30 
        minutes.

  <bullet> Service throughput is determined by the most demanding 
        aspect of the service which is generally session initiation and 
        set-up.

  <bullet> Utilizing strict average throughput would underestimate 
        usage especially with concurrent sessions (voice with video).

Methodology
    The high level methodology used to determine the number of 
subscribers supported for various spectrum positions was as follows:

  <bullet> Characterize the Services

  <bullet> Define Subscriber Types

  <bullet> Assign Service Usage to Subscriber Types

  <bullet> Determine the Available Throughput

  <bullet> Capacity Calculations

    <ctr-circle> Public Safety

    <ctr-circle> Critical Infrastructure

    <ctr-circle> Commercial

    Each step is further explained in the subsequent sections.
Characterize the Individual Services
    For the purposes of this analysis it was assumed that subscribers 
would utilize services in three broad categories, namely: Real Time 
Services, Best Effort Services, and Streaming Services. Within each 
category, specific services were assigned, as follows:

        Real Time Services

        Push-to-Talk (PTT)

        Telephony (Voice)

        Monitoring--ability to listen to ongoing group communications

        Alerting--ability to alert other users that communication is 
        desired

        Best Effort Services

        File Transfer--Transfer of large files to or from some data 
        repository

        Messaging--Ability to send multi-media messages to one or more 
        users

        Location--Transmission to or from the network containing 
        information about the physical location of the user

        Sensor-based data

        Streaming Services

        Streaming Video--The ability to transmit or receive continuous 
        video
Define Subscriber Types
    The following user profiles were developed and incorporated as the 
subscriber types for this study:

        Public Safety: Blended profiles for police, fire, and EMS 
        personnel

        Critical Infrastructure: Medical, Energy/Power, Water, Food, 
        Transportation

        Enterprise: Large enterprise [business] entities
Assign Service Usage to Subscriber Types
Independent Service Usage
    For each subscriber type, a service profile was assigned that 
specified how much of each service that subscriber type would utilize 
on average. It was assumed for this analysis that public safety would 
not be using this service for its primary voice system, and would 
instead rely on it for mission-critical and routine broadband 
applications. Critical infrastructure and commercial users would use 
the system for voice, and this was factored into the model. Usage was 
assigned for uplink and downlink separately.
Aggregate Service Usage
    Once each subscriber type had the individual service profiles 
assigned, an aggregate service profile was created. This aggregate 
service profile was used to characterize the average network 
utilization of that particular type of subscriber (Public Safety, 
Critical Infrastructure, or Commercial).
    The specific usage assumptions and aggregate service profile for 
each subscriber type are listed in the appendix.
Determine Available Throughput
    This analysis uses a generic, technology independent, throughput to 
determine available capacity. The throughput values are correlated to 
available radio spectrum. Although the available throughput is 
technology independent, the quantitative initial estimate is based on 
stated LTE standards for spectrum positions of 30 MHz (paired 15 MHz) 
and 12 MHz (paired 6 MHz).
The effect of radio propagation over distance on the effective 
        throughput--

  <bullet> As the radio channel deteriorates, the throughput decreases.

  <bullet> The radio channel deteriorates as the distance increases 
        from the cell center (a function of radius).

  <bullet> It is assumed that the user distribution in a cell site is 
        random (evenly spread out within the area of the cell).

  <bullet> The diagram below shows the calculations for the average 
        effective data rate for an omni-directional cell divided into 
        three regions: inner, middle and outer rings. An ideal user 
        distribution model would utilize a continuous distribution 
        model, rather than the discrete 3 section model shown below. 
        However, the radio modulation schemes do not adjust 
        continuously, but rather discretely in a finite number of 
        steps. It is clear that the average effective throughput is 
        significantly less than the peak throughput and this is an 
        initial estimate at quantifying the derated throughput.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Estimate the impact of other system effects that impact throughput:

  <bullet> Packet Loss (radio and otherwise)

  <bullet> Retransmissions due to Packet Loss

  <bullet> Lower Layer Packetization Efficiencies (Layer 2 Framing, 
        etc.)

  <bullet> Computational Delays and Inefficiencies

  <bullet> The cumulative effect of these inefficiencies is estimated 
        to reduce the available throughput by 20 percent

    Result: The effective available throughput for the average user. 
Below are the analysis results for the throughput at 30 MHz. The same 
process would be used for other spectrum positions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Capacity Calculations
Sharing Spectrum
    The system being modeled is one with the ability to prioritize 
traffic and in this system Public Safety has priority access to all 
capacity. If Critical Infrastructure or Commercial users are utilizing 
capacity that is needed to serve Public Safety, the system will 
throttle the capacity available to Critical Infrastructure and 
Enterprise users, and make it available to Public Safety on an 
immediate, as needed basis.
    Critical Infrastructure users will also have priority. However it 
is lower than Public Safety, but it is higher than commercial users. 
Thus after Public Safety capacity needs are met, Critical 
Infrastructure users are served.
    Enterprise users utilize the remaining capacity. Note that capacity 
that has been set aside to ensure Public Safety and Critical 
Infrastructure usage experiences less blocking but also provides 
service for the enterprise users. Enterprise users are only affected by 
capacity in use, and would only be blocked from having access to 
additional capacity if Public Safety and Critical Infrastructures are 
generating a high demand on the system. The diagrams below illustrate 
the concept.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The first diagram shows a hypothetical level of traffic for the 
three types of users. The second diagram is the additive capacity of 
that usage. In this hypothetical example, there would have been no 
blocking if the capacity of the system was at least 25,000 kbps. It is 
illustrative to look at the blocking effects as the capacity of the 
system is constrained.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

* Note that even though Critical Infrastructure is blocking, some 
        commercial traffic can still get through.
** Note that a substantial amount of Critical Infrastructure traffic 
        still is passed by the network, and that there may be cases 
        where some commercial traffic can squeeze in as well. None of 
        this traffic impacts the service levels of Public Safety.

    It is clear from the diagram that Public Safety users would benefit 
with an extremely high availability system (from a congestion/capacity 
stand point), and that sizing of the system is dependent more upon the 
enterprise user base, and to a lesser extent, critical infrastructure 
grade of service.
Per Cell Capacity Calculation
    To determine the number of subscribers supported for a given 
throughput, the number of concurrent average services for the available 
capacity was calculated. Once the number of concurrent simultaneous 
sessions is known, one can apply statistical modeling with the desired 
grade of service calculations. In this analysis, Erlang B and Poisson 
distribution modeling was used with various grades of service, 
depending on the subscriber type. The result is the effective number of 
simultaneous sessions (users) that provides the desired grade of 
service. The average effective load or the average subscriber was 
calculated previously, and the effective number of sessions, with 
effective load per user can be used to determine the total number of 
users that could be supported within a cell.
Network-Wide Capacity Calculation
    In order to extrapolate a per cell calculation to the entire 
network, usage modeling assumptions need to be made. Specifically the 
distribution of the subscribers/users across the cells needs to be 
taken into account. For this analysis the business modeling assumptions 
were taken from the Cyren Call business model using an even 
distribution of users across the network. The following depicts 
analysis of a 30 MHz (15  15 paired) spectrum position.
Public Safety Calculation
    The capacity to support Public Safety is limited only by the 
average available throughput of the system. Therefore by using the 
services and usage levels of a typical Public Safety subscriber the 
total number of Public Safety subscribers can be determined.
    The table below summarizes the calculation for Public Safety.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    From the table one can see that the model predicts that the network 
with 30 MHz could support between nearly 7 million to nearly 11 million 
Public Safety users for varying grades of service (blocking). However, 
the maximum number of Public Safety users that would be expected to be 
supported would be 3 million. Note that, by the nature of giving Public 
Safety priority, that this network at 30 MHz would provide essentially 
Public Safety with non-blocking service.
    Having calculated the Public Safety utilization one can then 
determine the amount of capacity that is left over for other users. For 
the purposes of this model, it was assumed that 3 million Public Safety 
users were utilizing the network, and any remaining capacity unused by 
them would form the basis of subsequent calculations.
Critical Infrastructure Calculation
    For this analysis, it was assumed that Critical Infrastructure 
would require a better grade of service than Commercial users, but that 
it would not need to be as robust as for Public Safety, and that 
planning for 1 percent blocking was reasonable. To determine the 
available capacity for Critical Infrastructure, it was first necessary 
to determine the Public Safety capacity requirements at 1 percent 
blocking. Note that this is not the grade of service Public Safety has, 
but that the amount of capacity needed to maintain Public Safety at 1 
percent blocking can not be utilized by Critical Infrastructure users. 
One must account for the fact that unused Public Safety capacity is 
available to Critical Infrastructure users, and that it is the actual 
usage of Public Safety that impacts the remaining capacity, not the 
capacity set aside to maintain high grades of service (as discussed in 
the Capacity Overview section). For this model it was assumed to be a 
reasonable approximation that Public Safety capacity usage at 1 percent 
blocking would be capacity that was unusable by Critical 
Infrastructure. The analysis is summarized in the table below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As shown in the table, the analysis showed that nearly 12 million 
Critical Infrastructure users could be supported in 30 MHz (15 MHz 
paired). However, the Cyren Call business analysis expects the Critical 
Infrastructure users to number approximately 6 million subscribers.
Commercial Calculation
    The commercial capacity is calculated in a similar manner. It is 
assumed that Commercial users would receive the nominal blocking of 
most other cellular systems, namely 2 percent. Thus the capacity 
available for Commercial users would be that which is left over from 
Public Safety and Critical Infrastructure usage also at 2 percent. The 
analysis results are below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The analysis shows that with 3 million Public Safety users, and 6 
million Critical Infrastructure users, there is enough network capacity 
to serve about 26 Million commercial users at typical cellular service 
levels with a 30 MHz (15x15 paired) spectrum position.
Summary of Results
    Using the methodology described above, the following spectrum 
positions were analyzed. It was found that a 12 MHz (6x6) allotment 
would not care for a 2.9 million public safety user base using an even 
distribution national network model.
    As was shown in the more detailed overview of the analysis, a 30 
MHz (15x15) would meet the criteria to offer public safety grade 
prioritized service and still enable sufficient capacity to be provided 
to critical infrastructure and enterprise subscribers.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Appendix A
    The following tables provide user individual and aggregated service 
assumptions used in the analysis.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                             Morgan O'Brien
    Question 1. One issue that continues to vex policymakers is the 
buildout of wireless services in rural areas. Could you discuss this 
issue, and how either the proposal suggested by the FCC or the Public 
Safety Broadband Trust proposal would address these concerns?
    Answer. Because first responders must go everywhere problems and 
disasters occur, their communications capabilities must precede them. 
This is why it's critical for any nationwide platform to be ubiquitous 
across the United States, including rural locations. The Public Safety 
Broadband Trust proposal (``Proposal'') includes a terrestrial cell 
site buildout deep into our Nation's rural locations--to cover areas 
with a population density as low as 5 persons per square mile, well 
beyond areas covered by the commercial carriers. That terrestrial 
network build would be supplemented and supported by a satellite 
overlay network, both to cover areas where the terrestrial network 
would not extend and to provide a redundant communications capability 
should the terrestrial network become inoperable. In the process of 
assigning to commercial entities leases of usage rights to its licensed 
spectrum, the Public Safety Broadband Trust would have, as one of its 
core mandates, assuring that the network is built out and service is 
provided in the more sparsely populated, underserved areas of our 
nation, as well as in the more densely populated urban market areas. 
Given the strong overlap and identity of interests between the Public 
Safety Broadband Trust and rural residents--the former being committed 
to make sure first responders have state-of-the-art communications 
wherever they must go, the latter being anxious to obtain a bridge 
across the digital divide that separates them from the personal and 
commercial benefits carried by access to modern, broadband 
communications services--there are real incentives and true motivation 
to add confidence that the buildout to rural America will happen. No 
other proposed alternative offers the safeguard of having the license 
to the spectrum in the hands of the Public Safety Broadband Trust, a 
non-profit, non-stock entity controlled by public safety organizations, 
or the powerful combination and alignment of motivations and incentives 
needed to achieve a meaningful rural network buildout.

    Question 2. Many opponents argue that failing to auction 30 MHz of 
spectrum necessarily results in a spectrum giveaway. Mr. O'Brien, some 
have criticized your plan as a ``spectrum giveaway'' that would allow 
you to personally profit rather than compete through an auction. How do 
you respond to this charge?
    Answer. Despite misinformation to the contrary, it should be 
emphasized that neither Cyren Call nor any private, for-profit entity 
will be receiving a license to any spectrum if the Proposal is 
implemented. Rather, under that proposal the Public Safety Broadband 
Trust itself would be awarded and would hold the license to this 30 MHz 
of spectrum in the 700 MHz band. The Public Safety Broadband Trust--a 
non-profit, non-stock entity controlled by public safety 
organizations--would have the normal spectrum license rights granted to 
any other FCC licensee--and, like other licensees, would be subject to 
FCC oversight and, consistent with numerous provisions contained in the 
draft legislation that public safety has endorsed and is attempting to 
have introduced, to significant ongoing Congressional supervision. The 
``spectrum giveaway'' characterization is seriously flawed on at least 
two grounds. First, the spectrum license would be awarded and held for 
the principal benefit of America's public safety community, and 
licensed spectrum that has been made available for similar purposes in 
the past never has been regarded as ``given away.'' Rather, it is 
provided for the use of our first responder personnel to enable them to 
have the tools they require to safely and effectively discharge their 
critically important roles--protecting and preserving our lives and our 
property. For that reason, and with ample justification, such spectrum 
licensed to and for the benefit of public safety cannot be regarded as 
a ``giveaway.'' Second, as the draft legislation makes clear, the 
Public Safety Broadband Trust would pay (with money borrowed in the 
capital markets, backed by government loan guarantees) an amount to the 
Treasury for the award of that spectrum license, both to compensate for 
the loss of auction revenues attributable to that spectrum and to 
assure full funding for the purposes enumerated in the Deficit 
Reduction Act of 2005 (which, when that legislation was adopted, was 
assumed to be supplied by 700 MHz spectrum auction proceeds). Cyren 
Call will not ``profit'' from the award of a spectrum license to the 
Public Safety Broadband Trust, or from the payment made for that 
spectrum license. The Proposal contemplates that an entity would be 
retained by the Public Safety Broadband Trust to fulfill important 
roles in the public/private partnership structure, roles in which both 
knowledge and experience in the commercial wireless industry and in the 
world of public safety communications should be crucial ingredients and 
qualifications. Although neither Cyren Call nor any other entity has an 
entitlement or commitment to be awarded any of those roles, Cyren Call 
intends to apply for those roles, and expects that it would need to 
compete aggressively with other for-profit applicants in an open and 
fair process--as expressly provided in the draft legislation--to win 
the award of any or all of those roles. To clarify further, Cyren Call 
proposes that neither it nor whoever else might be chosen instead for 
that role would participate in any way as a commercial operator lessee 
of the spectrum. This prohibition is suggested to avoid any conflict of 
interest that might develop between what is best for the Public Safety 
Broadband Trust and the for-profit interests of the commercial 
operator(s).
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Morgan O'Brien
    Question 1. My understanding is that you propose to solve the 
interoperability problem by having all public safety organizations 
eventually migrate over to the 700 megahertz spectrum. Even if the 
proposal is successful, this new network will not be built out for a 
decade or more. Does your proposal address the issue of improving 
interoperability of first responders in the near and intermediate term?
    Answer. As catastrophic events of the recent past have shown, there 
is an immediate need to make sure that public safety narrowband voice 
communications networks are made interoperable, particularly on a 
regional basis, as soon as possible. The government must continue to 
supply the leadership and funding to make voice communications for 
first responders--over their existing legacy systems already in place 
and operating today--truly interoperable. The Public Safety Broadband 
Trust proposal (``Proposal'') first and foremost addresses problems 
that relate to the future communications capabilities that need to be 
made available to public safety personnel--and takes a common sense 
approach in assuring that those capabilities will be provided in a way 
that also assures their interoperability. As a result, public safety 
personnel at all levels of government--state, local and Federal--will 
be provided access to a uniform, next-generation, open standard, 
nationwide platform permitting them to enjoy the highest possible level 
of communications interoperability. As important as interoperability 
will be in this new setting, it is equally important and exciting to 
appreciate that these new communications capabilities will deliver to 
first responders the large file data and streaming video capabilities 
that they do not have today. Imagine a burning building on the Elliot 
Bay waterfront in Seattle--firefighters set up video cameras from 
multiple angles and enter the edifice with streaming video capabilities 
on their helmets--and all this information is sent back in real-time to 
a team in a command center, making decisions based upon a comprehensive 
``situational awareness.'' In addition, as burn victims are raced to 
Harborview Medical Center, effective treatment is performed en route as 
doctors in the emergency room monitor vital signs and injuries through 
streaming video and high-speed wireless transmission of medical and 
diagnostic test results. Now imagine that this capability is replicated 
all across America. All of this is possible, but only if a broadband 
network designed for public safety is created, with the proper 
financing stream to support its operation.
    It is true that construction of this network will require--as every 
national wireless network before it has required--some fairly 
significant period of time. Even though that network build likely will 
reach many of our Nation's largest urban centers (and a number of other 
areas) in the first three build years, the Proposal does not 
contemplate or advocate that the ongoing efforts to achieve 
interoperability for public safety's existing legacy voice networks be 
abandoned or slowed down. The Proposal and the next-generation public 
safety network it seeks to implement does not involve the diversion of 
one penny of the $1 billion in public safety interoperability funding 
authorized by Congress--in fact, the mechanisms set forth in the draft 
legislation to provide payment to the Treasury for the spectrum license 
to be awarded to the Public Safety Broadband Trust were crafted 
specifically to assure that the needed funding for that and other 
programs and uses would be available on the timetable and in the 
amounts indicated by Congress. Nor does the Proposal recommend or even 
suggest that public safety's access to its long-promised and long-
awaited 24 MHz of spectrum in the 700 MHz band--especially the channels 
included in that allocation that have been identified specifically for 
interoperability purposes--be delayed 1 second beyond the 
Congressionally-mandated DTV transition deadline in February 2009. 
Although the committed interoperability funding, as well as the 
additional spectrum designated expressly for interoperability uses, 
will provide significant assistance to the public safety community in 
achieving interoperability on their current legacy voice systems, 
others (in Congress and elsewhere) have noted that this problem has 
eluded solution, although it has been recognized and diagnosed, and 
funding for solutions have been provided, for at least a decade. 
Aspects of the public safety broadband network outlined in the Proposal 
include components--notably an IP-based core backbone and 
``interoperability gateway'' access points to the network--that (as 
they become available in particular areas) also could make significant 
contributions to a comprehensive approach to solve public safety's 
existing legacy voice system interoperability challenges.

    Question 2. Wireless carriers are currently rolling out what is 
referred to as third generation or 3G networks. The rollout has taken 
longer than originally thought, in part for technical reasons and in 
part for business reasons. My understanding is that the Cyren Call 
proposal is based on what is referred to as fourth generation 
technology. I have heard that the reason the network requires the 30 
megahertz is for technical reasons--to ensure the most efficient re-use 
of the spectrum. I have heard that the reason the network requires 30 
megahertz is for business reasons. Why does your proposal require the 
30 megahertz of bandwidth? Has there been a technical risk assessment 
performed on the feasibility of rolling out a fourth generation network 
nationally?
    Answer. The Proposal includes the creation of a public-private 
partnership by which public safety controls the spectrum assets and 
collaborates with commercial entities (as lessees of usage rights to 
the licensed spectrum) to construct the network. In exchange for 
building the network, these commercial entities will be permitted to 
have shared use of the network and to make the network's excess 
capacity available to the commercial customers that they will serve, 
though public safety users always will have priority access to the 
network's capacity, up to and including the full capacity of the 
network if required in times of crisis. This vision for the future of 
public safety communications will: provide public safety with an 
evergreen platform that will evolve with technology; create a funding 
mechanism so that government financial support for the network build is 
unnecessary; and at last provide public safety with the benefits of the 
scale economies of a commercial wireless business environment, thereby 
lowering both their costs of obtaining wireless services and the cost 
of public safety communications equipment. Using data from current 
wireless carrier operations and network usage and other assumptions 
that we believe reasonable and consistent with publicly available data 
sources, our modeling shows that for such a shared public safety/
commercial network, 30 MHz of spectrum is needed to support not only 
public safety's sporadic, critical incident-driven significant network 
capacity needs, but also the projected ``ordinary course'' 
communications needs of the sizable commercial subscriber base that is 
required to provide the bulk of the revenue to meet network costs (both 
capital and operating). An insufficient amount of spectrum--such as the 
12 MHz suggested in the FCC's December 2006 Notice of Proposed 
Rulemaking--will attract neither commercial network builders nor their 
investors, and so the network will not be built. Also, next generation 
technologies require a sufficient amount of spectrum to support the 
bandwidth-intensive capabilities and transmission speeds especially 
important to first responders.
    Capacity calculations for a mobile radio network involve many 
factors and result in a complex engineering exercise. No single factor 
by itself can be used to determine what capacity requirements for a 
network ultimately will result from an engineering analysis. This is 
especially true for an IP-based 4G mobile network design that must 
consider the variance of capacity needs for public safety (normal to 
extreme emergency events) coupled with a high-performance commercial 
service offering.
    The key elements that factor into these types of analyses are:

  <bullet> Offered service performance requirements (throughput, 
        latency, jitter, etc.)

  <bullet> Elasticity behavior of IP networks vs. Time Division 
        Multiplexing (TDM) based networks

  <bullet> Services mix used by the subscriber (e.g., voice, video, 
        data, messaging)

  <bullet> Subscriber densities per cell site and cell site sector

  <bullet> Subscriber peak busy usage (the greatest concentration of 
        users projected to be attempting to access the network at a 
        given moment in time)

  <bullet> Blocking rate (especially with mixed use where public safety 
        will differ from commercial)

  <bullet> Frequency re-use factor (trade-offs on a per-site basis for 
        efficiency and performance)

  <bullet> Extreme emergency usage and capacity requirements

    There are other variables but the aforementioned are the key 
factors which influence the results of a 4G mobile network capacity 
analysis. Capacity results from this type of analysis are translated 
into an uplink/downlink Mbps requirement per cell site/per sector. From 
this calculation normalization the stated capacity of the competing 
technologies is then used to derive a bits per hertz performance 
capacity that the 4G technologies will theoretically deliver. As there 
are efficiency gains and detractors for technology types (e.g., OFDM-
MA), these must be factored in as well. The end result is that one 
determines a technology can deliver ``X'' capacity per MHz and assess 
that capacity delivery outcome against a capacity analysis that has 
determined a ``Y'' capacity need. From this information, one derives 
the overall amount of spectrum required for the envisioned design. 
Cyren Call determined, based on the above factors, that 30 MHz was the 
minimum required for its stated design requirements and business model 
mixed subscriber (public safety and commercial) use cases.
    In terms of risk and the viability of deploying a next-generation 
4G network, Cyren Call has built a detailed plan that takes into 
account the execution and funding challenges required to build and 
operate the network. From a schedule and profitability perspective, it 
is a viable plan and consistent with the state of the wireless industry 
today. 4G is not a radically new concept or network but is an evolution 
of the technologies deployed today.

    Question 3. The proposal includes $10 billion in U.S. Government 
loan guarantees. If it takes longer to build out the network or the 
commercial operator does not sign up enough customers early on to 
generate the revenues required to service the loans, what is the 
exposure to the U.S. government? In the end, might the U.S. taxpayer be 
footing the bill to build out a commercial network?
    Answer. The primary purpose of the government guaranteed borrowing 
authority granted in the draft legislation to the Public Safety 
Broadband Trust (``Trust'') is to enable that organization to raise 
sufficient funds in the capital markets to pay the Treasury for the 
award of a license to the 30 MHz of spectrum. So, the Federal 
Government itself (and derivatively, the U.S. taxpayers) will be the 
initial and largest beneficiary of that borrowing authority. Moreover, 
the draft legislation expressly provides that the license will be 
pledged as collateral security for the guarantee obligations. It is 
true that a significant liquidity problem in the future cannot be ruled 
out (for the commercial lessees any more than for the commercial 
carriers they may compete against), which could result in payment 
defaults on the Trust's borrowings, and then in turn on a call on the 
guarantees. Although those cannot be characterized as happy 
circumstances, at least the spectrum license could be repossessed and 
the spectrum could then be made available for other purposes, including 
to provide purely commercial services, with the funds received from any 
future auction of a license to this spectrum devoted to repay any 
payments made on the government guarantees. The certainty associated 
with such an outcome is traceable to the structure of the Trust. First, 
it is a non-profit, non-stock corporation, meaning there are no 
shareholders or others with a claim on any ``residual value'' that 
might be argued to exist in the licensed spectrum. Second, it is highly 
unlikely that (following a payment default and related call on the 
guarantees) the Trust would have any significant creditors other than 
the issuer of the guarantees--i.e., the government--and certainly would 
have no other secured creditors, since the spectrum license will be the 
Trust's only asset. Finally, only the Trust would have licensee 
status--all other parties would have only contractual rights--and the 
Board of the Trust will be originally constituted by, and could be 
changed only by, Federal legislation (in contrast to a for-profit 
entity license holder--which would have the ``bundle of rights'' that 
licensee status confers on it, and whose governing body would be 
selected by its shareholders--and possibly by other groups, e.g., 
holders of hybrid debt/equity instruments and even true creditors, who 
may have rights to appoint directors or otherwise be represented on the 
governing body of an entity if the entity defaults on amounts owed to 
those groups). In short, in contrast to the very complex and 
conflicting collection of interests that bubble to the surface in a 
liquidity crisis (or even an insolvency scenario--the example in this 
vein being presented by the NextWave debacle), the cast of relevant 
characters here would be far more limited and predictable, thereby 
realistically shortening the time (and increasing the assurance of the 
relation) between the occurrence of the undesired circumstances and the 
implementation of the desired consequences.
    It is also important to note that the government loan guarantees 
would cover only money borrowed by the Public Safety Broadband Trust. 
The commercial lessees would not be entitled to make their own 
government guaranteed borrowings, nor would the Trust borrow money on 
behalf of those commercial lessees. In fact, it is expressly 
contemplated in the Proposal that one of the critical obligations to be 
undertaken by a commercial lessee is the obligation to finance the 
network build out in its leased area. To the extent that the Trust 
would borrow money not related to the acquisition of its spectrum 
license, those borrowings first would need to be approved by the 
Trust's Board, and then would need to be for purposes approved in the 
draft legislation, which could include the funding of research and 
development activities for products or services expressly for the 
public safety users of the network, for providing financial assistance 
to enable more widespread use of the network by public safety users 
(e.g., to provide subsidies or financial assistance to law enforcement, 
fire service or emergency medical services personnel in areas that may 
not have the resources to make such payments themselves--such as 
reservations or economically depressed areas), to pay (in whole or in 
part) to extend terrestrial network coverage to areas not assigned to 
any commercial lessee, and (less significantly) for the Trust's own 
operating expenses. Moreover, as the borrowing authority sought in the 
draft legislation extends until December 31, 2020, there is no reason 
to think that all borrowing would occur in the early years, or that 
most of the non-spectrum license related borrowing would occur before 
views as to the network's viability could be based on a significant 
period of actual network operations.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                             Morgan O'Brien
    Question 1. You have noted that commercial wireless broadband 
networks do not meet public safety's needs today. What needs does 
public safety have that are not met with current commercial networks, 
and what assurance is there that the new network would meet these 
needs?
    Answer. Public safety's communications needs are many and as a 
nation we continue to put life and property at undue risk by not 
addressing them comprehensively. Two general matters are solved by the 
Public Safety Broadband Trust proposal (``Proposal''). First, this 
solution will put public safety in control, nationally, of their 
communications capabilities and provide them with a state-of-the-art 
network that can be refreshed over time as new technologies and 
capabilities are developed. This, for the first time, puts public 
safety at the head of the table in terms of telecommunications 
innovation--and today that means providing them with the enhanced 
communications capabilities--specifically, access to data-intensive 
applications, such as remote access to databases, large file transfer 
and real-time video applications--that only a next-generation mobile 
broadband network can deliver. Additionally, a public/private 
partnership will create the right combination of incentives on all 
sides to create the kind of network needed by public safety. Perhaps 
most importantly, the Proposal will leave public safety in the ultimate 
position of control, as the Trust (which is controlled by public 
safety) alone will hold the license of the spectrum used in the 
network, while assuring that that network is self-funding, costing the 
American taxpayer nothing to construct and generating a reliable and 
consistent ongoing source of revenue (largely from significant 
commercial usage of the network) that eliminates the need for public 
safety to go to all levels of government, hat in hand, each year, first 
looking for the money to build, and then looking for the additional 
money to support, their communications systems.
    Second, commercial wireless networks cannot and will not meet the 
needs of first responders. First responders need a public safety-grade 
system that has the coverage, reliability, redundancy and functionality 
to respond in emergency situations wherever they might be. Commercial 
wireless carriers operate their networks as required to comply with the 
conditions of their licenses--which frankly do not require those 
carriers to orient their activities very much differently than they 
willingly would do anyway--and otherwise operate them to maximize their 
returns. So commercial wireless carriers offer commercial service with 
coverage holes, with 98 percent call completion rates, and with 
commercial grade construction standards (hours' long battery back-up 
power at cell sites, limited backhaul redundancy, limited duplication 
of core network elements) not necessarily because they could not cure 
those situations and still make a profit, but because they can make 
bigger profits by leaving those situations uncured. Since the existing 
carriers have no incentive to take actions that would lower their 
returns, we think it unlikely that they will restructure or retrofit 
their networks to meet public safety's stringent needs and 
requirements. So the Proposal was designed to create something that 
first responders don't have today: a robust, hardened, interoperable 
network that provides broadband capabilities that they can depend on 
when they need it most, while still leaving enough attractive 
commercial potential to present commercial lessee applicants with the 
opportunity to earn an acceptable rate of return.

    Question 2. How much would it cost to build a nationwide broadband 
network that meets public safety's coverage and other needs, and how 
much more costly would this be than building a broadband network based 
on current commercial standards?
    Answer. Cyren Call estimates the cost to build a public safety-
grade network could total approximately $20 billion over 10 years. 
Cyren Call further estimates that about 30 percent of that total (or, 
using $20 billion as the relevant total figure, about $6 billion) would 
be attributable to meeting public safety needs in terms of network 
redundancy, reliability and enhanced coverage. However, it is important 
to note that many of these extra expenses also should be regarded as 
drivers of additional revenues--and not just from the public safety and 
allied (e.g., critical infrastructure users) communities--either 
directly (i.e., if the public safety-grade network has coverage in 
locations where the commercial networks do not, it likely will have 
customers and generate revenues from those areas that the commercial 
networks do not) or indirectly (i.e., a network exhibiting enhanced 
reliability and redundancy--more ``up time''--may encourage users to 
drive more ``high-value'' traffic over it, such as encrypted 
communications and other premium applications).

    Question 3. The new broadband network that is envisioned would need 
enough capacity for both government and commercial use. Are you 
confident that a commercial entity would build the network, and how 
much of the network would need to be available for commercial use to 
encourage a company to build it? In any given day, how much capacity 
would need to be for public safety vs. commercial use?
    Answer. A commercial entity would build the network, under an 
arrangement that would provide it with the right economic incentives to 
do so. Our research and discussions with investors indicate that there 
is a genuine appetite in the market to fund the public safety broadband 
network. We believe that, in addition to the public safety user base 
for which it intentionally would be designed, the network also would be 
attractive to a significant customer base composed of users in the 
critical infrastructure industries, as well as to a large number of 
high-end commercial customers that would be attracted to the network 
not only for its ubiquitous coverage features but also for the 
security, reliability and other benefits of a hardened communications 
network. In order for the business case to work, however, 30 MHz is 
needed to provide sufficient capacity for both public safety and 
commercial user groups. It is also important to note that the Public 
Safety Broadband Trust provides the most efficient use of radio 
spectrum under these circumstances, whereby sufficient spectrum is 
available to public safety when it is needed in emergency situations on 
a priority basis and the balance is made available for commercial use. 
On any given day--assuming absence of a truly catastrophic public 
emergency situation--the commercial use of the network should be more 
significant than the public safety use of the network, and the number 
of commercial users being supported on the network will be far more 
than the number of public safety users. In our modeling exercises, we 
have projected that the network--at full coverage build in 2018--would 
generate sufficient capacity to meet (simultaneously) the 
communications needs of a total customer base of 35 million, comprised 
of 27 million commercial users, 6 million critical infrastructure users 
and 2 million public safety users. Of course, when the urgent 
communications needs of public safety require that they be able to 
claim a greater share of network resources and available capacity, the 
priority assignment that automatically is given to public safety 
traffic on the network will assure that they can--in the most extreme 
circumstances--pre-empt all other traffic on the network, if required.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                             Morgan O'Brien
    Question 1. In your testimony, you explained at length the benefits 
of your proposal to the public safety community. During the Committee's 
hearing, we also discussed the fact that your proposal is a for-profit 
venture. Does Cyren Call have outside investors, and if so, could you 
share with the Committee the information you furnished to potential 
investors regarding possible returns on their investments?
    Answer. Cyren Call has derived most of its financial support--apart 
from initial start-up funding amounts supplied by its founders and a 
small group of ``friends and family''--from investments made in Cyren 
Call by a number of venture capital firms. Both leading up to those 
investments and subsequently, in regular review sessions, Cyren Call 
has shared with those firms (and has sought and received their input 
on) the business and financial models that Cyren Call has created to 
describe and depict the overall shared public safety-commercial 
broadband network business and its financial characteristics.
    In the simplest terms, the depiction of the overall network 
business, and its presentation in the related financial model, is an 
amalgamation of two distinct, but inter-related businesses and 
financial models: (1) a business, and related financial model, that 
pertains only to the commercial network operator(s) (``Lessee(s)''); 
and (2) a business, and related financial model, that pertains only to 
an entity referred to as the PSBT Authorized Agent/Public Safety 
Liaison Agent (``Agent''; this is that role that Cyren Call intends to 
seek for itself). The amalgamation of these two distinct, but inter-
related businesses, and the resulting related composite financial 
model, we refer to as the ``eco-system.'' We characterized and 
presented the business in this way because it would be essential for 
any investor to focus not only on whether the Agent's business plan and 
prospects appeared reasonable, sensible and viable, but also whether 
the overall network business of the Lessee(s) (in which context the 
Agent's business activities would occur and on which they would depend) 
also had a plan and prospects that appeared reasonable, sensible and 
viable.
    Wherever possible, we have attempted to verify that our financial 
model is based on or is consistent with publicly available information 
on matters such as current industry trends, analysts' forecasts, 
equipment manufacturers' estimates on costs, and published data 
concerning performance capabilities of evolving technologies which are 
not yet available for commercial deployment. We also have engaged in 
some degree of cross-extrapolation from other industries or businesses 
that we considered to be similar or related to the domestic commercial 
mobile wireless industry such as wireline broadband networks, existing 
wireless high-speed networks in the U.S. and wireless broadband 
networks in other countries. The assumptions that are reflected or 
incorporated in our business plans and in the related financial models 
include a number of important topics, such as:

  <bullet> Addressable market sizes and compositions

  <bullet> Subscriber penetration rates

  <bullet> Product and service adoption rates

  <bullet> Product and service pricings

  <bullet> Subscriber profiles

  <bullet> Network capacity utilization rates

  <bullet> Technology performance and availability

  <bullet> Network and subscriber equipment costs

  <bullet> Funding timing and availability

    We have prepared presentations that summarize the key points of the 
business plans and of the related financial models described above. 
Those presentations include the derivation of un-levered internal rates 
of return for the respective businesses of the Lessee(s) and the Agent 
that comprise the eco-system over the ten-year period of time covered 
by the models. We have shared those presentations with governmental 
bodies (such as personnel in the Congressional Budget Office), with 
staff personnel from various Members of Congress, and with members of 
the media, although we have done so in face-to-face meetings that 
permitted us to supply additional explanatory detail. We would, of 
course, be willing to deliver the same type of presentation to you and/
or your staff, as well as to any other members of the Committee or 
their staffs, much as we have done and continue to do for other Members 
of Congress.

    Question 2. It seems as though your entire business plan is based 
on Congress passing legislation to grant 30 MHz to the Public Safety 
Broadband Trust in the next several months. What happens to Cyren Call 
if the DTV transition and auction goes forward as planned?
    Answer. The company's founders and employees came together around 
the commonly-held vision of making this shared public safety-commercial 
mobile broadband network business plan a reality, and the commonly-held 
belief that this was a task worthy of the effort. The financial outcome 
to the company might be no different if Congress passed legislation 
granting the requested 30 MHz to the Public Safety Broadband Trust 
(PSBT), and the PSBT then decided to select someone other than Cyren 
Call as Agent, than if the Congress failed to act and the auction went 
forward as currently legislated. We continue to believe that the DTV 
transition itself should occur on the same timetable and with the same 
end results--i.e., the commercial TV broadcasters vacating the upper 
700 MHz spectrum they currently occupy by the February 2009 deadline, 
and the Treasury receiving sufficient aggregate proceeds, in exchange 
for the award of licenses to the 60 MHz of 700 MHz spectrum, to meet 
all related existing budget allocations and spending commitments--
regardless whether Congress adopts legislation to implement the Public 
Safety Broadband Trust proposal or whether Congress fails to act and 
the 700 MHz spectrum proceeds to commercial auction as contemplated 
under existing legislation.
    Cyren Call is led and staffed by talented persons, and as much as 
an innovative business concept and a well crafted business plan 
undoubtedly played a role in Cyren Call's ability to attract investment 
capital, the human resources associated with formulating that plan and 
seeking to have it implemented played a large role as well. With those 
resources, if its focus must be re-directed away from the business plan 
and the vision it has been pursuing and advancing for the past year, 
Cyren Call can turn its attention to investigating other opportunities 
that may hold the prospect of an interesting business and the potential 
for a return on its investors' capital. But we remain focused on what 
we perceive as a critically important goal--putting public safety at 
the forefront of the next generation of the wireless broadband 
technology, product and service evolution.
    In any case, Cyren Call believes it is more important to consider 
the outcome for public safety should Congress not act to provide them 
with the means to acquire the necessary financing to create, and the 
assurance of ultimate control over, a mobile broadband network built to 
meet their needs. If Congress does not act, we believe that our first 
responders will lose the last realistic opportunity to gain access to a 
reliable privately funded business case for, and ultimate control over, 
the public safety-grade broadband network that they need and deserve. 
If the only spectrum that is both available now and uniquely suited to 
such a purpose is auctioned for purely commercial use, the critical 
ingredient necessary to create a viable, privately funded and self 
sustaining interoperable, public safety-grade broadband network will 
forever be lost--and such a regrettable outcome could come to pass all 
too soon. When the next disaster strikes America and our first 
responders cannot communicate among themselves or access advanced 
technology that could save American lives--including possibly yours or 
a member of your family--we will carry that burden as a nation. 
Congress has the choice of perpetuating the status quo or creatively 
using opportunities present today to solve our country's public safety 
communications problems once and for all. The clock ticks relentlessly 
and a decision must be made quickly.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                           Hon. Steve Largent
    Question 1. Opponents of the Public Safety Broadband Trust (PSBT) 
proposal claim that it would delay the February 2009 DTV transition 
deadline. However, the auction of the remaining 30 MHz could proceed in 
January 2008, allowing the analog switchover to occur as planned in 
February 2009. Mr. Largent, could you explain why you believe the 
Public Safety Broadband Trust proposal will delay the February 2009 DTV 
transition deadline?
    Answer. The Digital Television Transition and Public Safety Act 
requires the auction of 60 MHz of spectrum in the 700 MHz band. The 
Congressional Budget Office (CBO) estimated that the auction would 
result in a net increase of auction receipts of $10 billion. The Public 
Safety Broadband Trust (PSBT) proposal would prevent the Federal 
Communications Commission (FCC) from auctioning 30 MHz of that 
spectrum.
    Rather than simply reduce the net increase of auction receipts by 
half of CBO's estimate, the PSBT proposal would result in an even 
greater reduction in net auction proceeds because the PSBT proposal may 
result in potential auction participants opting to lease spectrum from 
PSBT rather than bid at auction. Thus, there would be even less than $5 
billion in net auction proceeds. In addition, reducing the amount of 
spectrum in the 700 MHz band available for commercial use would likely 
cause the FCC to reduce the number of large-block licenses, which yield 
greater receipts as compared to smaller-block licenses on a per-MHz 
basis. And the loan guarantees required by the PSBT would reduce the 
net auction proceeds even further.
    The Digital Television Transition and Public Safety Act mandates 
that $7.363 billion of the net auction proceeds be transferred to the 
general fund of the U.S. Treasury. In addition, in accordance with that 
legislation and the Call Home Act of 2006, $1 billion of the net 
auction proceeds must be used to establish a grant program to assist 
public safety entities in the acquisition of, deployment of, and 
training for the use of certain interoperable communications systems, 
and that money must be allocated no later than October 1, 2007. 
Furthermore, up to $1.5 billion of the net auction proceeds must be 
available to assist consumers in the purchase of over-the-air digital-
to-analog converter boxes.
    Even assuming that, under the PSBT proposal, a $5 billion payment 
would have to be made to the Treasury for the right to manage the PSBT, 
with the decrease in auction proceeds resulting from: (1) the absence 
of 30 MHz from the auction and (2) the availability of spectrum for 
lease by the PSBT, there would not be enough money to pay for the 
converter box program. The absence of the converter box program would 
jeopardize the February 17, 2009 transition date because Members of 
Congress would likely be unwilling to require broadcasters to turn off 
analog signals without Federal assistance to purchase converter boxes. 
With the decrease in net auction receipts caused by the PSBT, Congress 
would also be unable to fund the other initiatives, such as the 
assistance provided to New York broadcasters and the low-power 
television and translator conversion program, that are viewed as 
necessary for a smooth and timely completion of the digital television 
transition.

    Question 2. Mr. Largent, you state that public safety has more than 
enough spectrum to build and operate a network that will support 
broadband applications, and you specifically note that the FCC has 
allocated 50 megahertz to public safety in the 4.9 gigahertz band for 
broadband applications. Do you believe it is economically feasible to 
build a nationwide broadband network in that band?
    Answer. The FCC has worked closely with the public safety community 
to adopt regulations for the 4.9 GHz band that will create 
opportunities for affordable broadband networks in that band. The FCC 
determined ``that the 4.9 GHz band will be able to accommodate a 
variety of broadband applications, including technologies and 
operations requiring varying bandwidths and operations that are both 
temporary and permanent in nature.'' In November 2004, the FCC 
promulgated rules that will allow wireless manufacturers to leverage 
technology already available in the commercial wireless sector in order 
to provide reliable, affordable, and interoperable broadband equipment 
to our first responders. As industry watchers have noted, the 
``potentials are enormous'' for use of this new technology.\1\ Numerous 
companies have already rolled out or begun development on 4.9 GHz-
compatible equipment, as well as designing mesh network systems that 
will increase signal penetration and system redundancy.
---------------------------------------------------------------------------
    \1\ Computer Assisted Pre-Coordination Resource and Database 
System, Nat'l Institute of Justice, 4.9 GHz Frequency Database Module, 
http://caprad.nlectc.du.edu/caprad/f_main
.Public49?p_cOpt=3 (Mar. 14, 2007).
---------------------------------------------------------------------------
    Brookline, Massachusetts has already taken the first step in 
installing a 4.9 GHz system, contracting with wireless providers to 
create a network that will allow immediate access to police reports and 
crime incidents, provide remote video surveillance, and do geographic 
information system (GIS) mapping. The city expects to achieve 95 
percent signal penetration on the street and 90 percent in buildings--
despite the numerous hills, trees, and old apartment buildings dotting 
the landscape--and to manage costs by eventually merging with 
commercial WiFi networks in the area. The Brookline system provides an 
example of the potential for interoperable broadband networking in the 
4.9 GHz band.

    Question 3. One issue that continues to vex policymakers is the 
buildout of wireless services in rural areas. Could you discuss this 
issue, and how either the proposal suggested by the FCC or the Public 
Safety Broadband Trust proposal would address these concerns?
    Answer. There is no reason to believe that the FCC's current 
auction regime--which encourages the highest and best use of spectrum 
licenses--will not result in buildout to rural areas. Licensees have a 
strong incentive to obtain the maximum return from their use of 
spectrum, including that portion of the spectrum serving sparsely-
populated areas of the United States. Currently, 98 percent of 
Americans live in counties served by at least three wireless providers, 
and the FCC recently concluded that ``CMRS providers are competing 
effectively in rural areas.''
    Significantly, the PSBT proposal does not guarantee increased 
buildout to rural areas or alter the market forces that will inevitably 
drive or hinder rural buildout. The PSBT proposal covers only 99.3 
percent of the U.S. population--the same percentage that already has 
access to wireless services. Furthermore, as Morgan O'Brien has 
recognized, the PSBT proposal depends on the assumption that commercial 
wireless providers will find it profitable to build out the network in 
rural areas. This assumption is not a guarantee, nor is it unique to 
the PSBT: it is simply a recognition of the market trends that are 
already enhancing wireless communications coverage in rural America. 
While Mr. O'Brien has theorized that the same carriers that will build 
the PSBT in densely-populated areas will subsidize deployment in rural 
areas, there is no guarantee that carriers that would build parts of 
the PSBT network in more-populated areas would build networks in rural 
areas if they currently already are not building in those areas.
    To the extent that the PSBT proposal depends on economies of scale 
and redistributive policies to decrease the costs of buildout in rural 
areas, the same advantages are present in the FCC's current proposal to 
allocate 12 MHz of the current public safety spectrum in the 700 MHz 
band to one national licensee that would manage national public safety 
broadband development, enhancing first responder-industry relationships 
and making money through a program of leasing access to the public 
safety spectrum to commercial interests on a preemptible basis. Like 
the PSBT proposal, the FCC proposal also does not provide any guarantee 
that current market trends combined with an enhancement of the public 
safety community's increased purchasing power will result in rural 
buildout. It does, however, pursue this goal without disrupting the 
hard-fought regime of the Digital Television Transition and Public 
Safety Act, which provides sufficient spectrum to public safety while 
also providing 60 MHz of new spectrum for commercial use in rural 
areas.
    Beyond the issues related to the PBST, let me make clear that CTIA 
recognizes the desirability of ubiquitous coverage in rural areas. The 
wireless industry is spending billions of dollars to improve network 
coverage, capacity, and quality across the United States. The Federal 
Universal Service Fund has played an important role in improving rural 
access to wireless service, and as coverage expands, more and more 
residents of rural areas are turning to wireless to meet their 
communications needs. Unfortunately, the failure of the Federal 
Communications Commission to address wireless carrier petitions for 
Universal Service support in a timely manner effectively denies 
Universal Service funding to wireless carriers, depriving consumers in 
these rural areas the full benefits of competition. Universal service 
support mechanisms should be administered on a competitively- and 
technology-neutral basis. Senator Stevens' Universal Service bill, S. 
101, would impose a six-month deadline for consideration of these 
petitions. CTIA supports this provision of S. 101.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                           Hon. Steve Largent
    Question 1. If Congress chooses to go ahead with commercial 
auctions of the full 60 megahertz of spectrum from the digital 
television (DTV) transition--instead of dedicating 30 megahertz to the 
proposed ``Public Safety Broadband Trust''--what guarantee is there 
that commercial wireless carriers will build out their wireless 
broadband networks in rural areas?
    Answer. There is no reason to believe that the FCC's current 
auction regime--which encourages the highest and best use of spectrum 
licenses--will not result in buildout to rural areas. Licensees have a 
strong incentive to obtain the maximum return from their use of 
spectrum, including that portion of the spectrum serving sparsely-
populated areas of the United States. Currently, 98 percent of 
Americans live in counties served by at least three wireless providers, 
and the FCC recently concluded that ``CMRS providers are competing 
effectively in rural areas.''
    Significantly, the PSBT proposal does not guarantee increased 
buildout to rural areas or alter the market forces that will inevitably 
drive or hinder rural buildout. The PSBT proposal covers only 99.3 
percent of the U.S. population--the same percentage that already has 
access to wireless services. Furthermore, as Morgan O'Brien has 
recognized, the PSBT proposal depends on the assumption that commercial 
wireless providers will find it profitable to build out the network in 
rural areas. This assumption is not a guarantee, nor is it unique to 
the PSBT: it is simply a recognition of the market trends that are 
already enhancing wireless communications coverage in rural America. 
While Mr. O'Brien has theorized that the same carriers that will build 
the PSBT in densely-populated areas will subsidize deployment in rural 
areas, there is no guarantee that carriers that would build parts of 
the PSBT network in more-populated areas would build networks in rural 
areas if they currently already are not building in those areas.
    To the extent that the PSBT proposal depends on economies of scale 
and redistributive policies to decrease the costs of buildout in rural 
areas, the same advantages are present in the FCC's current proposal to 
allocate 12 MHz of the current public safety spectrum in the 700 MHz 
band to one national licensee that would manage national public safety 
broadband development, enhancing first responder-industry relationships 
and making money through a program of leasing access to the public 
safety spectrum to commercial interests on a preemptible basis. Like 
the PSBT proposal, the FCC proposal also does not provide any guarantee 
that current market trends combined with an enhancement of the public 
safety community's increased purchasing power will result in rural 
buildout. It does, however, pursue this goal without disrupting the 
hard-fought regime of the Digital Television Transition and Public 
Safety Act, which provides sufficient spectrum to public safety while 
also providing 60 MHz of new spectrum for commercial use in rural 
areas.
    Beyond the issues related to the PBST, let me make clear that CTIA 
recognizes the desirability of ubiquitous coverage in rural areas. The 
wireless industry is spending billions of dollars to improve network 
coverage, capacity, and quality across the United States. The Federal 
Universal Service Fund has played an important role in improving rural 
access to wireless service, and as coverage expands, more and more 
residents of rural areas are turning to wireless to meet their 
communications needs. Unfortunately, the failure of the Federal 
Communications Commission to address wireless carrier petitions for 
Universal Service support in a timely manner effectively denies 
Universal Service funding to wireless carriers, depriving consumers in 
these rural areas the full benefits of competition. Universal Service 
support mechanisms should be administered on a competitively- and 
technology-neutral basis. Senator Stevens' Universal Service bill, S. 
101, would impose a six-month deadline for consideration of these 
petitions. CTIA supports this provision of S. 101.

    Question 2. In lieu of creating a ``Public Safety Broadband 
Trust,'' what is the wireless industry's solution to providing public 
safety with a nationwide broadband network?
    Answer. CTIA and its members fully support the creation of an 
interoperable wireless broadband public safety network. The challenges 
faced by first responders are not based on a lack of spectrum, however. 
CTIA's largest carriers use, on average, 50 MHz of spectrum--almost the 
same amount of spectrum used by public safety agencies to provide voice 
and data service to 3 million first responders \1\--to provide both 
voice and broadband data services to more than 50 million customers 
each.
---------------------------------------------------------------------------
    \1\ This does not include 50 MHz of spectrum allocated to public 
safety in the 4.9 GHz band, which some public safety officials have 
argued is better suited to high-speed, broadband public safety 
applications.
---------------------------------------------------------------------------
    The challenge of building a nationwide public safety broadband 
network derives from the balkanization of public safety spectrum, the 
resulting lack of interoperability, and the inability of local 
jurisdictions to work together to coordinate frequencies or to achieve 
economies of scale. CTIA has submitted comments in support of the FCC's 
current proposal to remedy these problems by allocating 12 MHz of the 
current public safety spectrum in the 700 MHz band to broadband 
interoperability. Under the FCC proposal, one national public safety 
licensee would be responsible for allocating, managing, and building 
out the public safety broadband network. This licensee would also work 
with the commercial wireless industry by leasing access to commercial 
interests on a preemptible basis, thereby gaining additional funds and 
cooperative partnerships with commercial entities.
    CTIA believes that the commercial wireless industry can and should 
provide the public safety community with invaluable information and 
expertise to improve efficiency and interoperability of the existing 
public safety spectrum. To this end, CTIA is sponsoring a program 
through which leaders from the public safety world and experts from the 
commercial sector can come together to find the best solutions to our 
first responders' broadband and interoperability needs. CTIA members 
have already committed themselves to this important effort, which 
begins on April 9, 2007.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            David Billstrom
    Question 1. Mr. Billstrom, in your testimony, you note that the 
military has moved to IP radio technologies. Are these same 
technologies currently available to local first responders, and if so, 
what are the major obstacles preventing wider adoption? How can we 
promote greater coordination among local first responders?
    Answer. Chairman Inouye, your questions get to the heart of the 
issue before us. Yes, the very same technologies used by the U.S. 
military are available now for first responders at the state, county 
and local level throughout the United States.
    This is not really a ``new'' technology; it is only ``new'' to 
public safety. As you know, Voice-over-IP also known as ``VoIP'' has 
existed in commercial form, embedded in many telecommunication 
products, for more than a decade. The variant of this technology used 
for military and public safety radio communications, Radio-over-IP 
(``RoIP'') is more than 5 years old--a very long time in the technology 
world. Production implementations of RoIP are used every day, 24/7, for 
mission-critical applications throughout the U.S. military--including 
with special forces--and in certain applications by the U.S. Coast 
Guard. These systems are, in many cases, available for inspection and 
review by public safety officials.
    At this point there are numerous vendors offering ROIP. We 
generally recommend to public safety agencies that they pursue 
software-only ROIP vendors in order to avoid the trap of proprietary 
hardware. It is my understanding that both the Department of Defense 
and the U.S. Coast Guard have deployed software-only ROIP solutions, 
but obviously I cannot speak for any of these users.
    There are two obstacles to wider adoption by the public safety 
community. First, many ``new'' technologies in public safety are first 
acquired with Federal grant dollars. Despite SAFECOM recommendations 
consistent with the use of ROIP, most potential grant applicants in the 
public safety community are uncertain whether a request for grant 
funding for ROIP will be favorably regarded by grant program officers. 
It would help if Congress provided direction to DHS, NTIA, HHS (and 
other Federal agencies with grant programs) that Federal grant programs 
should consider ROIP grant requests.
    It would be a tremendous improvement just to achieve a ``technology 
neutral'' position for grant dollars--as the current perception is 
heavily lopsided toward ``buy more radios from traditional radio 
manufacturers.'' That is an approach that obviously isn't working, and 
is quite expensive relative to the software alternative.
    The other obstacle to adoption by the public safety community is 
more controversial. The traditional vendors of vertically-integrated 
radio systems for public safety actively discourage the use of ROIP by 
public safety in many ways, but most outrageously by opposing any 
attempt to connect their proprietary communication systems with ROIP 
from other vendors.
    By ``vertically-integrated'' I mean radio communication systems 
that are manufactured by a single company, and by the use of patented 
and/or trade secret protected technology, prohibit the use of radios 
made by any other company on their systems. Motorola, for instance, 
makes fine products, some of the best in the world, but the trunking 
radio systems they sell to public safety (and have installed throughout 
the United States in many of our largest metropolitan areas) do not 
permit the use of radios from any other manufacturer. This is a classic 
example of a vertically-integrated product--public safety agencies must 
purchase the system, including repeaters, dispatch consoles, and all of 
the radios in the system, from a single (often sole-source) supplier. 
Although vertically-integrated systems are no longer available in the 
computer industry (IBM was the best-known example) because they were 
superseded by the open market approach, they are status quo in public 
safety for radio systems.
    The disadvantage of vertically-integrated radio systems when used 
in public safety is that the radios are fundamentally not 
interoperable, since every radio on a system must be provided by the 
system's sole manufacturer. It would be as if Dell laptops could only 
send e-mail to other Dell laptops; e-mail destined for a HP laptop 
wouldn't get through. The result is that if you must send e-mail to 
someone with a Dell, you must buy a Dell laptop even if you already own 
an HP laptop. I know public safety officials with two or even three 
radios mounted in their vehicle in order to overcome a similar 
limitation imposed by the radio system manufacturers.
    It is my opinion that most of the current public safety radio 
system manufacturers are strongly motivated to avoid or even prevent 
interoperability, in order to preserve their proprietary market 
position. From my business background I find this impressive; as a 
first responder I find this deplorable.
    In the same way that these radio system manufacturers have 
absolutely prohibited the use of radios made by any other manufacturer 
in their vertically-integrated systems, they have also prevented their 
radio systems from being interconnected with ROIP technology made by 
any other company.
    Wider adoption of ROIP by public safety would be encouraged if DHS 
refused to fund any radio system purchases (or even upgrades) if the 
radio system was not open to ROIP technologies, specifically including 
ROIP products from vendors other than the radio system manufacturer.

    Question 1a. Are these technologies sufficiently robust and 
reliable?
    Answer. The answer is simple, Radio-over-IP (``RoIP'') is as robust 
and reliable as the computer network equipment used to implement the 
technology.
    Even with this fundamental axiom, I have seen some confusion and 
misunderstanding regarding ``reliability'' and even ``security'' of 
ROIP. This is surely because these critics are confusing ``public 
safety grade'' IP networks with the DSL Internet connections many of us 
use to check e-mail at home. It is completely different. A network can 
be completely closed, secure, and protected from disruption. The 
Department of Defense, the U.S. Coast Guard, and many private and 
public corporations have billions of dollars at stake as well as 
millions of lives on their computer networks. These organizations use 
secure and redundant IP networks on a 24/7 basis. The equipment used to 
install and operate those networks is the exact same equipment used in 
ROIP systems. Public safety grade IP networks are not only reliable and 
robust, but they are more reliable and more robust than the proprietary 
radio systems built by traditional radio manufacturers.
    This is because there are more users--millions of more users world-
wide--for secure computer networks than there are police and fire radio 
users. History shows that technology innovation is driven most 
effectively when millions of users push the products and technology to 
its limits, and vendors are inspired to drive quality up and costs 
down. The serious customers of IP networks such as military services, 
governments, and corporations, have driven technology innovation and 
reliability in IP network equipment for decades now. The resulting 
competitive market (unlike the sole-source market of traditional public 
safety radio system manufacturers) has led to higher quality and lower 
price.
    Not only is ROIP more robust and more reliable, it is generally 
less expensive than traditional radio systems.
    I will reiterate my testimony in front of your committee: RoIP is 
not perfect and does not solve all public safety communication 
problems, but it is a tremendous step forward toward increased 
interoperability. And it is affordable.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            David Billstrom
    Question 1. Mr. Billstrom, thank you for making the trip across the 
country from that other Washington to be with us today. You have an 
ideal background to speak to the issues the Committee is exploring at 
this hearing. You are the CEO of a high-tech company that provides 
systems integration services for public safety organization and you are 
yourself a first responder in your local community in the San Juan 
Islands.
    As you may know, a number of Washington State public safety 
officials in the counties closest to Canada have expressed concerns 
regarding Nextel's re-banding of public safety radios within the 800 
megahertz public safety band. In particular, for the re-banding to be 
successful on our side of the border, there needs to be corresponding 
changes on the other side of the border we share with Canada and a 
revision to our existing treaty. Putting on your hat as a first 
responder, are you concerned about the slow progress the State 
Department is making with its Canadian counterpart with respect to 
modifying the existing treaty addressing this spectrum issue? How 
important is it to get this done in a timely manner as the region 
prepares for the 2010 Winter Olympics in Vancouver?
    Answer. Thank you Senator Cantwell for your kind remarks, and thank 
you for the opportunity to respond to these important questions.
    Even without the 2010 Winter Olympics in Vancouver approaching, 
this is an important issue for public safety responders in Washington, 
and in all States along the Canadian border with the United States. 
With the Olympics, this important issue has become a critical factor in 
the ability for first responders in the region to be ready.
    The problem is that radio systems--antennas on mountain tops and 
tall buildings--take time to design, manufacture, and install. Almost 
all of the equipment used in a radio system is highly specific to the 
radio frequency used. As a consequence, a new radio system needs to 
know which frequencies it will use more than a year before the system 
is to be used.
    The 800 MHz Rebanding is a complex and difficult issue, but at the 
highest level, the program is a mandatory change of every 800 MHz 
public safety radio system in the United States. In a program approved 
by the FCC, argued in the courts, and in development for years, every 
public safety radio system using 800 MHz in the United States must be 
re-built and re-deployed on new frequencies. The program is behind 
schedule, in part due to the inability to acquire new frequencies for 
the public safety agencies on the border with Canada.
    It has always been difficult to acquire frequencies for public 
safety agencies in Canadian border areas (which reach down from the 
border farther south than Seattle). In fact, the Blaine, Washington 
police department doesn't even have one frequency approved, they are 
forced to use radios from the U.S. Border Patrol since they cannot have 
their own.
    The slow, and sometimes impossible, process of coordinating 
frequencies with Canada has impeded the safety of public safety 
personnel for years. Now it is preventing the 800 MHz Rebanding program 
from forward progress.
    Because it takes time to install new radio systems, and the new 
systems must be built for the exact frequencies approved by the U.S. 
and Canada, the 800 MHz Rebanding needs to resolve frequency allocation 
with Canada immediately. I cannot provide an exact timeframe, but I 
would estimate that if the logjam with Canada is not broken within the 
next 4 to 6 months, it will be impossible to complete the 800 MHz 
Rebanding before the Olympics. This in turn will endanger public safety 
responders and the general public.

    Question 2. Let me shift to the OPSCAN project funded by the 
Department of Homeland Security that coordinated communication of over 
forty local, state, tribal, and Federal agencies operating in the 
Olympic peninsula. My understanding is that the project relied on a 
microwave backbone, mutual aid bases, Radio-over-Internet-protocol 
technology, gateway devices, and really focused on tying together 
legacy communications systems operating in different frequency bands. 
Would you say the key to the project was new hardware or open 
standards-based software? Based on your experience, do you believe that 
OPSCAN is a successful model for addressing the legacy equipment issues 
facing public safety agencies in numerous jurisdictions across the 
country?
    Answer. Yes, OPSCAN is a model for public safety agencies across 
the country for the simple and incredibly important reason that it 
dramatically improved interoperability by using ROIP (or IP Radio) 
without requiring a single first responder to buy a new radio.
    This is because OPSCAN ties together existing radio systems, and 
the radio users in any one of those radio systems simply keeps using 
their existing radio, on their existing system, but can reach radio 
users on other radio systems.
    OPSCAN was an ambitious project, with at least three major 
objectives: to improve coverage, to improve reliability, and to improve 
interoperability.
    Coverage was improved by adding new radio towers. Reliability was 
improved by installing ROIP as the method of controlling base station 
and repeater radios. As discussed in my answer to Chairman Inouye's 
question about reliability, the use of industry-standard IP network 
hardware in the OPSCAN radio network increased OPSCAN's reliability. 
The digital microwave backbone was improved, with redundancy, to host 
the IP network. The OPSCAN objectives of improving coverage and 
reliability are typical of what is needed with many of the public 
safety radio systems across the U.S., particularly in rural and 
suburban areas.
    OPSCAN's interoperability objective was met when the ROIP system 
incorporated the radio system of participating public safety agencies 
(47 agencies so far). Not only can radio users on any one system reach 
radio users on the other system(s), but 911 and dispatch centers 
throughout the region can all access the radio systems on the network. 
``Interoperability'' between dispatch centers is perhaps more important 
than interoperability between radio users in the field.
    In my experience, I have never heard of a radio system upgrade of 
this scope--that is, with 40+ agencies and a wide geographic area--that 
didn't require all of the participants to buy new radios for every 
officer, every vehicle, and every dispatch center. By using standards-
based software and standards-based IP network hardware, this radio 
system upgrade was accomplished without requiring a massive mobile and 
handheld radio purchase.
    This is a model for interoperability that is within the scope of 
most state (and even some county) budgets across the United States.

    Question 3. As you know in the Pacific Northwest, we are all very 
excited about the economic potential of the 2010 Olympics in Vancouver 
British Columbia. This event presents a number of challenges with 
respect to coordinating land, air, and sea communications across local, 
state and Federal agencies in two nations. In your view, what does San 
Juan and other border counties need to do with respect to interoperable 
communications in order to prepare for the 2010 Olympics and all of the 
expected visitors?
    Answer. This is an excellent question, and not only is this a very 
real issue for the 5-6 counties that will be directly impacted by the 
huge influx of welcome visitors over many months, but it also serves as 
a model for any high-impact, high-volume tourist event in the U.S.
    First, the aforementioned logjam between the U.S. and Canada on the 
authorization of new frequencies in the 800 MHz band for public safety 
must be resolved completely within the next 4-6 months in order for 
construction required by the 800 MHz Rebanding to begin, and then 
finish prior to the Olympics.
    Second, the 5-6 counties in the region should receive immediate 
funding for a ROIP (or IP Radio) system implemented across the region, 
and incorporating Federal U.S. agencies and of course provincial and 
national Canadian agencies. This should be an OPSCAN-like system, 
although there is no longer enough time prior to the Olympics to build 
new radio towers for coverage (OPSCAN suffered lengthy delays due to 
tower construction).
    Third, a comprehensive training program should be conducted 
throughout the region so that the first responders that make up the 
bulk of the response to any critical incident associated with the 
Olympics (or the influx of visitors to the Olympics) will have the 
interoperable communication skills. While Federal funding has been 
provided for training and drills in the most recent 2 years, it has 
primarily benefited the readiness of large metropolitan areas. The 5-6 
counties in the region affected by the Olympics are primarily rural and 
small towns, with much of public safety emergency response provided by 
volunteers. We need to get communications training to those volunteers.
    I know my colleagues in San Juan County are ready for emergencies; 
they respond every day and provide professional service. But in the 
past several years, the Federal agencies around them such as the U.S. 
Coast Guard, Immigrations and Customs Enforcement, Federal Bureau of 
Investigation, and other DHS responders have all acquired new radios 
and new radio systems. These new, proprietary systems are incompatible 
with the radios used by first responders in most of the region affected 
by the Olympics. Without an OPSCAN-like IP Radio system to interconnect 
the existing first responder radio systems with the new Federal radio 
systems, we face the potential for another massive failure of first 
responder communications as seen on 9/11 and during Katrina.
    With the I-5 freeway corridor passing through small towns and rural 
countryside for most of its length between Vancouver and Seattle, and 
with the Washington State Ferry System passing through the rural San 
Juan Islands, we must prepare our rural and small town first responders 
with interoperable communications--but not by buying all of them new 
radios.

    Question 4. Is there a standard for public safety personnel to 
exchange data? To exchange video? Should any standards developed be 
open standards? What is the danger of not having open standards?
    Answer. There is extensive discussion on the topic of standards for 
(digital) data exchange among public safety agencies, but there is no 
``open'' standard. As I have outlined previously with the open 
standards used in IP networks, an open standard for public safety data 
exchange will encourage participation by many providers and vendors, 
which in turn encourages innovation and drives costs down.
    Without open standards, we will face the usual monopoly, or at best 
duopoly, of a single vendor's proprietary standard. This will keep 
costs up, and leave quality and product features at a mediocre level at 
best. There is also an aspect of ``interoperability'' with data 
standards, including video, that would impede the exchange of crucial 
information during an emergency, in the same way that public safety 
voice radio communication interoperability is impeded today by the 
dominance of mutually-exclusive proprietary radio systems.

    Question 5. Many communities rely on the Department of Homeland 
Security's SAFECOM guidance in guiding purchase and requests related to 
facilitating interoperable communications. Do you believe that 
historically DHS has focused too much on hardware solutions? Do you 
believe that DHS guidance in the past has chilled local governments 
from pursuing IP-based solutions?
    Answer. I find it awkward to criticize an agency that has provided 
essential and valuable funding for public safety agencies, but it is an 
objective truth that the first years of SAFECOM guidance focused on the 
relatively obvious solutions, from the relatively obvious traditional 
communications vendors. Understandably, those traditional radio system 
vendors, with decades-long experience and track record with hardware, 
proposed hardware solutions.
    It is not an accident that one of the first innovations for public 
safety interoperability came from a defense contractor--an 
``interoperability switch'' that could be used at the emergency scene. 
I think it is notable that this solution did not emerge from 
traditional radio system manufacturers. These interoperability switches 
(also called ``gateways'') are hardware-intensive solutions, and have 
numerous limitations, but play an essential role. SAFECOM has 
recommended gateways for some time, which was appropriate given the 
resistance to interoperable radios. At the time, it was well-known in 
the public safety community that gateways could be acquired easily in 
DHS grant programs.
    During the past 2 years SAFECOM has essentially been silent on the 
topic of software generally, and IP Radio (or ROIP) software in 
particular. This should be surprising to everyone, as the U.S. 
continues to lead software innovation in all sectors, and in nearly all 
industries, relative to every other country. Where is the comprehensive 
review of software technology as it applies to Homeland Security, and 
to interoperable communication? I believe that there is a faulty, but 
widespread belief that communications is a ``hardware'' problem despite 
extensive evidence to the contrary, including but not limited to the 
U.S. as a leader of VoIP phones used in both business and residences.
    And yes, SAFECOM has negatively influenced the use of IP-based 
solutions by local governments. Let me be clear; it isn't that SAFECOM 
needed to endorse or promote ROIP technology (it hasn't). The issue is 
that the program has largely remained silent on the issue, which has 
had the same effect as condemning it.
    Local governments already perceive new technologies as risky, which 
is a healthy perspective. However ROIP is only ``new'' to public 
safety; it has been in use for sometime in the military. We can't 
expect local governments to be aware of technology deployments in the 
military and Coast Guard, and use that information to guide their 
decisions, but I do think we should expect DHS to do exactly that.
    Thank you again for the opportunity to comment.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                            Matthew J. Desch
    Question. Mr. Desch, in your testimony, you discuss the role that 
satellite communications can play in improving the redundancy of 
emergency communications capabilities. Is cost the major obstacle to 
more redundant communications systems? Are there other obstacles?
    Answer. I do not believe that cost is the major obstacle to the 
deployment of redundant communications systems. Iridium and other 
satellite communications providers pride themselves on their efforts to 
offer first responders redundant communications solutions at reasonable 
prices. Iridium, for example, continues to bring satellite handsets to 
the market at prices that make satellite an affordable option for first 
responders and public safety personnel, as well as for the private 
sector. In fact, Iridium prides itself on its partnerships with 
government agencies, like the Department of Defense, and the private 
sector to develop redundant devices and services. Iridium is committed 
to continuing to do so, as our recent partnership with Raytheon 
demonstrates--offering public safety an integrated interoperable and 
redundant communications package.
    Instead, one of the most significant obstacles to a redundant 
communications system for public safety is the lack of funds for the 
purchase of these devices. Public safety organizations often function 
within very limited budgets and lack the means to purchase 
interoperable and redundant communications systems. This Committee has 
already taken great strides toward ensuring that first responders have 
the funds necessary to purchase advanced, interoperable, and redundant 
communications equipment. The $1 billion you allocated in the DTV Act 
was a good first step in this direction, and the additional provisions 
in S. 385 that allow for the purchase and pre-positioning of 
communications equipment and communications service, including 
satellite, will help make sure that first responders will have access 
to redundant communications equipment. Both policymakers and public 
safety concede, however, that $1 billion is not enough to guarantee 
that all the public safety organizations in the Nation can purchase 
satellite-based devices for those times when terrestrial networks are 
ineffective or inoperable.
    Another significant impediment to the development of a truly 
effective redundant communications network for our Nation's first 
responders has been the lack of an integrated emergency communications 
plan that embraces satellite. The communications failings on September 
11 prompted an examination of the need for communications 
interoperability amongst first responders. It was not until the 
communications failings caused by the Gulf Coast hurricane disaster, 
however, that the Nation realized that communications redundancy for 
first responders was also needed in our emergency communications 
planning. Any truly effective national emergency communications plan 
must include both interoperability and redundancy--interoperability is 
fruitless when the terrestrial communications networks that the 
interoperable system is built on no longer exist.
    This need for an integrated national emergency communications plan 
has been embraced by this Committee and this Congress. The Department 
of Homeland Security communications reforms passed last fall in the 
Department's Fiscal Year 2007 Appropriations bill direct the Department 
to begin exploring and developing this national plan. Iridium strongly 
supports the provisions in S. 385 that direct the FCC to study the 
development of a national emergency communications back-up system, 
particularly because that study must include an examination of the use 
of satellite communications for such a system. Satellite is the only 
logical choice for that back-up system because it is the communications 
fail safe for first responders, and I hope that the FCC will conclude 
as much if the study is conducted.
    The benefit of development of this national communications plan 
does not stop with first responders. As the public sector begins to 
acknowledge the need for redundant communications solutions in 
emergency situations, the private sector will do so as well. Iridium 
has already begun to partner with private corporations, like MedStar 
Health, to develop devices that will function in worst-case scenarios. 
I believe that other private sector organizations will follow the 
government's and public safety's lead once satellite redundancy is 
embraced as part of a national emergency communications plan.

                                  <all>

</pre></body></html>
